 U.S. Department of Agriculture
  Office of Inspector General
      Great Plains Region
          Audit Report


   FOOD SAFETY AND INSPECTION
            SERVICE
OVERSIGHT OF PRODUCTION PROCESS
  AND RECALL AT CONAGRA PLANT
       (ESTABLISHMENT 969)




               Report No.
               24601-2-KC
               September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




DATE:         September 30, 2003

REPLY TO
ATTN OF:      24601-2-KC

SUBJECT:      Oversight of Production Process and Recall at ConAgra Plant

TO:          Dr. Garry L. McKee
             Administrator
             Food Safety and Inspection Service

ATTN:        Ronald F. Hicks
             Acting Assistant Administrator
             Office of Program Evaluation, Enforcement and Review


This report presents the results of our audit of the Food Safety Inspection Service’s
(FSIS) oversight of the recall by the ConAgra Beef Company of its ground beef and beef
products suspected of being contaminated with E. coli O157:H7. This review was
requested by the Senate Committee on Agriculture, Nutrition, and Forestry. Your
August 18, 2003, written response to the official draft report is included in its entirety
(except for the enclosures) as exhibit G with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the Findings and Recommendations section
of the report, where applicable. Exhibit E included references to proprietary production
information of the three establishments cited therein. In order to protect this information
from unauthorized disclosure, we have withheld the contents of this exhibit from
presentation in our final audit report.

We accept the management decisions for Recommendations Nos. 3, 4, 6, 7, 10, 11, 18,
19, 23, and 26. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer. Based on the
information provided in the response, we were unable to reach management decisions
for Recommendations No. 1, 2, 5, 8, 9, 12-17, 20-22, 24, 25, and 27-31. For
Recommendation No. 9, please note that we have revised the recommendation based
on your response. In order for us to consider the management decisions for these
recommendations, we will need additional information and/or action by your agency.
The additional information and/or actions needed are outlined in the report sections,
OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned and the timeframes for
implementing the corrective actions on the recommendations for which management
Dr. Garry L. McKee                                                                     2


decisions have not yet been reached. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a
maximum of 6 months from report issuance, and final action to be taken within 1 year of
each management decision.

We appreciate the cooperation and assistance provided to our staff during the audit.


/signed/

RICHARD D. LONG
Assistant Inspector General
 for Audit
                             EXECUTIVE SUMMARY
              FOOD SAFETY AND INSPECTION SERVICE
        OVERSIGHT OF PRODUCTION PROCESS AND RECALL AT
              CONAGRA PLANT (ESTABLISHMENT 969)

                                  AUDIT NO. 24601-2-KC


                                          At the request of the Senate Committee on
        RESULTS IN BRIEF                  Agriculture, Nutrition, and Forestry, we
                                          performed an audit of the Food Safety and
                                          Inspection Service’s (FSIS) oversight of the
            recall by the ConAgra Beef Company1 (ConAgra) of 18 million pounds2 of
            ground beef and beef products suspected of being contaminated with
            E. coli O157:H7. ConAgra, Establishment 969, is located in Greeley,
            Colorado. The Committee requested that we review the effectiveness of
            the U.S. Department of Agriculture’s (USDA) recall system as it was put in
            practice during the recall at ConAgra.

               The Federal meat inspection program is operated under the Hazard
               Analysis and Critical Control Point (HACCP) system that was adopted in
               1998.3 Under the HACCP program, FSIS is responsible for verifying that
               each establishment’s food safety system is operating in compliance with
               the regulations and in a way that will result in safe and wholesome meat
               products. FSIS is also responsible for verifying that each plant’s food
               safety system is properly designed. Each establishment, in turn, is
               responsible for designing a food safety system that complies with
               sanitation performance standards, requirements for sanitation standard
               operating procedures (SSOP), HACCP requirements, and pathogen
               reduction activities. As part of HACCP, the establishment must identify
               and control (1) physical, chemical, and biological hazards to the
               production process, and (2) conduct a program of ongoing microbial
               testing to verify that the food safety system is working. The establishment
               is also responsible for monitoring meat production at every stage of the
               process to ensure the safety of meat products.


1
  The ConAgra Beef Company was sold to Swift Foods Company in September 2002, after the recall, and
the Greeley, Colorado, production facility became known as Swift and Company. This report will refer to
the company only as ConAgra.
2
  The USDA press release reported a figure of 19 million pounds, but that was an estimate only. The
actual number of pounds recalled was 18,048,361.
3
  Code of Federal Regulations (CFR), 9 CFR Part 417.

USDA/OIG-A/24601-2-KC                                                                          Page i
          Beginning in mid-June 2002, at least 46 people in 16 States became ill
          from contaminated meat. About 1 month earlier, FSIS’ microbiological
          tests of ground beef at a meat grinder that used product supplied by
          ConAgra identified the presence of E. coli O157:H7. Testing, conducted
          by the Colorado Department of Public Health and Environment and the
          Centers for Disease Control and Prevention (CDC), confirmed that about
          23 individual E. coli illnesses around the State of Colorado were from the
          same genetic strain of E. coli. ConAgra officials agreed to an initial
          voluntary recall of 354,200 pounds of ground beef produced in late May of
          that year. A subsequent FSIS review of ConAgra records showed that
          beef product from that plant had been testing positive for E. coli O157:H7
          as early as April 12, 2002, and as late as July 11, 2002. At that time,
          ConAgra, Establishment 969, produced over 1 million pounds of beef a
          day. The recall was consequently expanded to include 18 million pounds
          of beef product.

          We evaluated the effectiveness of USDA’s management and oversight of
          the recall of ConAgra product. We also determined whether FSIS was
          aware of potential problems at ConAgra prior to the recall and whether
          FSIS and ConAgra operated in accordance with HACCP requirements.
          Our audit found that neither ConAgra nor FSIS effectively fulfilled their
          responsibilities under HACCP. ConAgra did not design or reassess its
          food safety system to ensure it operated in compliance with SSOP and
          HACCP requirements. Data was available to both ConAgra and FSIS in
          the period prior to the recall (January 2001 to the expanded recall) that
          indicated E. coli O157:H7 contamination was becoming a continuous
          problem at ConAgra. FSIS inspectors did not recognize and/or respond to
          these indicators and followed FSIS policies that effectively limited the
          documents the inspectors could review and the enforcement actions they
          were allowed to take.

          FSIS needs to be more proactive in its oversight by seeking access to
          available sources of data and analyzing, on an ongoing basis, the data’s
          importance as indicators of problems that could impact food safety. Also,
          FSIS needs to reassess its management and oversight of the recall
          process. The recall was ineffective and inefficient because adequate
          controls and processes were not in place to timely identify the source
          (establishment) of the contaminated product or provide reasonable
          assurance that recovery of the recalled product was maximized or
          enforcement actions taken, as necessary. As of the end of January 2003,
          only about 3 million pounds of the 18 million pounds of recalled product
          has been recovered. The majority of the beef was not returned or
          accounted for.




USDA/OIG-A/24601-2-KC                                                        Page ii
                Pre-Recall Indicators Showed Problems

                Pathogen testing and HACCP. The HACCP program was designed to rely
                on scientific, microbial testing to determine the wholesomeness of meat
                products. The program generally requires FSIS to test for E. coli O157:H7
                at plants producing ground beef. We found that FSIS inspectors at
                ConAgra did not perform their own tests and did not review other test
                results that were available to them.

                •   Under FSIS policy, plants such as ConAgra that performed their own
                    pathogen tests as a part of HACCP were exempt from FSIS testing,4
                    and those tests ConAgra performed apart from HACCP were not
                    directly presented to FSIS for review. None of the tests taken by
                    ConAgra for HACCP purposes in 2001 and 2002 showed the presence
                    of E. coli O157:H7, while at least 63 of the tests taken for non-HACCP
                    purposes in 2002 did. The tests taken for HACCP purposes were on
                    carcasses; the non-HACCP tests were taken on beef trim. Trimmings
                    from meat cuts are used as ingredients in the production of many meat
                    products, including ground beef.

                •   FSIS inspectors did not pursue the non-HACCP test results because
                    they determined FSIS had no clear authority to review
                    non-Government tests even though they knew those tests showed the
                    presence of the E. coli pathogen. Test summaries, to which FSIS had
                    access after the recall, showed an increasing frequency of E. coli
                    O157:H7 contamination at ConAgra. Officials from FSIS’ Technical
                    Service Center (TSC) advised us that it is FSIS’ policy not to require
                    plants to provide their own testing results to inspectors.

                Reanalysis of hazards. In designing its HACCP system, ConAgra
                management assumed that E. coli O157:H7 contamination was not a
                hazard that was likely to occur. Consequently, the ConAgra HACCP
                system was unprepared to respond to the actual hazards that could and
                did present themselves. FSIS regulations require that a plant reassess its
                HACCP system when food safety hazards are found in the finished
                product.

                •   ConAgra did not perform a reassessment of its HACCP system, even
                    though its tests were showing an increasing presence of E. coli
                    O157:H7 contamination.



4
  This exemption was provided for by FSIS Directive 10,010.1 (Microbiological Testing Program for E. coli
in Raw Ground Beef), dated February 1, 1998. This exemption was discontinued by FSIS effective
September 24, 2002.

USDA/OIG-A/24601-2-KC                                                                           Page iii
          •   FSIS plant inspectors were aware of some of ConAgra’s tests, but they
              believed that because the tests were not part of the HACCP program,
              they could not use the test results to force ConAgra to reassess its
              HACCP system.

          Enforcement actions.         Before the recall, FSIS issued multiple
          noncompliance notifications to ConAgra for fecal contamination of product
          (the source of E. coli), but FSIS took no decisive enforcement action.
          Instead, it continually allowed ConAgra to introduce superficial stopgap
          measures, such as increasing supervision or retraining an employee. The
          actions taken by ConAgra did not provide assurance that the physical and
          biological hazards to the production process had been identified and
          controlled. No FSIS policy stipulates what level of noncompliance should
          result in enforcement action.

          Although inspectors at ConAgra raised concerns regarding the increasing
          level of fecal contamination and positive testing results, we could find no
          evidence that FSIS managers responded to the concerns raised. Before
          the recall, FSIS instituted a number of management reviews to provide
          FSIS managers with oversight mechanisms to better manage field
          operations, but ConAgra was never selected for any of these reviews.

          Both FSIS and Beef Processors Were Unprepared for a Recall

          Neither FSIS nor the processing plants involved in the ConAgra recall
          were prepared for the possibility of a recall. Although FSIS encourages all
          establishments to prepare recall plans, HACCP plans for two of the
          grinders using ConAgra beef did not address recall procedures. One of
          these grinders was unable to readily determine from its records which of
          its customers received the recalled product.

          FSIS policies added to the inefficiency of the recall by impeding the
          inspectors’ ability to trace a contaminant from the grinder’s establishment
          back to the supplier. FSIS inspectors discovered the pathogen at a meat
          grinding plant that used ConAgra product, but they could not test
          traceback samples because FSIS policy required concurrence from its
          TSC before the samples could be drawn, and the district office could not
          get this concurrence. FSIS policy held grinders accountable for ensuring
          that the product from their suppliers was wholesome. This policy, and the
          need for TSC concurrence for traceback samples, contributed to a 7-day
          delay in the recall and added to the quantity of beef product recalled.

          •   FSIS had imposed no specific requirement that plants keep production
              or distribution records. Poor records at the establishments that used
              ConAgra beef increased the difficulty FSIS had in tracking the further
              disbursement of the ground meat.

USDA/OIG-A/24601-2-KC                                                        Page iv
          •   Reviews designed by FSIS to determine the effectiveness of the recall
              were not used to exercise control over the recall process. After a
              recall, FSIS conducts effectiveness checks to determine if all
              distributors of the recalled product were notified of the recalled product
              and if all recalled product had been withheld from further distribution.
              These reviews were not performed in time to maximize the amount of
              ConAgra product recovered, and problems found during the reviews
              received limited management attention.

          •   Even though 67 of the 490 effectiveness checks we reviewed indicated
              that distributors and others in the distribution chain had not been
              notified of the recall, FSIS district managers determined the recall was
              a success because, to their knowledge, no one consuming the
              unrecovered product became ill.

          During the recall, ConAgra altered its HACCP process by introducing
          lactic acid into the production of ground beef to control the E. coli O157:H7
          contaminant. FSIS approved the use of the acid but did not adequately
          document how it determined that lactic acid was an appropriate
          antimicrobial intervention in ground beef. We found scientific evidence
          that the use of lactic acid in ground beef may raise the cooking
          temperature necessary to destroy the E. coli O157:H7 contaminant. Thus,
          the pathogen may not be destroyed using current cooking temperature
          guidelines.

          Monitoring Needs To Be Proactive

          The recall of ConAgra beef products might have progressed more
          effectively if FSIS had provided closer monitoring of ConAgra and the
          establishments that processed its beef. Primarily, FSIS needed to ensure
          the establishments’ HACCP plans were technically sufficient to ensure
          compliance with HACCP and SSOP requirements. HACCP plans at all
          three of the plants we reviewed for this audit did not adequately address
          all food safety hazards.

          FSIS officials stated that the FSIS in-plant personnel performing most of
          the reviews of HACCP plans were not sufficiently trained and, therefore,
          not technically competent to make accurate assessments of the plans. In
          2000, FSIS started a program to hire and train a staff of technically
          competent personnel, and by the end of 2002, it had about 105 individuals
          available to review the more than 5,000 HACCP plans at federally
          inspected plants. However, even with the program in place, FSIS does
          not want or plan to have approval authority over establishment HACCP
          plans.


USDA/OIG-A/24601-2-KC                                                           Page v
          FSIS oversight needed strengthening in other key areas:

          •   FSIS guidance to reinspect carcasses when fecal contamination is
              observed is not clearly announced in FSIS’ written policy. We noted at
              least one case where 175 beef carcasses at ConAgra may have been
              contaminated with fecal matter and were not reinspected.

          •   FSIS’ current random nationwide sampling of plants for the presence
              of E. coli O157:H7 does not verify the effectiveness of HACCP
              systems and does not measure the extent of a hazard. We concluded
              that the sampling should be based on the risk posed by individual
              plants.

          •   FSIS has no written procedures that require FSIS personnel to take
              control of or monitor beef that has tested positive for E. coli O157:H7.
              FSIS allowed ConAgra to resell contaminated beef without verifying
              that the buyers would not reuse it as raw ground.

          The Office of Inspector General issued a series of food safety audits in
          2000 that reported our assessment as to whether FSIS’ meat and poultry
          inspection program remained effective under HACCP. In that food safety
          initiative summary report, we concluded that while FSIS had taken positive
          steps in its implementation of the science-based HACCP program, FSIS
          needed to command a more aggressive presence in the inspection and
          verification process; it had reduced its oversight short of what was prudent
          and necessary for the protection of the consumer. The conditions noted in
          our review of the ConAgra recall have again led us to question the
          adequacy of establishment HACCP plans and FSIS’ oversight and
          verification programs that identify and control hazards to the production
          process.

          Two of the conditions we noted during this review are, in our judgment,
          material internal control weaknesses—namely (1) that FSIS lacked a
          process to accumulate, review, and analyze all data available to assess
          the adequacy of food safety systems and (2) that accurate assessments of
          HACCP plans had not been made because FSIS lacked sufficient,
          competent staff to make those assessments. As material weaknesses,
          these conditions should be included in the agency’s Federal Manager’s
          Financial Integrity Act (FMFIA) report.

          During the recall and audit, FSIS took a number of actions to strengthen
          their inspection procedures. Also, in October 2002, FSIS informed
          establishments producing raw beef products of the need to reassess their
          HACCP plans, based on the assumption that E. coli O157:H7 is a hazard
          reasonably likely to occur at all stages of the process. FSIS has also
          begun comprehensive food safety assessments to evaluate the adequacy

USDA/OIG-A/24601-2-KC                                                         Page vi
           of HACCP plans and food safety systems. These assessments are critical
           to the success of HACCP.

           On March 19, 2003, the Secretary of Agriculture issued a challenge to
           FSIS calling for creative and effective ways to modernize FSIS’ ability to
           continue to improve the safety of U.S. meat, poultry, and egg products to
           better protect public health. On July 10, 2003, the Department released a
           food safety vision document titled “Enhancing Public Health: Strategies
           for the Future.” This document articulated five core goals: (1) improve the
           management and effectiveness of regulatory programs; (2) ensure that
           policy decisions are based on science; (3) improve coordination of food
           safety activities with other public health agencies; (4) enhance public
           education efforts; and (5) protect meat, poultry, and egg products against
           intentional contamination. The vision statement, as well as portions of
           FSIS’ response to the recommendations made in this report, describes the
           agency’s accomplishments to date in meeting these goals. FSIS’
           response to this report, as well as exhibit B, presents other actions under
           consideration to correct the problems reported herein.

                                    We are recommending that FSIS provide clear
 KEY RECOMMENDATIONS                authority for FSIS’ access to all internal and
                                    external plant pathogen and microbial testing
                                    results, including tests performed for
        customers, and ensure plants notify FSIS of test results, especially when
        those results show the presence of pathogens. We had made a similar
        recommendation in our prior report of 2000, but FSIS determined not to
        amend the Grant of Inspection. We are reiterating the recommendation
        because we believe events have shown that FSIS needs to revisit its
        authorities and establish operating procedures to address the weaknesses
        disclosed in this audit.

           We are recommending that FSIS reassess its management control
           process over the recall operations. FSIS should make recall activities
           more effective by ensuring that ground beef is traceable from
           manufacturing to point-of-sale and that adequate production records are
           maintained to facilitate traceback. Regulations need to be issued to
           provide clear directions on when traceback samples are to be collected
           and how the samples are to be processed.

           We are also recommending that FSIS:

           •   establish a management control process to accumulate, review, and
               analyze all data available to the agency;

           •   establish criteria when enforcement action should be taken for
               repetitive violations and/or ineffective corrective action;

USDA/OIG-A/24601-2-KC                                                        Page vii
           •   increase supervision and oversight of ConAgra, Establishment 969,
               until the plant demonstrates it is capable of sanitary and wholesome
               production;

           •   strengthen its monitoring of inspector activities to ensure the inspectors
               achieve an acceptable level of performance in applying HACCP
               requirements; and

           •   define the goals, objectives, and methods of its E. coli O157:H7 testing
               program and ensure that the program is risk-based and includes
               performance measures.

           Finally, we are recommending that FSIS instruct FSIS inspection
           personnel to take control of E. coli O157:H7 adulterated product and verify
           that product is properly processed or destroyed.

                                      In its August 18, 2003, written response to the
    AGENCY RESPONSE                   official draft report, FSIS was in agreement
                                      with the findings and recommendations
                                      presented therein, except for Recommen-
        dations Nos. 2, 9, 12, 15, and 24. Based on FSIS’ response, we revised
        Recommendation No. 9. We have incorporated applicable portions of
        FSIS’ response, along with our position, in the Findings and
        Recommendations section of this report. The agency’s response is
        included in its entirety (except for the enclosures) as exhibit G.

                                       We concur with FSIS’ proposed corrective
        OIG POSITION                   actions and have accepted management
                                       decisions for Recommendations Nos. 3, 4, 6,
                                       7, 10, 11, 18, 19, 23, and 26. However, FSIS
          did not provide the specific actions planned, and estimated timeframes for
          implementation, to correct the conditions noted for Recommendations
          Nos. 1, 2, 5, 8, 9, 12-17, 20-22, 24, 25, and 27-31. FSIS, for these
          recommendations, generally responded that a directive will be issued or
          that a working group will be convened to study and recommend changes
          to its policies and procedures. Since FSIS has not provided the specific
          actions it will take to correct the conditions noted, we cannot accept
          management decisions for these recommendations.




USDA/OIG-A/24601-2-KC                                                           Page viii
                                           TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ..................................................................................... vii
   AGENCY RESPONSE ............................................................................................. viii
   OIG POSITION ......................................................................................................... viii
  TABLE OF CONTENTS ............................................................................................. ix
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 6
   SCOPE ........................................................................................................................ 7
  METHODOLOGY ........................................................................................................ 7
FINDINGS AND RECOMMENDATIONS ........................................................................ 9
   CHAPTER 1 ................................................................................................................ 9
   AVAILABLE INDICATORS BEFORE THE RECALL SHOWED THAT E. COLI
   O157:H7 CONTAMINATION WAS A PROBLEM AT CONAGRA.............................. 9
   FINDING NO. 1.......................................................................................................... 10
   RECOMMENDATION NO. 1 ..................................................................................... 16
   RECOMMENDATION NO. 2 ..................................................................................... 17
   RECOMMENDATION NO. 3 ..................................................................................... 19
   FINDING NO. 2.......................................................................................................... 20
   RECOMMENDATION NO. 4 ..................................................................................... 23
   RECOMMENDATION NO. 5 ..................................................................................... 24
   FINDING NO. 3.......................................................................................................... 26
   RECOMMENDATION NO. 6 ..................................................................................... 27
   RECOMMENDATION NO. 7 ..................................................................................... 28
   FINDING NO. 4.......................................................................................................... 29
   RECOMMENDATION NO. 8 ..................................................................................... 31
   RECOMMENDATION NO. 9 ..................................................................................... 33
   FINDING NO. 5.......................................................................................................... 35


USDA/OIG-A/24601-2-KC                                                                                                  Page ix
 RECOMMENDATION NO. 10 ................................................................................... 37
 RECOMMENDATION NO. 11 ................................................................................... 38
 CHAPTER 2 .............................................................................................................. 40
 RECALL OF CONAGRA BEEF PRODUCTS NEEDED MORE PROACTIVE
 INVOLVEMENT BY FSIS.......................................................................................... 40
 FINDING NO. 6.......................................................................................................... 41
 RECOMMENDATION NO. 12 ................................................................................... 42
 FINDING NO. 7.......................................................................................................... 43
 RECOMMENDATION NO. 13 ................................................................................... 47
 FINDING NO. 8.......................................................................................................... 48
 RECOMMENDATION NO. 14 ................................................................................... 55
 RECOMMENDATION NO. 15 ................................................................................... 56
 RECOMMENDATION NO. 16 ................................................................................... 57
 RECOMMENDATION NO. 17 ................................................................................... 58
 FINDING NO. 9.......................................................................................................... 59
 RECOMMENDATION NO. 18 ................................................................................... 62
 RECOMMENDATION NO. 19 ................................................................................... 63
 FINDING NO. 10........................................................................................................ 64
 RECOMMENDATION NO. 20 ................................................................................... 67
 CHAPTER 3 .............................................................................................................. 70
 MONITORING AND SUPERVISION OF FOOD SAFETY PROCEDURES AT BEEF
 PRODUCTION PLANTS NEED TO BE IMPROVED ................................................ 70
 FINDING NO. 11........................................................................................................ 71
 RECOMMENDATION NO. 21 ................................................................................... 74
 RECOMMENDATION NO. 22 ................................................................................... 75
 RECOMMENDATION NO. 23 ................................................................................... 76
 FINDING NO. 12........................................................................................................ 77
 RECOMMENDATION NO. 24 ................................................................................... 79
 RECOMMENDATION NO. 25 ................................................................................... 80
 FINDING NO. 13........................................................................................................ 81
 RECOMMENDATION NO. 26 ................................................................................... 84
 RECOMMENDATION NO. 27 ................................................................................... 85
 RECOMMENDATION NO. 28 ................................................................................... 86

USDA/OIG-A/24601-2-KC                                                                                            Page x
   RECOMMENDATION NO. 29 ................................................................................... 87
   FINDING NO. 14........................................................................................................ 89
   RECOMMENDATION NO. 30 ................................................................................... 90
   FINDING NO. 15........................................................................................................ 91
 RECOMMENDATION NO. 31 ................................................................................... 93
GENERAL COMMENTS............................................................................................... 95
   EXHIBIT A – LOCATIONS VISITED ......................................................................... 96
   EXHIBIT B – PROCEDURES, POLICIES, AND REGULATIONS CHANGED AFTER
   THE CONAGRA RECALL ........................................................................................ 97
   EXHIBIT C – CONAGRA RECALL TIMELINE ....................................................... 103
   EXHIBIT D – REPETITIVE NRs WRITTEN FOR ZERO TOLERANCE VIOLATIONS
   ................................................................................................................................. 112
   EXHIBIT E – DETAILS OF FLAWS IN HACCP PLANS......................................... 114
   EXHIBIT F – EXAMPLES OF UNSANITARY PRACTICES AND VIOLATIONS OF
   PROCEDURES AT CONAGRA .............................................................................. 115
 EXHIBIT G – FSIS RESPONSE TO THE DRAFT REPORT................................... 119
ABBREVIATIONS....................................................................................................... 146
GLOSSARY OF TERMS............................................................................................. 149




USDA/OIG-A/24601-2-KC                                                                                                       Page xi
                                     INTRODUCTION

                                        A request from the Senate Committee on
           BACKGROUND                   Agriculture, Nutrition, and Forestry, dated
                                        July 26, 2002, asked the Office of Inspector
                                        General (OIG) to examine the effectiveness of
             the response by the U.S. Department of Agriculture (USDA) to the recall of
             18 million pounds1 of ground beef and beef products by the ConAgra Beef
             Company (ConAgra)2 after beef product from that company was found to
             contain the pathogen Escherichia coli (E. coli) O157:H7.3 At the time of
             this request, OIG had an audit survey in process to evaluate Food Safety
             and Inspection Service (FSIS) recall program. This work was put in
             abeyance to address the ConAgra recall.

                Beginning in mid-June 2002, at least 46 people in 16 States consumed
                ConAgra ground beef products and became ill. It was subsequently
                determined that these illnesses were caused by ground beef that was
                adulterated with E. coli O157:H7. Testing, conducted by the Colorado
                Department of Public Health and Environment and the Centers for
                Disease Control and Prevention (CDC), confirmed that about 23 individual
                E. coli illnesses around the State of Colorado were from the same genetic
                strain of E. coli. In mid-June, FSIS microbiological tests of ground beef at
                a Denver meat grinder identified the presence of the E. coli O157:H7
                pathogen. Later testing of the raw materials used in the ground beef that
                tested positive for the pathogen identified the source of the contamination
                as beef products coming from the ConAgra plant in Greeley, Colorado.

                On June 30, 2002, ConAgra officials agreed to an initial voluntary recall of
                354,200 pounds of ground beef, which they identified as being produced
                on May 31, 2002, and the probable source of the adulterated product. At

1
  For the USDA press release, 19 million pounds was estimated. The actual number of pounds recalled
was 18,048,361.
2
  The recalled product was produced at the ConAgra plant in Greeley, Colorado. According to press
reports, the plant is one of the largest in the Nation, employing about 2,500 people. The plant slaughters
about 1.2 million cattle a year and processes, on average, at least 350 cattle per hour.
3
  E. coli O157:H7 is one of hundreds of strains of the bacterium Escherichia coli. Although, most strains
are harmless and live in the intestines of healthy humans and animals, this strain produces a powerful
toxin and can cause severe illness. E. coli O157:H7 was first recognized as a cause of illness in 1982;
the outbreak was traced to contaminated hamburgers. Since then, most infections have come from
eating undercooked ground beef. The combination of letters and numbers in the name of the bacterium
refers to the specific markers found on its surface and distinguishes it from other types of E. coli. The
organism can be found on a small number of cattle farms and the organism can live in the intestines of
healthy cattle. Meat can become contaminated during slaughter, and organisms can be thoroughly mixed
into beef when it is ground. Eating meat, especially ground beef that has not been cooked sufficiently to
kill E. coli O157:H7, can cause infection (CDC Disease Information, Escherichia coli O157:H7, website).

USDA/OIG-A/24601-2-KC                                                                            Page 1
          the direction of the Secretary, FSIS conducted an indepth review of
          ConAgra plant practices and company records. The review revealed
          multiple positive company sample results of its beef trim on various dates
          during the period April 12 through July 11, 2002.

          On July 18, 2002, because of the FSIS review, the company decided that
          the recall needed to be expanded to include about 18 million pounds of
          ground beef and beef trim. On the same day, FSIS issued a Notice of
          Intended Enforcement (NOIE) to ConAgra that allowed the company 3
          days to respond in writing to demonstrate why an inadequacy
          determination should not be made against its sanitation standard
          operating procedure (SSOP) and its Hazard Analysis and Critical Control
          Point (HACCP) system. Based on the company’s response and planned
          corrective actions, the NOIE was held in abeyance and the plant
          continued to operate from July through mid-November. However, on
          November 15, 2002, FSIS suspended inspection services, effectively
          closing the plant. Inspection services were suspended because of
          repeated “zero tolerance” violations that occurred following the issuance of
          the NOIE. (FSIS policy tolerates no amount of fecal material, ingesta, or
          milk in beef.) Zero tolerance failures had been a recurring problem at the
          plant for several years. The plant was allowed to resume operations on
          November 20, 2002, after the company presented FSIS with planned
          corrective actions that were deemed sufficient to correct the problems with
          zero tolerance failures.

          USDA’s actions in carrying out the recall received widespread publicity
          and criticism in the Press and from Congress. These critics noted that the
          recall did not start until the end of June even though contaminated product
          was first produced in April and that the recall had to be expanded because
          not all potentially contaminated product had been identified until July. The
          critics also took FSIS procedures to task because they did not stipulate
          that FSIS should notify suppliers that their products were potentially the
          cause of contamination in ground beef found at meat grinders. The E. coli
          O157:H7 contamination was first identified at a Denver meat grinder –
          Galligan Wholesale Meat Company (Galligan) – that used ConAgra beef.
          Shortly thereafter, a Montana meat grinder, Montana Quality Foods &
          Processing, Inc., (Montana Quality Foods), claimed to have suffered
          E. coli O157:H7 contamination from ConAgra beef as early as
          January 2002.

          Food Safety and the HACCP System

          To improve the safety of meat and poultry products, FSIS implemented
          regulatory requirements intended to ensure that plants operate food safety
          systems that are prevention-oriented and science-based. These systems,
          called HACCP systems, were phased in from January 1998 through

USDA/OIG-A/24601-2-KC                                                         Page 2
          January 2000 at all meat and poultry slaughter and processing plants.
          Under the HACCP system, plants are responsible for developing plans
          that identify all of the contamination hazards that are reasonably likely to
          occur in a plant’s production environment, establish the steps needed to
          control these hazards, and have valid scientific evidence to support their
          decisions.

          Because the HACCP system relies on scientific standards, rather than the
          earlier sight-touch-smell inspections by FSIS inspectors, processing plants
          assume more control over the wholesomeness of their product. In turn,
          FSIS assumes a less obvious presence and relies, in part, on the
          pathogen test results to determine the effectiveness of the plants’ HACCP
          controls.

          FSIS, through its 15 district offices across the country, oversees the
          activities of about 7,500 Federal inspectors who review the operations of
          about 5,000 plants subject to the HACCP requirements nationwide. As a
          part of their oversight, inspectors ensure that the plants’ HACCP plans
          respond to the seven criteria established by regulation. The generic
          HACCP plan calls for the plant to:

          •   Conduct an analysis of the potential hazards that could threaten the
              safety of the product;

          •   Identify critical points where controls can be applied to prevent,
              eliminate, or reduce a food safety hazard to an acceptable level;

          •   Establish critical limits (e.g., minimum temperatures) at which the
              hazard is controlled;

          •   Establish monitoring procedures to ensure that the measured values
              (temperatures, foreign particles, etc.) are within critical limits;

          •   Establish corrective actions to be taken if critical limits are violated;

          •   Establish recordkeeping procedures to document the monitoring of
              critical control points (CCP); and

          •   Establish verification procedures to ensure the HACCP plan is
              effective.

          When FSIS inspectors find a violation of the HACCP requirements, such
          as a plant’s failure to control fecal contamination, they document the
          violation on a noncompliance record (NR) and advise the plant. If the
          plant does not correct the violation, FSIS may take an enforcement action,
          such as slowing one or more production lines or withholding the “USDA

USDA/OIG-A/24601-2-KC                                                               Page 3
               Inspected” stamp. From a sample of 14 large4 cattle slaughter plants like
               ConAgra, we found that FSIS issued an average of 89 NRs in 2001 and
               an average of 44 through August 2002. By contrast, ConAgra received
               103 NRs in 2001 and 43 through August 2002.

               Prior Criticisms of FSIS’ Oversight of HACCP

               In 1999, the General Accounting Office (GAO) reported that weaknesses
               in FSIS’ training for its inspectors affected its ability to ensure consistent
               and effective oversight of HACCP.5 The following year, an OIG report
               identified shortcomings in plants’ HACCP plans and deficiencies in FSIS’
               oversight of HACCP’s implementation.6

               To help address these problems, FSIS stepped up its inspector training
               and initiated reviews of inspection practices in selected districts and of
               HACCP plans in plants with serious safety problems. In addition to the
               food safety system correlation reviews and indepth verification reviews,
               FSIS conducts seven other types of internal reviews to ensure their
               programs are functioning effectively. These reviews include reviews of
               agency programs, processes, and related management controls and
               reviews to assist in program planning, implementation, improvement, and
               accountability. FSIS also introduced consumer safety officers (CSO) into
               its workforce with the expertise to review the scientific soundness of
               HACCP plans. As of December 31, 2002, about 105 individuals were
               trained as CSOs.

               Science Testing and E. Coli

               According to CDC, E. coli O157:H7 is an emerging cause of foodborne
               illness.7 An estimated 73,000 cases of infection and 61 deaths occur in
               the United States each year. Most illness has been associated with eating
               undercooked, contaminated ground beef.         Although the number of
               organisms required to cause the disease is not known, it is suspected to
               be very small. E. coli O157:H7 is one of hundreds of strains of the
               bacterium Escherichia coli. Although most strains are harmless and live in
               the intestines of healthy humans and animals, the O157:H7 strain
               produces a powerful toxin and can cause severe illness.

               On October 17, 1994, FSIS began a microbiological testing program for
               E. coli O157:H7 in raw ground beef. The objective of the testing program

4
  FSIS defines large plants as those employing 500 or more employees.
5
  GAO/RCED-00-16, Meat and Poultry: Improved Oversight and Training Will Strengthen New Food
Safety System, dated December 8, 1999.
6
  OIG Report No. 24001-3-At, Implementation of the Hazard Analysis and Critical Control Point System,
dated June 2000.
7
  CDC Disease Information, Escherichia coli O157:H7, website.

USDA/OIG-A/24601-2-KC                                                                       Page 4
                was to detect E. coli O157:H7 and to “stimulate industry action to reduce
                the presence of the pathogen in raw ground beef.” In 1998, when the
                HACCP program was initiated, FSIS expanded the objectives of the
                testing program to include verification that the plant’s HACCP system was
                effective. Under the testing program, 600 tests are randomly scheduled at
                establishments producing raw ground beef each month.

                ConAgra was generally exempted from the testing program because it
                used its own validated pathogen reduction interventions on beef
                carcasses.8     ConAgra routinely verified the effectiveness of the
                interventions by testing for E. coli O157:H7 on carcasses and prevented
                the use of boneless beef or carcasses from outside sources.
                Consequently, since 1998 there were only four FSIS tests of raw ground
                beef taken at ConAgra before the recall. One sample was discarded and
                three tested negative. ConAgra did not test for E. coli O157:H7 in its
                ground beef products.

                The Recall Process

                If an HACCP system fails and adulterated or misbranded products are
                identified in commerce, FSIS will seek voluntary recalls of the affected
                products. Although recalls are voluntary, FSIS oversees all recall
                activities by official meat and poultry firms. FSIS also has the authority to
                detain and seize adulterated or misbranded products, if necessary.

                When determining the need for a recall, the FSIS Recall Management
                Division (RMD) assembles a recall committee. The committee is made up
                of representatives of various FSIS divisions who oversee the recall.
                Typically, recalls include a hazard evaluation, a recall classification, a
                recall recommendation, a public notification, and a recall notice report.
                The recall is followed by effectiveness checks, during which FSIS
                compliance officers determine if all distributors of the recalled product had
                been notified of the recall and if all recalled product had been withheld
                from further distribution. The recall ends when the plant that initiated the
                recall reports that the recall is completed, and when FSIS compliance and
                RMD concur that the recalling firm has made all reasonable efforts to
                recall product, and that the firm has either disposed of the product or the
                product is under company or FSIS control. FSIS then notifies the firm in
                writing that the recall is closed.

                In 2002, FSIS added regulations that call for an information-sharing
                process between Federal and State governments during a recall. Under
                these new regulations, FSIS would give States a distribution list of the

8
 This exemption was provided for by FSIS Directive 10,010.1 (Microbiological Testing Program for E. coli
O157:H7 in Raw Ground Beef), dated February 1, 1998.

USDA/OIG-A/24601-2-KC                                                                          Page 5
          customers of a firm that is recalling meat products in those States. Such a
          list would help State health authorities locate and sequester recalled
          products. Because the distribution lists are confidential commercial
          information, State agencies requesting the lists are to provide a written
          agreement not to disclose such information without the firm’s written
          permission. The new regulations were proposed in an April 2002 Federal
          Register, and the accompanying memorandums of understanding
          between FSIS and the six participating States were not signed until
          September 2002.

          The Federal Manager’s Financial Integrity Act (FMFIA) requires that
          agencies evaluate their systems of management controls and report any
          material weaknesses identified in its fiscal year 2002 report to the Office of
          the Chief Financial Officer. FSIS reported that they had no material
          weaknesses and their management control systems generally complied
          with the FMFIA.

                                       Our overall audit objective was to respond to a
        OBJECTIVES                     Congressional request to evaluate FSIS’ recall
                                       system in light of widespread publicity and
                                       criticism related to the recent ConAgra recall
         and to identify potential threats to consumers. Specifically, our objectives
         were to:

          •   Determine whether FSIS was aware of potential problems at ConAgra
              that could lead to a recall;

          •   Determine the effectiveness of FSIS’ response regarding the ConAgra
              recall, specifically whether FSIS followed its existing procedures (see
              exhibit B); and

          •   Identify any improvements needed to better protect consumers.

          The Congressional request also asked us to examine two other areas:
          USDA’s program for recalling meat and poultry products, and the
          Department’s progress in addressing problems identified in our 2000
          review of the implementation of the HACCP program, FSIS’
          determinations of U.S.-equivalency of food safety systems in foreign
          countries, FSIS’ program for testing pathogens, and the effectiveness of
          FSIS’ compliance activities. These two additional areas of the
          Congressional request are being addressed in separate audits and our
          conclusions about them will be reported under separate covers.




USDA/OIG-A/24601-2-KC                                                           Page 6
                                      The audit fieldwork was conducted at the FSIS
           SCOPE                      National Office in Washington, D.C.; the
                                      Boulder,     Colorado,     and      Minneapolis,
                                      Minnesota, District Offices; and three plant
          locations. Other sites were visited as needed (see exhibit A for a
          complete list of the locations visited). We reviewed FSIS policies and
          procedures at the National Office and district offices visited. We focused
          our review on regulations and procedures related to production of beef
          products.

          Records we reviewed at ConAgra generally covered the period April
          through August of 2002, but longer periods were reviewed when deemed
          necessary.

          The fieldwork was conducted during the period August 2002 through
          March 2003. We conducted this audit in accordance with Government
          Auditing Standards.

                                      To accomplish our audit objectives           we
      METHODOLOGY                     performed the following fieldwork:


          •   We analyzed documents and conducted interviews with FSIS
              Headquarters officials;

          •   We contacted officials of the food industry and representatives of
              USDA’s Agricultural Research Service (ARS);

          •   We reviewed FSIS’ regulations, instructions, procedures, and studies;
              published reports; media releases; and other Government reviews and
              studies; and

          •   We conducted site visits to the FSIS National Office, FSIS Technical
              Service Center (TSC), district offices, and industry plants for review
              and analysis.

          Our reviews at the plant locations included evaluation of the plants’ written
          SSOPs, HACCP plans, pathogen testing procedures, responses to FSIS
          NRs, procedures followed for the recalls, and returned product
          procedures. Our evaluation of the HACCP plans included an indepth
          review with the assistance of technical experts from the FSIS TSC. We
          also toured the plant locations and observed plant operations, including
          pre-operational cleanup procedures and monitoring activities at the
          designated CCPs. We made a detailed review of the HACCP processing
          records, production records, NRs, microbiological testing records from
          both ConAgra and Warren Analytical Laboratory, and records associated

USDA/OIG-A/24601-2-KC                                                          Page 7
          with the recall at ConAgra. Recall related records reviewed included
          customer notifications, records of recovered product, and effectiveness
          checks.

          The sites selected for review included the ConAgra plant involved in the
          recall and two meat grinding facilities that used ConAgra products in their
          process, specifically Galligan and Montana Quality Foods. The following
          table provides the most important statistics about these establishments:

          Figure 1: Vital Statistics of Sites Visited
                   Plant                                 Estimated Production
          ConAgra                   An average of 5,200 head of fat cattle are slaughtered and
          Establishment No. 969 fabricated each day. This produces about 2.1 million pounds of
          Greeley, Colorado         boxed beef and 1 million pounds of boneless beef trim daily. Of
                                    this 1 million pounds of boneless beef trim, 350,000 pounds is
                                    used for ground beef production within the establishment,
                                    100,000 pounds is rendered for technical fat, and 550,000
                                    pounds is sold to other processors. Variety meat production
                                    (hearts, livers, head meat items, tripe, etc.) adds an additional
                                    270,000 pounds of production each day.

          Galligan Wholesale        The plant does not have a slaughter operation. During a
          Meat Company,             month, it processes about 10,000 pounds of ground beef,
          Establishment             10,000 pounds of ham product, 1,000 pounds of sausage, and
          No. 6475                  smaller amounts of beef patties, Salisbury Steaks, and chicken.
          Denver, Colorado
          Montana Quality           The plant normally slaughters 12-15 head per day and, during
          Foods & Processing,       busy times, slaughters 20-25 head per day.         Slaughter
          Inc.                      operations are conducted only 1 day per week. The plant
          Establishment             produces about 700,000 pounds of product annually.
          No. 7679
          Miles City, Montana




USDA/OIG-A/24601-2-KC                                                                       Page 8
                FINDINGS AND RECOMMENDATIONS


                        AVAILABLE INDICATORS BEFORE THE RECALL
CHAPTER 1               SHOWED THAT E. COLI O157:H7 CONTAMINATION
                        WAS A PROBLEM AT CONAGRA


                Neither ConAgra nor FSIS effectively fulfilled their responsibilities under
                HACCP. Data existed prior to the recall that showed E. coli O157:H7
                contamination was a continuing problem at ConAgra. ConAgra did not
                design or reassess its food safety system to ensure it operated in
                compliance with SSOP and HACCP requirements. FSIS lacks a process
                to accumulate, review, and analyze all data available to them to monitor
                and assess plant compliance. We consider this a material weakness in
                FSIS’ inspection and verification activities. FSIS needs to be more
                proactive in seeking access to all available sources of plant data and in
                analyzing the data’s importance as indicators of problems. Also, FSIS’
                written and unwritten policy to defer to the plant to detect and control any
                contamination precluded FSIS’ inspectors from making their own early
                detection of the contaminant and limiting any recall.

                Under the science-based HACCP system, FSIS tests for pathogens, such
                as E. coli O157:H7, at establishments that purchase and process beef.
                FSIS schedules 600 random nationwide E. coli pathogen tests on ground
                beef each month, and some meat processors, like ConAgra, perform their
                own pathogen tests on carcasses. We found several weaknesses in
                FSIS’ role in the pathogen testing and in implementing the HACCP system
                at ConAgra.

                    FSIS tests at ConAgra. FSIS had relinquished its testing of most of the
                    beef production process at ConAgra and determined it had no clear
                    authority to review non-Government testing results even though it
                    knew the tests showed the presence of the E. coli O157:H7 pathogen.
                    Under FSIS policy, plants like ConAgra were encouraged to perform
                    their own pathogen tests on beef carcasses, allowing them to be
                    exempt from FSIS random testing.9 Moreover, FSIS did not test beef
                    trim (an ingredient in ground beef) and did not ask ConAgra to share

9
  During the recall, FSIS revoked its policy of exempting plants from random testing.        Ground beef
products from all plants, including ConAgra, are now tested routinely for E. coli O157:H7.

USDA/OIG-A/24601-2-KC                                                                           Page 9
               its test results on trim because FSIS’ policy was unclear on whether to
               consider contaminated trim as adulterated.

               ConAgra tests for generic E. coli. FSIS requires plants like ConAgra to
               routinely monitor the presence of generic E. coli on beef carcasses.
               (Generic E. coli is naturally occurring, but large amounts of the microbe
               indicate a potential problem with the plant’s control of fecal
               contamination.) For 2002, ConAgra increased the amount of generic
               E. coli it would tolerate in its product, but FSIS did not question this
               increase.

               ConAgra’s HACCP plan. ConAgra managers designed their HACCP
               plan under the flawed assumption that the E. coli O157:H7 pathogen
               was unlikely to occur in their product, and they did not alter this
               assumption in spite of growing evidence that the pathogen was
               contaminating their beef and that their HACCP system was not
               controlling the contamination. Although aware that there was a
               contamination problem, FSIS inspectors did not ask to see evidence of
               the contamination to determine how severe the problem was.

               Recurring fecal contamination. Although animal feces on product was
               repeatedly observed during production at ConAgra, and although FSIS
               notified ConAgra of these repeated violations, FSIS took no
               enforcement action. (Animal feces is one source of the E. coli
               O157:H7 pathogen.) FSIS has issued no guidance on what constitutes
               an excessive number of violations and requires enforcement.

            FSIS management and supervision of the ConAgra inspection team was
            inadequate. Supervisors were not always responsive to the inspectors’
            concerns relating to increasing levels of fecal contamination and positive
            E. coli testing results. FSIS management reviews could have been used
            to determine that the contamination problem at ConAgra was severe, but
            FSIS did not perform any of these reviews at ConAgra.

                                        As a result of unclear FSIS policy and
         FINDING NO. 1                  regulations, FSIS had relinquished its testing
                                        of most of the ground beef production
FSIS DID NOT REVIEW TEST DATA           process at ConAgra and determined it had
   AT CONAGRA THAT SHOWED               no clear authority to review non-HACCP test
E. COLI O157:H7 CONTAMINATION           results that it knew showed the presence of
                                        E. coli O157:H7. FSIS’ policy was not to test
                                        the beef cuts used in the production of
           ground beef, and it did not exercise its prerogative to test the ground beef
           itself during processing. Because of these policy decisions on the part of
           FSIS, the agency was forced to rely solely on ConAgra to identify the
           presence of E. coli O157:H7 in its product and to eliminate the pathogen.

USDA/OIG-A/24601-2-KC                                                          Page 10
               Also, ConAgra was able to claim proprietary interest in many other test
               results. Without access to the ConAgra test results, FSIS could not
               ensure that all potentially adulterated products had been recalled from
               commerce.

               Pathogen testing can take several forms: FSIS can test samples of its own
               selection; plants can test samples either for HACCP purposes or for
               in-plant purposes; and trim beef buyers (processors, distributors, etc.) can
               have tests performed at their own expense. ConAgra owned and
               operated its own testing laboratory and used it for its own test samples, for
               HACCP test samples, and for tests requested by its customers.

               a. FSIS Had Not Clarified Requirements For Testing Beef Trim

                   Beef trim. FSIS had not clarified the actions field inspectors are to take
                   when trim containing E. coli O157:H7 is considered adulterated (used
                   in making ground beef). In 1994, FSIS notified the public that raw
                   ground beef products contaminated with the pathogen E. coli were
                   adulterated unless the ground beef was further processed to destroy
                   the pathogen. On January 19, 1999, FSIS announced that the policy
                   on ground beef would be expanded to all non-intact beef product,
                   including beef trim that would subsequently be used to produce raw
                   ground beef.10        However, in its March 15, 1999, publication,
                   Constituent Update, FSIS explained the agency would not act on its
                   January 19, 1999, policy statement until it had an opportunity to
                   consider the comments received. This information was also included
                   in a notice in the Federal Register.11

                   We found no subsequent instructions addressing the agency’s
                   proposed policy that beef trimmings contaminated with E. coli O157:H7
                   would be considered adulterated. The agency did not develop any
                   nationwide system to test beef trim for E. coli O157:H7, and it did not
                   provide inspectors-in-charge (IIC), circuit supervisors, and district office
                   personnel with instructions for implementing the policy specified in the
                   Federal Register. Also, on October 7, 2002, the agency stated in a
                   Federal Register Notice (Vol. 67, No. 194) that the agency’s policy
                   regarding beef trim had been in effect since January 1999.




10
   Federal Register Vol. 64, No. 11, 2803, (Beef Products Contaminated with E. coli O157:H7), dated
January 19, 1999.
11
   Federal Register Vol. 65, No. 29, 6881, (Recent Developments Regarding Beef Products Contaminated
with E. coli O157:H7; Public Meeting), dated February 11, 2000.

USDA/OIG-A/24601-2-KC                                                                     Page 11
                    Ground beef. As a result of an FSIS policy to encourage plants to take
                    greater responsibility for the wholesomeness of their product, FSIS
                    developed procedures12 that may have limited its ability to identify
                    products containing pathogens.13 Under these procedures, FSIS
                    inspection personnel typically did not collect raw ground beef samples
                    to be tested for E. coli O157:H7 at plants, such as ConAgra, that have
                    pathogen reduction interventions of their own (see Finding No. 11). In
                    lieu of pulling a sample for FSIS testing when a sampling request was
                    received, FSIS policy limited inspectors to reviewing plant records for
                    positive test results on carcasses within the last 6 months. If a positive
                    test result had occurred on carcasses, FSIS would then perform its
                    own test on ground beef for E. coli O157:H7. Since testing of
                    carcasses is considered to be performed under the HACCP plan, the
                    test results were available to FSIS. FSIS’ sampling plan prohibits the
                    inspectors from drawing ground beef samples on their own. Since
                    ConAgra had no positive test results on carcasses for 2 years prior to
                    the recall, this accounts for the low number of FSIS ground beef tests
                    (only two were performed since September 2000) performed at
                    ConAgra.

                b. Under Existing FSIS Policy, ConAgra’s HACCP Tests Did Not Need To
                   Reflect the Information Derived From non-HACCP Sources

                    ConAgra normally produced about 1 million pounds of boneless beef
                    trim14 each day yet, under its HACCP plan, it was required to test only
                    beef carcasses. These tests (available to the inspectors) had not
                    disclosed any positive E. coli O157:H7 results for 2 years before the
                    recall. By contrast, non-HACCP tests of beef trim taken by ConAgra in
                    2002 alone showed at least 63 positives before the expanded recall
                    and 115 total positives (in trim, one ground beef sample tested by
                    FSIS, and the plant environment) through October 21, 2002.

                    Regulations do not specifically require plants to share the results of
                    tests that are not called for in the HACCP plan. The IIC at ConAgra
                    said the plant voluntarily shared positive test information with him from
                    both its tests and its customers’ tests, but this was usually oral
                    information or summary information, never detailed laboratory test
                    results. The IIC took no action on the positive test information because
                    he understood it was FSIS’ policy not to monitor or rely on non-HACCP

12
   FSIS Directive 10,010.1, (Microbiological Testing Program For E. coli O157:H7 in Raw Ground Beef),
dated February 1, 1998.
13
   This condition was reported in our prior report (Finding No. 5), Audit Report No. 24001-3-At,
Implementation of the Hazard Analysis and Critical Control Point System, dated June 2000.
14
   This 1 million pounds of boneless beef trim is used for ground beef production (350,000 pounds) within
the establishment, rendered for technical fat (100,000 pounds), or sold to other further processors
(550,000 pounds) per day.

USDA/OIG-A/24601-2-KC                                                                         Page 12
              tests conducted by plants. Such tests posed problems, foremost of
              which was FSIS’ inability to establish a chain of custody to verify the
              samples had not been tampered with. The IIC also noted that during
              an October 2000 work meeting at the Boulder Office, a representative
              of FSIS’ TSC told the group that if a plant tests on its own, finds
              problems, and takes appropriate action then FSIS will not become
              involved. The district office gave similar instructions.

          c. FSIS Did Not Require ConAgra to Disclose Non-HACCP Test Results

              Current FSIS policy and regulations do not require ConAgra to provide
              information on internal test results to FSIS inspectors at the plant. In
              cases where a plant’s HACCP plan contains provisions that would
              allow an inspector to see non-HACCP test results, FSIS would have
              the authority to review them. But there is currently no requirement that
              HACCP plans contain this provision and, under current policy, the
              inspectors would not request the information.

              FSIS National Office officials said a change to the regulations might be
              possible but questioned the need for it. One official said the Federal
              Meat Inspection Act (Act) was sufficiently broad to give FSIS access to
              all records of a plant pertinent to food safety, including non-HACCP
              internal test results. Another official said that he believed the Act
              allowed FSIS to require plants to make their test results available to
              FSIS personnel. National Office officials noted that compliance officers
              had access to more plant records than inspectors did and that FSIS
              also had subpoena authority. Headquarters officials questioned if
              knowing plant test results would be of value and noted such
              requirements could hamper FSIS’ efforts to have plants do more
              testing on their own.

              We believe FSIS needs to have immediate access to all data
              necessary to evaluate the adequacy of a plant’s implementation of
              HACCP and the effectiveness of the plant at reducing or eliminating
              contaminants. Had FSIS reviewed and analyzed all test results at
              ConAgra, the increase in positive E. coli O157:H7 results may have
              been noted and acted upon.

         d.   Guidance Is Needed on FSIS Access to “Customer Tests”

              Officials of two nationwide fast food chains informed us that they
              require microbiological tests as part of their normal purchasing
              process.     These tests include E. coli O157:H7, Listeria, and
              Salmonella. From June 1, 2001, through August 30, 2002, ConAgra’s
              customers paid for about 1,400 of these tests, which ConAgra calls



USDA/OIG-A/24601-2-KC                                                        Page 13
             “customer tests.” No policy offers guidance on FSIS access to these
             tests.

             The scope of our audit at ConAgra was initially impaired because we
             were unable to review detailed laboratory beef trim microbiological test
             results performed for customers. ConAgra stated the test results could
             not be provided because they were considered the property of
             customers and disclosure was prohibited by corporate policy. The
             laboratory that performed the tests also refused to provide the test
             results. Laboratory officials stated that customer test results were
             considered confidential and could only be obtained through or with the
             permission of the customers. Officials further stated that maintaining
             the confidentiality of test results was a condition of their International
             Organization for Standardization (ISO) 17025 accreditation.

             We were subsequently able to review the test results after obtaining
             written permission from the customers. The test results showed that
             over the 3-month period of the expanded recall (April 12 through
             July 11, 2002) there were 63 positive test results for E. coli O157:H7 in
             ConAgra beef trim. In addition, during the recall period, there were
             three additional environmental E. coli O157:H7 positive results found at
             the plant. Since the end of the recall period (July 12 through October
             21, 2002), we were provided information showing that there had been
             an additional 49 E. coli O157:H7 positives in its trim and ground beef.

             Other sources showed variable results. FSIS cited in the NOIE that
             tests over the 5-week period May 20 through June 29, 2002, the
             ConAgra plant had 33 positive E. coli O157:H7 tests in its trim. An
             FSIS food safety inspection team found that over the 3-month period of
             the expanded recall, there were 59 positive E. coli O157:H7 tests in its
             customers’ trim. From April 12, 2002, through October 21, 2002, OIG
             noted at least 115 E. coli O157:H7 positives (including food contact
             surfaces) at the ConAgra plant.

             When FSIS does not have access to customer test results, it cannot
             ensure that contaminated product is removed from commerce if those
             test results show the presence of the E. coli pathogen in the product.
             We encountered one condition under which contaminated product was
             redirected by ConAgra and FSIS was unable to verify its disposition
             because it was unaware of the movements of the product. Regulations
             require that if a consignee of allegedly adulterated product, which
             bears an official inspection legend, refuses to accept delivery of the
             product on the grounds that it is adulterated, the consignee shall notify




USDA/OIG-A/24601-2-KC                                                         Page 14
                   the IIC of the kind, quantity, source, and present location of the
                   product.15

                   ConAgra considered test results of beef trim leaving its plant to be the
                   property of the customers. The customers considered that the title of
                   product did not pass until a negative test result was provided. If the
                   test was positive, the product was considered to remain the property of
                   ConAgra, even if the product was located on a truck parked on the
                   customer’s premises. Accordingly, neither ConAgra nor the customer
                   believed they were obliged to notify FSIS of the adulterated product.

                   To illustrate, we noted from ConAgra’s returned products log, during
                   the period covered by the recall, that there were 10 instances totaling
                   about 118,000 pounds of beef trim where product was rerouted
                   because of positive test results. Instead of having the products
                   returned to its plant, ConAgra redirected the questionable lots of beef
                   trim products to other processors and warehouses. According to
                   ConAgra’s records, the products for these 10 instances were shown to
                   have been ultimately sent to processors for rendering, even though
                   there was no evidence that FSIS was notified of their contamination or
                   that it verified the products were handled properly. In addition, we
                   further noted from ConAgra’s returned product logs that there were
                   12 instances between July 12, 2002, and July 25, 2002 (after the
                   period covered by the recall), where ConAgra had approximately
                   204,000 pounds of beef products reboxed at a warehouse for
                   distribution to cookers because of positive test results. Again, there
                   was no evidence that FSIS was notified and, therefore, it did not verify
                   the disposition of the product.

               FSIS’ access to pathogen tests performed by establishments has been a
               continuing concern of OIG.16 In our prior report, we recommended that
               FSIS expand the Grant of Inspection (1) to provide clear authority for
               Government oversight of all plant pathogen testing and (2) to include the
               requirements and responsibilities of the plant under the HACCP program
               and FSIS’ oversight authority. In a December 7, 2001, response, FSIS
               stated that it did not believe that changing the Grant of Inspection to
               provide FSIS with clear authority or to include the plant’s responsibilities
               was the most practical approach to enforcement. FSIS officials stated that
               they would provide OIG with an alternative action, but to date no
               alternative action has been proposed.


15
   9 Code of Federal Regulations (CFR) 320.7, Reports By Consignees Of Allegedly Adulterated Or
Misbranded Products; Sale Or Transportation As Violations. (All citations of 9 CFR are as of
January 1, 2002, unless otherwise noted.)
16
   Audit Report No. 24001-3-At, Implementation of the Hazard Analysis and Critical Control Point System,
dated June 2000.

USDA/OIG-A/24601-2-KC                                                                         Page 15
          After the recall, FSIS announced plans to initiate corrective action on
          some of the conditions described above (see exhibit B). We concluded
          that more needs to be done. FSIS can only meet its food safety
          responsibilities by being fully aware of all microbial problems that plants
          are experiencing, whether through its own tests or those taken by the
          plant for HACCP or non-HACCP purposes. FSIS needs to emphasize,
          either through its Grant of Inspection or through regulations and policy,
          that FSIS has an oversight responsibility in the production of beef products
          and has significant authority in fulfilling that responsibility, including the
          authority to access any and all pathogen tests taken by the establishment.

                                       Provide clear authority for FSIS access to all
 RECOMMENDATION NO. 1                  internal and external plant pathogen and
                                       microbial testing results, including tests
                                       performed for customers or where title has not
          passed.

          FSIS Response

          The Federal Meat Inspection Act provides authority for FSIS to access all
          plant generated pathogen testing results. On October 7, 2002, Federal
          Register Notice 62325, “E. coli O157:H7 Contamination of Beef Products,”
          was issued (Enclosure No. 1), which reminded establishments of their
          responsibility to keep records, including records concerning plant testing,
          and other pre-requisite program data, as part of ongoing verification of the
          plant’s hazard analysis and 9 CFR Part 417.5, Records. FSIS inspection
          personnel have access to external testing results, which are available via
          the records associated with the establishment’s shipping and receiving
          plans. Inspection personnel are expected to review records as they
          perform daily inspection procedures to verify whether HACCP regulatory
          requirements are being met. Establishments’ shipping and receiving plan
          will identify the testing requirements that must be met. FSIS inspection
          personnel can review the results. It is also expected that FSIS inspection
          personnel will initiate appropriate action if records are not made available
          to FSIS.

          In the event that enforcement is initiated, plant generated data become an
          important indicator of whether and how well the plant is executing
          corrective actions. As such, when the decision is made to defer
          enforcement or hold a suspension in abeyance based on an
          establishment’s proposed corrective measures, as part of FSIS’
          verification activities, Compliance Officers (CO) and CSOs will review
          plant data bi-weekly, or monthly, in collaboration with in-plant personnel
          and provide recommendations to the District Manager as to whether
          further enforcement is warranted.



USDA/OIG-A/24601-2-KC                                                          Page 16
           During the week of April 28-May 2, 2003, a compliance training session
           was held in Dallas, Texas. All COs and CSOs who are being cross
           utilized to carry out compliance duties received training regarding verifying
           plant data associated with enforcement actions. Participants were also
           advised that FSIS will issue an administrative subpoena to access records
           when a plant is unwilling to share testing data. As such, participants were
           instructed to contact their supervisor for further direction if they encounter
           plants unwilling to share their testing results with FSIS. Enclosure No. 2
           contains the agenda for the compliance training session.

           OIG Position

           We cannot accept management decision because FSIS has not
           addressed the issue of inspector access to external test results performed
           for customers. Also, the corrective actions described, as related to
           enforcement action and administrative subpoenas, are applicable to
           situations where violations have already occurred. Our recommendation
           is intended to ensure that inspectors have ready access to all microbial
           and pathogen tests conducted by establishments on a routine basis as
           part of normal inspection procedures, not just when enforcement actions
           are initiated. During the audit, it was the position of ConAgra and its
           testing laboratory that test results for tests performed for customers were
           confidential, and could not be disclosed without the customer’s
           permission. To determine the recall period, FSIS was provided only a
           summary of such test results prepared by ConAgra; FSIS was not
           provided the actual test results. OIG obtained the test results after getting
           a written release from the customers. To reach management decision for
           this recommendation, FSIS needs to provide clarification on how FSIS
           inspectors will gain access to actual customer test results on a routine
           basis, without the need for a written customer release or administrative
           subpoena.

                                   Require plants to notify FSIS of internal and
 RECOMMENDATION NO. 2              external test results, especially positive test
                                   results for E. coli O157:H7.            Instruct
                                   establishments     to   notify   FSIS     when
       adulterated E. coli O157:H7 product enters the plant, regardless of
       whether title to the product did or did not pass, and when the product is
       disposed of rather than returned to the plant.

           FSIS Response

           FSIS has informed beef establishments that their food safety systems for
           controlling E. coli O157:H7 must be reassessed. On October 7, 2002,
           Federal Register Notice 62325, “E. coli O157:H7 Contamination of Beef
           Products,” (Enclosure No. 1) was issued to advise establishments of their

USDA/OIG-A/24601-2-KC                                                           Page 17
          obligation to reassess their HACCP plans for raw beef products. The
          Federal Register Notice also announced the availability of guidance
          materials for industry. In the Notice, FSIS advised establishments about
          disregarding the testing results of trim from one product lot to another.
          FSIS noted that it expects establishments to have a scientific basis that
          justifies why any raw ground product produced from trim that was found to
          be positive for E. coli O157:H7 should not be considered to be
          adulterated. The Notice provided a notification to establishments that
          FSIS will be increasing its scrutiny of food safety systems that test
          product. FSIS does not believe that further evaluation of the issue of
          notification of FSIS about positive results is warranted.

          Consequently, FSIS disagrees that the notification is needed. FSIS
          believes that the recommendation should be restated to require specific
          instructions for FSIS personnel to effectively monitor and verify the
          establishment’s handling of E. coli O157:H7 contaminated beef products.
          Specifically, 9 CFR Part 417.5, Records, outlines all record-keeping
          requirements. FSIS inspection personnel have access to internal and
          external testing results, which are available via the records associated
          with the establishment’s shipping and receiving plans.             Inspection
          personnel are required to review records as they perform daily inspection
          procedures to verify whether HACCP regulatory requirements are being
          met. Establishments’ shipping and receiving plan will identify the testing
          requirements that must be met. FSIS inspection personnel can review all
          sampling results. It is also expected that FSIS inspection personnel will
          initiate appropriate action if records are not made available to FSIS.

          FSIS will provide further guidance to industry and instructions to
          inspection program personnel on prudent measures to ensure that this
          product is diverted to other ready-to-eat product or for cooking. FSIS will
          address this issue in the new 10,010.1 Directive to be issued by
          October 2003.

          By December 2003, FSIS will fully implement guidelines that address the
          responsibility of FSIS personnel to take control and monitor product that
          has tested positive, from both internal and external test results, for E. coli
          O157:H7.       This will enhance the utilization of existing regulatory
          authorities pertaining to pre-shipment reviews, returned goods, hazard
          analysis and assessing the plant’s decision-making documents related to
          these activities.

          OIG Position

          We agree with the actions proposed by FSIS to develop and implement
          guidelines that address the responsibility of FSIS personnel to take control
          and monitor product that has tested positive for E. coli O157:H7.

USDA/OIG-A/24601-2-KC                                                          Page 18
           However, we cannot reach management decision because FSIS has not
           addressed the need to require plants to notify FSIS of internal and
           external test results, especially internal and external positive test results
           for E. coli O157:H7. FSIS is placing sole responsibility on the inspector to
           identify product that tested positive for E. coli O157:H7 by increasing
           scrutiny of food safety systems through periodic monitoring of shipping
           and receiving documents. The principles of HACCP assign dual
           responsibility for ensuring the safety of meat products. Therefore, OIG
           continues to believe that FSIS must place responsibility on the plant to
           timely notify FSIS when testing results identify the presence of a pathogen
           in the product, especially shipped lots. To reach management decision,
           FSIS needs to provide its rationale for why plants should not be held
           responsible for notifying FSIS when positive test results occur. Also,
           without routine access to external test results (see OIG Position,
           Recommendation No. 1) FSIS needs to provide a detailed description of
           the control processes that will be implemented to assure that positive test
           results are reflected in plant shipping and receiving documents.

                                    Issue policies that clarify to inspectors the
 RECOMMENDATION NO. 3               authority for FSIS to consider E. coli O157:H7
                                    in beef trim destined for grinding to be
                                    adulterated. Devise a risk-based sampling
       plan to select and test beef trim for pathogens.

           FSIS Response

           FSIS will address the issue of sampling trim in the revised Directive
           10,010.1 to be issued by October 2003. The revised Directive provides for
           FSIS sampling of trim at Federal establishments.

           On October 7, 2002, Federal Register Notice 62325, “E. coli O157:H7
           Contamination of Beef Products,” (Enclosure No. 1) was issued to direct
           establishments to reassess their HACCP plans for raw beef products. The
           Federal Register Notice also announced the availability of guidance
           materials for industry and discussed revisions to be made to FSIS
           Directive, 10,010.1, “Microbiological Testing Program For Escherichia coli
           O157:H7 in Raw Ground Beef.” In the Notice, FSIS provided notification
           that establishments that receive product for grinding must address E. coli
           O157:H7. Establishments were instructed to employ validated CCPs in
           their HACCP plans to address E. coli O157:H7. On November 4, 2002,
           FSIS issued FSIS Notice 44-02 (Enclosure No. 3), “Instructions for
           Verifying E. coli O157:H7 Reassessment.”            This Notice provided
           inspection personnel instructions for performing verification of E. coli
           O157:H7 reassessments. These documents clarify FSIS’ position that
           E. coli O157:H7 in beef trim destined for grinding is considered to be
           adulterated.

USDA/OIG-A/24601-2-KC                                                          Page 19
                  OIG Position

                  We accept the management decision.

                                           FSIS did not enforce a requirement that
           FINDING NO. 2                   ConAgra reassess its HACCP plan even
                                           though    evidence     showed      that  fecal
       HACCP PLANS WERE NOT                contamination was becoming an increasing
      REASSESSED WHEN E. COLI              problem at the plant. ConAgra managers
        PATHOGEN BECAME AN                 concluded that the amount of E. coli O157:H7
        INCREASING PROBLEM                 being detected did not warrant their revising
                                           the HACCP plan or making significant
                                           operational changes. FSIS inspectors were
              aware that a problem existed, but they did not pursue the issue to apprise
              themselves of the full extent of the contamination because they believed
              the product tested (beef trim) was not within their authority under HACCP
              (see Finding No. 1). As a result, ConAgra’s HACCP plan remained largely
              unchanged, and the plant continued to operate under ConAgra’s
              assumption that contamination of its product by the E. coli O157:H7
              pathogen was unlikely to occur.

                  Regulations require plants to conduct reassessments of their HACCP
                  plans when food safety hazards are found in their finished product.17

                  Prior to the recall, ConAgra did not design or reassess its food safety
                  system to ensure it operated in compliance with SSOP and HACCP
                  requirements. In response to the recall and subsequent enforcement
                  actions by FSIS, ConAgra reassessed its HACCP plans and with
                  concurrence of FSIS, implemented a number of interventions (e.g., the
                  use of lactic acid in ground beef) to reduce the occurrence of E. coli
                  O157:H7. The actions taken by ConAgra both prior to and after the recall,
                  however, did not provide assurance that physical and biological hazards to
                  the production process had been identified and controlled.

                  We reviewed ConAgra’s HACCP records for the period April through
                  August 2002—before and during the recall. These records showed that
                  the company’s acceptable quality level checks were identifying fecal
                  contamination in products on a regular basis. For the 5-month period we
                  reviewed, fecal contamination was found in 23 instances in the slaughter
                  department and in 187 instances in the variety meat department.
                  ConAgra HACCP records also showed that E. coli O157:H7 was being
                  found at an increasing rate at ConAgra beginning in April 2002. The
                  record of fecal contamination in the HACCP logs combined with the

17
     9 CFR 417.4(a)(3), Reassessment of the HACCP plan, dated January 1, 2002.

USDA/OIG-A/24601-2-KC                                                              Page 20
               increasing number of positive test results for the E. coli O157:H7 pathogen
               found in the beef trim indicates that the company should have reassessed
               its HACCP plans before the recall.
                Figure 2: ConAgra Tests for Customers Showing the Presence of E. coli O157:H7
                                      Number of       Number of      Percent Positive
                       Week of:       Lots Tested   Positive Tests        Tests
                         April 2          112              0              0.00%
                         April 8          107              1              0.93%
                        April 15          105              4              3.81%
                        April 22          152              0              0.00%
                        April 29          131              2              1.53%
                         May 6            105              0              0.00%
                        May 13            110              1              0.91%
                        May 20            124              6              4.84%
                        May 28             92              5              5.43%
                         June 3           139              3              2.16%
                        June 10           156             13              8.33%
                        June 17           152              3              1.97%
                        June 24           155              9              5.81%
                          July 1          268              3              1.12%
                          July 8          269             17              6.32%
                         July 15          305             11              3.61%
                         July 22          348              7              2.01%
                         July 29          491              2              0.41%

               By contrast, the positive test results from FSIS’ nationwide testing
               program was less than 1 percent.18

               HACCP records showed that ConAgra reassessed one of its HACCP
               plans on February 11, 2002, when a new CCP was added to the process.
               The records also showed that in April 2002, at the time the problems with
               fecal contamination and positive tests for E. coli O157:H7 were starting to
               increase, company officials did their annual review of four of their HACCP
               plans (variety meats, advanced meat recovery, ground beef, and edible
               rendering) and signed the plans to show no changes were needed.
               Instead of reassessing the HACCP plans, the company officials chose to
               consider each occurrence of the pathogen as a hazard that was unlikely to
               occur and determined there was no need to alter any operations at the
               plant. This determination was questionable based on the E. coli O157:H7




18
  In 2001, FSIS tested 5514 samples and found that 0.87 percent tested positive. In 2002, the year of
the recall, FSIS tested 5430 samples (through October 10, 2002) and found that 0.88 percent tested
positive.

USDA/OIG-A/24601-2-KC                                                                      Page 21
                testing results. ConAgra could not demonstrate that it fully analyzed why
                the E. coli O157:H7 problem continued to occur.19

                FSIS’ in-plant inspectors advised us that they were aware there were
                some positive tests for E. coli O157:H7 before the recall because product
                was returned to the plant.        The inspectors were informed of the
                contamination in the returned product by ConAgra officials and observed
                the product being repackaged and labeled “for cooking only.” However,
                the positive tests were for samples of beef trim and, as noted in Finding
                No. 1, the inspectors did not ask to review the test results because they
                believed tests on beef trim were not part of the HACCP program.
                Consequently, the plant inspectors believed they could not require
                ConAgra to reassess its HACCP plans.

                Company officials said they would have made test results available for any
                tests taken for internal company use, if asked, and later provided the
                information to the FSIS Food Safety Investigation team and to OIG. If the
                inspectors had reviewed the test results and been fully aware of the scope
                of the problem, they may have been in a better position to take prompt
                action to enforce the relevant sections of the HACCP regulations.

                In response to the recall and subsequent enforcement actions by FSIS,
                ConAgra is reassessing its HACCP plans and validating the effectiveness
                of its proposed corrective actions. The process of reassessing the
                HACCP plans does not require that the underlying cause of processing
                problems be identified. The reassessment only requires that critical points
                be identified where controls can be applied to reduce or eliminate food
                safety hazards that are deemed likely to occur.

                We are making no recommendation related to reassessment of HACCP
                plans as these actions are underway as part of ConAgra’s response to
                FSIS’ intended enforcement action. Also, FSIS published a Federal
                Register notice,20 on October 7, 2002, that required all establishments that
                produce raw beef products and that have not reassessed their HACCP
                plans in light of new scientific information21 to do so and consider whether

19
   The FSIS Notice of Intended Enforcement Action, dated July 18, 2002, references 9 CFR 417.2;
417.3(b); 417.4(a)(2); 417.4(a)(3); 417.5(a)(2) (Hazard Analysis and Critical Control Point Systems); and
416.12 and 416.14 (Sanitation). 9 CFR 417.4(a)(3), dated January 1, 2002, provides that “every
establishment shall reassess the adequacy of the HACCP plan whenever any changes occur that could
affect the hazard analysis…”
20
   Federal Register, Vol. 67, No. 194, 62325 (E. coli O157:H7 Contamination of Beef Products), dated
October 7, 2002.
21
   On September 3, 1999, FSIS began using new testing procedures to detect the presence of E. coli
O157:H7, which were four times more sensitive than the previous testing method. FSIS found that these
new procedures showed that the E. coli pathogen was significantly more prevalent in raw ground beef
samples than the previous testing method indicated. Also, some studies have found more animals within
specific herds to be positive for E. coli O157:H7. See the Federal Register for October 7, 2002.

USDA/OIG-A/24601-2-KC                                                                         Page 22
               E. coli O157:H7 is a hazard reasonably likely to occur.           On
               November 4, 2002, FSIS issued instructions to their inspectors for
                                                                              22

               verifying that all establishments affected had performed the required
               reassessment of their HACCP plans to determine if E. coli O157:H7
               contamination was a hazard likely to occur.

                                      Provide training to in-plant inspectors to
     RECOMMENDATION NO. 4             increase their awareness as to the availability
                                      of and their access to microbiological test
                                      results and to take appropriate action, such as
           issuing an NR when HACCP records indicate CCP failures that could
           allow contaminated product to enter commerce.

               FSIS Response

               FSIS agrees with this recommendation. On April 29, 2003, FSIS instituted
               new Food Safety Regulatory Essentials (FSRE) training designed to better
               equip inspection personnel in verifying an establishment’s food safety
               system. Unlike initial HACCP training, the FSRE training is tailored to an
               inspector’s assignment. All trainees receive foundation training, covering
               the Rules of Practice, Sanitation Performance Standards, and Sanitation
               Standard Operating Procedures (SSOP). Customized HACCP training is
               provided based on the types of products being produced at the
               establishments where inspectors are assigned. One of the modules was
               designed specifically to address the production of raw beef products in a
               HACCP environment at plants such as ConAgra. This specialized training
               is now being offered at the FSIS Training and Education Center in College
               Station, Texas. The training will improve FSIS’ ability to effectively
               monitor and verify food safety controls at plants such as ConAgra and at
               the establishments that purchase and process its beef. All inspection
               program personnel with primary duties for verification of the HACCP
               pathogen reduction program activities will be trained on the FSRE. FSIS
               expects the FSRE training to be completed for field personnel by the end
               of September 2004. Enclosure No. 4 contains the course description and
               training agendas.

               In addition, during the week of April 28-May 2, 2003, a compliance training
               session was held in Dallas, Texas (Enclosure No. 2). All COs and CSOs
               who are being cross utilized to conduct compliance duties attended the
               training session. One of the topics discussed at this session was the
               review and analysis of plant records and testing data and the expectation
               that COs and CSOs who have been trained in enforcement, to review
               plant data bi-weekly, or monthly, in collaboration with the in-plant

22
   FSIS Notice 44-02     (Instructions   for   Verifying   E.   coli   O157:H7   Reassessment),   dated
November 4, 2002.

USDA/OIG-A/24601-2-KC                                                                        Page 23
          personnel when enforcement at a plant has been deferred, or when a
          plant is operating under a suspension held in abeyance. Plant generated
          data is an important indicator of whether and how well the plant is
          executing its corrective actions.

          FSIS issued revised Directive 5000.1 (Enclosure No. 5), “Verifying an
          Establishment’s Food Safety System,” on May 21, 2003. Attachment 1 to
          the Directive is FSIS Handbook 5000.1, which provides comprehensive
          direction to field personnel on how they are to protect the public health by
          properly verifying an establishment’s compliance with pathogen reduction,
          sanitation, and HACCP regulations. The handbook provides additional
          guidance to inspection personnel on their authority in accessing a plant’s
          microbiological test results and the appropriate actions to be taken to
          ensure adulterated product does not enter commerce, such as reviewing
          the establishment’s corrective action to determine if it is appropriate and
          addressing proper product disposition.

          OIG Position

          We accept the management decision.

                                      Develop a management control process that
 RECOMMENDATION NO. 5                 will provide FSIS inspectors with all available
                                      data necessary to monitor compliance with
                                      HACCP requirements.

          FSIS Response

          FSIS agrees that a process is required to ensure that inspection personnel
          have all available data necessary to monitor compliance with HACCP
          requirements. FSIS inspectors have real-time access to all available
          inspection data generated for the respective establishment that they are
          working in. This data is in the PBIS database. Inspection personnel use
          this data and other sources in their verification activities.

          Each level of FSIS supervision has responsibilities to review data of
          operational and compliance activities. The review covers individual
          establishment’s compliance records to aggregate compliance records for
          establishments within a circuit, within a District and nationally. The
          Technical Service Center (TSC) collects and analyzes this data from a
          number of sources including PBIS. They provide reports to senior officials
          in Headquarters and at the District level.         The reports include
          non-compliance summaries, sample results, trend analysis, and various
          operational data summaries.




USDA/OIG-A/24601-2-KC                                                        Page 24
          FSIS has judiciously implemented this process to make decision-support
          information available to the inspection personnel. FSIS field personnel
          have regular access to the PBIS database and related reports. The most
          recent version of the PBIS database system (version 5.0) allows
          inspection personnel to enter and access specific non-compliance records
          (NRs) that have been issued to a plant for PR/HACCP, Sanitation
          Standard Operating Procedures (SSOP), Sanitation Performance
          Standards (SPS), and Other Consumer Protections (OCP)
          non-compliances. FSIS inspection personnel also have access to the
          Laboratory Electronic Application for Results Notification (LEARN)
          database system. The LEARN database contains laboratory testing
          results, including potential, presumptive, and positive sample results for
          raw ground and ready to eat products. These systems allow inspectors to
          monitor an establishment’s compliance with PR/HACCP requirements.

          Also, FSIS has issued Directive 4430.3, “In-Plant Performance System
          Reviews,” (IPPS) and a comprehensive Supervisory Guideline (Enclosure
          No. 6). IPPS was designed to hold inspection program personnel
          accountable and ensures that inspectors are applying the appropriate
          inspection methods, using effective regulatory decision-making, and
          documenting findings appropriately and when warranted, implementing
          enforcement actions properly.

          The Office of Program Evaluation, Enforcement and Review (OPEER) will
          monitor the Agency’s progress in the area. Audits, evaluations, and
          reviews will be conducted to verify implementation and measure the
          effectiveness of the corrective actions.

          OIG Position

          Based on the information provided, we cannot reach management
          decision. In its response, FSIS states that inspectors have real-time
          access to various databases that contain inspection data and laboratory
          testing results. Also, FSIS states that each level of supervision has the
          responsibility to review the data and monitor operations and that OPEER
          will monitor the Agency’s progress. FSIS has not provided a documented
          management control program that specifies the actions required at each
          level in the organization to analyze data on a plant, district, or national
          basis, including the procedures and processes to be used by OPEER to
          “…monitor the Agency’s progress.” To reach management decision, FSIS
          needs to provide a description of its management control program to
          include details as to what actions are required at each level of the
          organization, including OPEER, and a description of the controls put in
          place to ensure the expected analysis takes place and is acted on.




USDA/OIG-A/24601-2-KC                                                       Page 25
                                          FSIS did not review or monitor ConAgra’s
           FINDING NO. 3                  process control criteria to determine if it was
                                          effective in controlling generic E. coli.
     INDICATORS OF INCREASING             Although ConAgra raised its tolerance level
     LEVELS OF GENERIC E. COLI            for generic E. coli between 2001 and 2002,
      WERE NOT MONITORED OR               neither ConAgra nor FSIS personnel critically
             ANALYZED                     analyzed the increase to determine why it
                                          occurred and if it was acceptable. Also, FSIS
                                          guidance to inspectors does not specifically
             require them to verify a plant’s methodology for determining a tolerance
             level. High levels of generic E. coli are indicative of problems in the
             plant’s controls over fecal contamination. As a result of the change in
             tolerance, the generic E. coli testing done by ConAgra to comply with its
             HACCP plan provided erroneous results, which affected the ability of plant
             management and FSIS personnel to accurately monitor the plant’s
             operations.

               In order to verify that an establishment’s manufacturing processes are
               controlling generic E. coli, FSIS requires each establishment that
               slaughters livestock to routinely test for the generic strain of the microbe.
               Establishments like ConAgra, which base their tests on a
               carcass-sponging technique, are to evaluate generic E. coli test results
               using statistical process control techniques.23 These techniques involve
               upper control limits to the amount of generic E. coli measured in a tested
               sample. If routine test results show amounts of generic E. coli beyond this
               upper limit, FSIS plant inspectors need to increase their surveillance of
               plant operations.

               FSIS in-plant personnel are tasked with reviewing the generic E. coli
               testing by their establishments. As appropriate, FSIS inspectors are to
               review procedures and record keeping and make a determination about
               the plant’s compliance with regulatory requirements.24 FSIS Directive
               5000.1 directs the inspectors to examine the establishment’s process
               control chart to determine if the plant is analyzing its test data against a
               baseline level “to ensure the process is in control and variations are within
               normal and acceptable limits.”25 At ConAgra, the process control chart
               depicted each test result as a point and the upper control limit as a
               horizontal line running above the points (or under them, if test results
               should begin to exceed the upper limit). The FSIS directive does not
               require the inspectors to validate the plant’s methodology for arriving at its
               upper control limit.


23
   9 CFR 310.25 (Contamination with Microorganisms; Process Control Verification Criteria and Testing;
Pathogen Reduction Standards), dated January 1, 2002.
24
   FSIS, Regulatory Process for HACCP-Based Inspection Reference Guide, dated January 1998.
25
   FSIS Directive 5000.1 (January 1998), Part Four-E. Coli Testing and Criteria.

USDA/OIG-A/24601-2-KC                                                                       Page 26
          ConAgra chose to monitor and track its generic E. coli results by shift (shift
          A and B). ConAgra measured the amount of generic E. coli on a scale of
          0 to 21. For calendar year 2001, the plant’s generic E. coli upper control
          limits were low on the scale (less than 6.0) for both the “A” shift and the
          “B” shift. At the beginning of calendar year 2002, the plant recomputed
          the upper control limits for both shifts based on the results from the 2001
          sampling. When the results were recomputed, the upper control limit for
          the “A” shift was increased by 50 percent, while the upper control limit for
          the “B” shift was decreased by 33 percent. The horizontal line on the “A”
          shift control chart was higher than before and the line on the “B” shift
          control chart was lower. Beef worked on the “A” shift was therefore
          allowed to have more than twice the amount of generic E. coli than the “B”
          shift before any further tests were taken.

          We questioned plant management as to why, in 2002, there was such a
          pronounced difference in upper control limits between the two shifts. The
          plant managers, after some analysis, explained that upon closer review
          they concluded that their methodology for tracking the generic E. coli was
          flawed. They observed that livestock killed on both shifts ended up in data
          for both the “A” and “B” shifts. This mixing of sample results from different
          shifts invalidated their results for both shifts. The plant management
          stated that they were immediately reviewing and correcting their generic
          E. coli sampling methodology.

          FSIS in-plant inspection personnel did not identify this problem in the
          generic E. coli sampling methodology. They also did not notice or
          question plant managers about why there was a dramatic change in the
          generic E. coli upper control limits between the two shifts during calendar
          year 2002. The increase in upper limit on the “A” shift allowed ConAgra to
          process beef carcasses with greater amounts of generic E. coli without
          triggering additional FSIS scrutiny.

                                       Verify ConAgra’s methodology for establishing
 RECOMMENDATION NO. 6                  the upper control limit for generic E. coli.
                                       Require FSIS personnel to review and monitor
                                       all control limits established by ConAgra.

          FSIS Response

          FSIS is continuing to review and monitor Est. 969’s control limits, as well
          as other operations in the plant as part its ongoing regulatory duties. FSIS
          has completed a verification of ConAgra’s (now Swift’s) methodology for
          establishing the upper control limit for generic E. coli to ensure compliance
          with §310.25(a)(5)(i), Table 1 of 9 CFR. On May 7, 2003, FSIS conducted
          a review and analysis of Est. 969’s generic E. coli testing process,
          including design, execution, and test results reporting. The review was

USDA/OIG-A/24601-2-KC                                                          Page 27
          aimed at determining the establishment’s regulatory compliance with
          §310.25(a).

          Est. 969 now determines baseline standards yearly, reflecting previous
          yearly data averages. Est. 969 reviews and revises, as necessary, its
          Standard Operating Procedure (SOP) # 1128 detailing sample collection
          procedures and SOP # 1802 detailing data sampling reporting procedures.

          FSIS in-plant inspection team oversight and verification was accomplished
          by reviewing information from the PBIS procedures performed at Est. 969.
          PBIS verification procedures conducted from June 1, 2002, to
          May 1, 2003, included:
          •   Procedure 05A01= 61 scheduled and 61 performed.
          •   Procedure 05A02= 49 scheduled, 43 performed and 6 not performed.
          •   A total of 104 procedures were performed.
          •   No noncompliance was observed for the 104 performed procedures
              during the specified time frame.

          The review of Est. 969’s current documentation and operations found
          them to be in compliance with Regulation 310.25 (a). During the
          July 2002, FSIS Food Safety Investigation (FSI) at Est. 969, the FSI team
          reviewed the generic E. coli testing program, but primarily focused on the
          E. coli O157:H7 carcass program utilized by Est. 969 at that time because
          it was determined by the team to be more indicative of the health risk
          associated with the product recall. The generic E. coli testing program is
          required by regulation as an indicator of process control. However, the
          specific E. coli O157:H7 carcass program was thought to be more plant
          and program specific.

          OIG Position

          We accept the management decision.

                                      Revise FSIS Directive 5000.1 (January 1998)
 RECOMMENDATION NO. 7                 to require qualified FSIS personnel to
                                      periodically review the methodology used for
                                      setting generic E. coli upper control limits in all
          beef establishments.

          FSIS Response

          FSIS issued revised FSIS Directive 5000.1 (Enclosure No. 5), “Verifying
          an Establishment’s Food Safety System.”         The Directive provides
          instructions to consumer safety personnel on verifying that generic E. coli

USDA/OIG-A/24601-2-KC                                                          Page 28
            upper control limits in all beef establishments have been implemented as
            required by the regulation. The revised Directive was issued on
            May 21, 2003.

            In addition, CSOs are assigned to District Offices to conduct
            comprehensive assessments to verify that establishment control systems
            are well-documented, supported by scientific information, and validated.
            Currently, CSOs are conducting comprehensive assessments of HACCP
            plans at beef product establishments.             These comprehensive
            assessments are being conducted as part of an October 7, 2002, Federal
            Register Notice, “E. coli O157:H7 Contamination of Beef Products,” that
            required all beef slaughter establishments to reexamine their food safety
            strategies in light of evidence that E. coli was more prevalent in live
            animals than previously thought. The comprehensive examination of
            HACCP plans by CSOs at raw beef product establishments was a
            proactive step to strengthen pathogen prevention practices. Eventually all
            beef plants will be reassessed.

            OIG Position

            We accept the management decision.

                                      FSIS did not take enforcement action against
       FINDING NO. 4                  ConAgra even though it continued to cite the
                                      plant for HACCP violations involving visible
  RECURRING CITATIONS FOR             fecal contamination of products.           The
   FECAL CONTAMINATION OF             inspectors continued to issue citations
  PRODUCTS AT CONAGRA DID             because FSIS has not established criteria for
      NOT LEAD TO FSIS                determining when repeat violations warrant
    ENFORCEMENT ACTIONS               taking additional enforcement action or require
                                      a plant to reassess its HACCP plan. As a
                                      result, animal feces continued to be observed
          contaminating ConAgra product and likely contributed to the adulteration
          of product that was the subject of the recall.

            Because animal feces is the source of the E. coli O157:H7 pathogen and
            because it can be observed during production and removed, FSIS follows
            a “zero tolerance” policy on a plant’s compliance with this sanitation
            requirement. FSIS issues an NR for each “zero tolerance failure” on the
            part of a plant.

            To determine the number of repeated NRs written at ConAgra for fecal
            contamination, we reviewed and summarized the NR logs for 2001 and
            2002 (through November 14, 2002), as shown in exhibit D. The logs
            showed that the in-plant inspectors had written a total of 66 NRs for zero
            tolerance failure for the period. We were told that the number of observed

USDA/OIG-A/24601-2-KC                                                        Page 29
                zero tolerance failures actually exceeded the number of NRs written for
                that particular deficiency because in many cases plant inspectors
                preferred to discuss the problems with ConAgra management rather than
                write the NRs. This indicates that zero tolerance failures had been an
                ongoing problem at this plant and continued to be a problem after the
                recall period. We completed our fieldwork at the plant in September 2002.
                On November 15, 2002, FSIS suspended inspection services at the plant
                because of repetitive zero tolerance failures since August 2002. Records
                showed that FSIS had issued 16 NRs for zero tolerance failures after the
                recall. This shows that the corrective actions that were taken by the
                company were not fully effective in correcting the problem with fecal
                contamination at the plant.

                We interviewed the IIC concerning the NRs for HACCP failures at
                ConAgra, especially those involving fecal contamination. He said that he
                had been concerned about the high frequency of tests showing the E. coli
                pathogen in product that had occurred in the fall of 2001. By way of
                impressing on plant officials that additional action could be taken by FSIS,
                the IIC referred in each new NR to the previous NRs that reported zero
                tolerance violations. Although the IIC was not required to take a
                monitoring sample for E. coli O157:H7 testing, even under the
                circumstances, he did anyway. (The sample tested negative.) He said he
                discussed these issues weekly with plant management and had
                impressed on them that enforcement action could be taken for repetitive
                noncompliance violations.

                The IIC told us, however, that as far as he knew there was no magic
                number of NRs that would result in FSIS enforcement action. He said he
                had consulted the district office on what actions to take but could get no
                guidance on whether there were too many NRs for the same problem. He
                also consulted the TSC and, in the end, the district and TSC decided that
                because the plant was responsive to the NRs and because the IIC’s
                monitoring sample tested negative, they would take no enforcement
                action.

                In our earlier audit of HACCP, we noted that FSIS was repeatedly issuing
                NRs for the same violation,26 and we recommended that the agency
                establish guidelines on what was an acceptable number of NRs for
                repetitive violations. In response to our audit, FSIS said they would
                develop procedures for repetitive deficiencies by December 2000. In
                September 2001,27 FSIS issued a notice providing general guidelines on
                the types of enforcement actions that may be taken and the general
                circumstances under which they would be appropriate. However, the
26
   Audit Report No. 24001-3-At, Implementation of the Hazard Analysis and Critical Control Point System,
dated June 2000.
27
   FSIS Notice 36-01, Rules of Practice, dated September 5, 2001.

USDA/OIG-A/24601-2-KC                                                                         Page 30
               procedures do not provide specific criteria for determining when
               enforcement action is needed based on repetitive NRs. Also, FSIS needs
               to develop alternative enforcement actions, within its existing authorities,
               for when establishments fail to comply with established pathogen
               reduction benchmarks and/or when they are cited for repetitive food safety
               violations.

               More recently, GAO28 reported that in 16 plants reviewed, the most
               common repetitive deficiency reported in NRs was for violation of the zero
               tolerance standard for fecal contamination. The GAO study showed that
               FSIS had not taken enforcement action on any of the repetitive violations
               identified. GAO further noted that FSIS had not established criteria for
               inspectors to consider when assessing whether repetitive violations
               warrant enforcement action. GAO recommended that FSIS “establish
               clear, consistent criteria for inspectors to use when considering whether to
               recommend suspension because of repetitive violations.” The report
               stated that FSIS officials recognized the need to establish such criteria
               and were in the process of updating a policy directive to include it. The
               report further stated FSIS expected to implement this directive in early
               2003. However, the written response to the report did not provide specific
               timeframes for the planned directive changes cited.

                                      Develop and implement criteria to evaluate
     RECOMMENDATION NO. 8             repetitive noncompliance violations that
                                      provide a basis for determining when
                                      corrective actions are inadequate and
           enforcement actions should be initiated. Establish specific criteria when
           further enforcement action must be taken based on criteria established for
           repetitive violations.

               FSIS Response

               On June 17, 2002, FSIS issued Directive 4430.3, “In-Plant Performance
               System Reviews,” (IPPS) and a comprehensive Supervisory Guideline
               (Enclosure No. 6). These documents provide specific instructions and
               guidance on how to assess the performance of inspection personnel in the
               PR/HACCP system environment and for verifying that inspection
               personnel are carrying out their responsibilities. These include having
               supervisors ensure that inspection personnel are evaluating trend
               indicators over time to determine whether to take regulatory action based
               on the establishment's performance and having supervisors assess from
               inspection records that inspection personnel are determining whether a
               trend of noncompliance that warrants the withholding of inspection is

28
 GAO Report No. GAO-02-902, Better USDA Oversight and Enforcement of Safety Rules Needed to
Reduce Risk of Foodborne Illnesses, dated August 2002.

USDA/OIG-A/24601-2-KC                                                             Page 31
          occurring. IPPS holds inspection personnel accountable and ensures that
          the significance of repetitive noncompliance violations is not being
          overlooked.

          FSIS also revised FSIS Directive 5000.1 (Enclosure No. 5), “Verifying an
          Establishment’s Food Safety System.” The revised Directive provides
          guidance for the field on how to identify repetitive deficiencies and what
          action to take in response. The revised Directive was issued on
          May 21, 2003. The Directive 5000.1 is used along with the Rules of
          Practice, 9 CFR 416 and 9 CFR 417 by the District Offices to determine
          when enforcement actions are warranted. This process has been
          implemented.

          On April 29, 2003, FSIS implemented new FSRE (Enclosure No. 4)
          training designed to better equip inspection personnel in verifying an
          establishment’s food safety system. The training provides guidance to
          inspection personnel for evaluating repetitive noncompliance and
          furnishes a basis for determining when corrective actions are inadequate
          and enforcement should be initiated.

          In addition, during the week of April 28-May 2, 2003, a compliance training
          session was held in Dallas, Texas. The Deputy District Managers of each
          District Office and several District Managers attended the session. At the
          training, FSIS stressed the importance of ensuring that FSIS verification
          plans are developed and carried out for all deferral actions and
          suspensions held in abeyance. A presentation was given which covered
          the development of FSIS verification plans and the procedures that should
          be utilized to ensure that a plant’s corrective and preventive measures are
          effectively carried out.

          Furthermore, in August 2002, FSIS implemented a procedure that requires
          that whenever FSIS defers enforcement following the issuance of a Notice
          of Intended Enforcement (NOIE), or hold a suspension in abeyance, a
          written FSIS verification plan will be developed and attached to the
          deferral or suspension held in abeyance letter. The verification plan is
          also discussed with plant officials. The verification plan identifies the
          specific procedures that an FSIS in-plant inspection team will carry out to
          ensure that the establishment implements the corrective and preventive
          actions proffered to the Agency in response to a NOIE or suspension.
          The procedures in the verification plan are carried out until such time that
          the establishment can demonstrate it is capable of eliminating unsanitary
          conditions and practices and is producing product that is safe and
          sanitary. If FSIS verification activities reveal that the establishment’s
          corrective and preventive measures are effective, the deferral or
          suspension being held in abeyance will be closed. On the other hand, if
          FSIS verification activities show that the plant’s food safety controls are

USDA/OIG-A/24601-2-KC                                                        Page 32
           ineffective, further enforcement will be initiated.

           The Office of Program Evaluation, Enforcement and Review (OPEER) will
           monitor the Agency’s progress in the area. Audits, evaluations, and
           reviews will be conducted to verify implementation and measure the
           effectiveness of the corrective actions.

           OIG Position

           We cannot accept the management decision. We agree, in principal, that
           the issued directives and training will be beneficial for inspectors in
           analyzing whether a trend of noncompliance or repetitive violations has
           occurred. These procedures do not, however, provide specific criteria for
           determining when enforcement action is needed. The instructions provide
           for referring cases of trends/repetitive violations to supervisors and/or the
           district office but do not provide guidance as to when enforcement actions
           should be initiated and/or accelerated. FSIS also states that OPEER will
           monitor the Agency’s progress in this area, verify implementation, and
           measure the effectiveness of corrective actions. To reach management
           decision, FSIS needs to establish criteria to ensure consistent application
           of its enforcement actions, describe the process to be used by OPEER in
           its evaluation, and provide an estimated timeframe for implementing the
           specific actions proposed.

                                   Develop        and     implement      alternative
 RECOMMENDATION NO. 9              enforcement tools, within existing authorities,
                                   when establishments fail to comply with
                                   established pathogen reduction benchmarks
       and/or when they are cited for repetitive food safety violations.

           FSIS Response

           FSIS believes that the concerns raised by the OIG should be directed at
           the Agency’s need for improving its management controls and supervision
           of its inspection personnel to ensure effective enforcement of regulatory
           requirements. FSIS does not have the authority to implement civil
           penalties; however, the judicial system has imposed civil penalties for
           statutory violations. FSIS believes that the OIG recommendation should
           encourage better use of existing authorities for enforcement. Federally
           inspected establishments are required to take appropriate and effective
           corrective actions to address identified deficiencies. Further, when
           serious deficiencies are noted at establishments, FSIS will begin preparing
           an Administrative Enforcement Report (AER) that compiles all serious
           non-compliances. The AER will support the Agency’s basis for actions
           taken, ensure uniformity and consistency, and become a part of the formal
           record for action.

USDA/OIG-A/24601-2-KC                                                          Page 33
          To enhance the supervision of inspection program personnel and improve
          management controls, FSIS has issued Directive 4430.3, “In-Plant
          Performance System Reviews,” (IPPS) and a comprehensive Supervisory
          Guideline (Enclosure No. 6). IPPS holds inspection program personnel
          accountable and ensures that inspectors are applying the appropriate
          inspection methods, using effective regulatory decision-making, and
          documenting findings appropriately and when warranted, implementing
          enforcement actions properly.

          Also, FSIS instituted new Food Safety Regulatory Essentials (FSRE)
          training designed to better equip inspection personnel in verifying an
          establishment’s food safety system. Unlike initial HACCP training, the
          FSRE training is tailored to an inspector’s assignment. All trainees
          receive foundation training, covering the Rules of Practice, Sanitation
          Performance Standards, and Sanitation Standard Operating Procedures
          (SSOP).

          The Office of Program Evaluation, Enforcement and Review (OPEER) will
          monitor the Agency’s progress in the area. Audits, evaluations, and
          reviews will be conducted to verify implementation and measure the
          effectiveness of the corrective actions.

          OIG Position

          Based on FSIS’ response, we revised this recommendation. However, we
          cannot reach management decision. OIG believes FSIS needs additional
          enforcement tools to ensure compliance with regulatory requirements.
          FSIS, in its response, has proposed the development of an Administrative
          Enforcement Report that compiles all serious non-compliances. The
          Administrative Enforcement Report is to support the Agency’s basis for
          actions taken, ensure uniformity and consistency, and become part of the
          formal record for action. FSIS has also proposed that OPEER will monitor
          the Agency’s progress in this area.          The intent of OIG’s original
          recommendation was for FSIS to consider alternative enforcement actions
          for plants that have repetitive violations and/or take ineffective corrective
          actions. To reach management decision, FSIS needs to identify the
          options or alternatives available under its existing authority to address
          these situations, how it will implement them, and the timeframes for doing
          so.




USDA/OIG-A/24601-2-KC                                                         Page 34
                                     ConAgra’s long history of production
        FINDING NO. 5                containing E. coli O157:H7 demonstrates the
                                     need for FSIS managers to strengthen
FSIS INSPECTORS AT CONAGRA           oversight and training of both FSIS and plant
 DID NOT RECEIVE ADEQUATE            staff and to achieve a culture and environment
         SUPERVISION                 adequate to assure food safety. We found few
                                     instances before the recall in which FSIS
                                     managers responded to inspector concerns at
           ConAgra or contacted the FSIS staff there. More recent food safety
           problems at the plant occurred in the absence of the circuit supervisor,
           who was on extended sick leave during our audit.

           Some of the instances and results of poor FSIS supervision at ConAgra
           are summarized below.

           •    Although the plant’s testing records between 2001 and 2002 showed
                an increasing presence of E. coli O157:H7 and a failing HACCP
                system, the IIC did not take any action because he could not get
                support from the TSC or the district office. (The district office could
                provide no evidence to dispute this.) The IIC wanted to perform
                additional testing for E. coli O157:H7 but, under FSIS Directive
                10,010.1, ConAgra was exempt from testing unless inspectors
                received permission through supervisory channels. Furthermore,
                several of ConAgra’s positive tests were from beef trim, and
                procedures required FSIS action only if the adulteration were found in
                ground beef. According to district office officials, since TSC and
                FSIS headquarters advised against approving the IIC’s request for
                testing, the district office denied permission. Both the IIC and district
                office officials understood that it was the TSC’s policy that FSIS
                would not get involved if a plant was testing on its own, found
                problems, and corrected them;

           •    In October of 2000, the IIC was denied permission to ignore
                ConAgra’s E. coli O157:H7 testing exemption in an effort to conduct
                some FSIS testing of ground product, even though he advised that
                the plant had increasing numbers of positive E. coli O157:H7 tests.
                An August 2001 NR linked eight instances of fecal contamination in
                the processing area. Finally, in September 2001, the IIC advised a
                staff member of the district office and the circuit supervisor that the
                plant had encountered several positive tests for E. coli O157:H7.
                The circuit supervisor said he would be in the plant the following
                week. Although the circuit supervisor did arrive at the plant, he gave
                no instructions to the inspectors and no actions were taken on the
                plant’s operations;

           •    Before the recall, the plant’s own quality assurance staff identified

USDA/OIG-A/24601-2-KC                                                           Page 35
               serious problems with meat sanitation but did not reassess the
               HACCP plan to prevent future HACCP failures;

          •    FSIS inspectors wrote 66 NRs from January 1, 2001, through
               November 14, 2002, for fecal contamination (see exhibit D) but took
               no enforcement action. (See Finding No. 4.) We noted that
               sanitation deficiencies were sometimes handled informally; no NRs
               were written; and

          •    ConAgra inspectors did not write an NR, as required, after FSIS
               tested a sample of ground beef on September 10, 2002, and found it
               positive for E. coli O157:H7. The IIC said he was aware of the
               requirement but could not explain why an NR was not prepared. No
               one was held accountable.

          FSIS has in place an array of reviews aimed at improving agency
          operations and inspector performance. Most significant among these are
          the Program Assessments and Internal Audits, which are performed in
          response to actual or perceived problems, and the Management Control
          Reviews, which are conducted to determine if agency controls are in
          compliance with GAO and Office of Management and Budget
          requirements. Although any of these reviews, properly performed, may
          have resulted in tighter standards at ConAgra, none were conducted there
          over the period before the recall. In April and May of 2001, FSIS
          conducted the first of a series of reviews known as Food Safety Systems
          Correlations, designed to identify the range of food safety practices within
          an FSIS district and share these practices with FSIS personnel in that
          district. Although the first district selected for a correlation review was the
          one in which ConAgra resided, ConAgra itself was not included in the
          review sample.

          Indepth verification reviews could have helped draw the attention of both
          the inspectors and FSIS management to the poor practices at ConAgra.
          Verification reviews allow supervisors and managers to concentrate
          oversight of operations at problem plants. However, because ConAgra
          was not considered a problem plant, an indepth verification review was
          never performed there.

          We believe the FSIS inspection staff at ConAgra could benefit from
          greater management guidance. For example, when the results from the
          correlation reviews were shared with the ConAgra inspectors, none of
          them, including the IIC, appeared to draw the appropriate correlations,
          even though the poor practices disclosed by the reviews (incomplete
          analysis of hazards, weak controls, poor records) mirrored the operation at
          ConAgra. We also observed during our audit that both plant and FSIS
          inspection personnel engaged in numerous unhygienic practices. We saw

USDA/OIG-A/24601-2-KC                                                           Page 36
          the cleaning crew, plant quality assurance personnel, and FSIS inspectors
          touching unsanitary surfaces and then touching food contact surfaces
          without washing or disinfecting their hands (see exhibit F). The IIC took
          the position that because the plant used disinfectant foam on food contact
          surfaces just before the start of operations, the practices we observed
          affected only nonfood contact surfaces.

          We concluded that FSIS supervision of the inspection team at ConAgra,
          both before and during the recall, was too limited and ineffective.
          Conditions at the plant clearly warranted additional oversight. We also
          concluded that FSIS managers should be ready to support enforcement
          actions under the conditions that prevailed at ConAgra.          Earlier
          enforcement may have limited the scope of the recall or eliminated the
          need for it entirely.

                                       Increase supervision and oversight to the
 RECOMMENDATION NO. 10                 plant until it demonstrates it is capable of
                                       eliminating    unsanitary  conditions    and
                                       practices and producing product that is
          sanitary and wholesome.

          FSIS Response

          FSIS agrees that greater oversight over the inspection program at Est.
          969 is beneficial and has done so. The Agency has taken several
          personnel actions to immediately address the problems at the plant. A
          new acting Circuit Supervisor (CS) has been assigned to the
          establishment. The new acting CS is actively involved in oversight
          activities.

          In addition, the District Office placed a Supervisory Veterinary Medical
          Officer (SVMO) in the position as acting Inspector In Charge (IIC). He is
          actively involved in all supervision and oversight functions. Supervisory
          oversight has increased dramatically at all levels. In-plant staffing has
          remained a constant priority to facilitate adequate inspectional oversight
          activities.

          The FSIS monitoring of the in-plant sampling of ground beef for E. coli
          O157:H7 has continued since the initial recall of product began. In
          addition, Est. 969 has continued its daily in-plant sampling of all beef trim.

          OIG Position

          We accept the management decision.




USDA/OIG-A/24601-2-KC                                                          Page 37
                                      Strengthen monitoring of inspector activities at
 RECOMMENDATION NO. 11                the plant to achieve an acceptable level of
                                      performance      in     applying       HACCP
                                      requirements.

          FSIS Response

          The FSIS inspection activities have been strengthened and increased at
          Est. 969 since the initiation of the enforcement action. As a result of the
          November 2002 enforcement action, an in-plant FSIS Verification Plan
          was developed detailing FSIS in-plant activities to monitor the plant’s
          actions in response to the enforcement action taken. A copy of the FSIS
          Verification Plan was provided to and discussed with plant management.
          The plan is designed to ensure that the establishment fully implements
          and executes the revisions of the SSOP and HACCP plan(s) and other
          corrective actions as indicated and can be modified to reflect any
          necessary changes.          The FSIS Verification Plan identifies the
          establishment’s actions, the relevant regulatory requirement the actions
          meet and the Inspection System Procedure (ISP) code under which the
          inspection task will be performed. It identifies and establishes timelines to
          which the plant committed. The plan also has to be initialed and dated by
          the in-plant inspection team member completing the task and identifying
          plant actions, responses, or non-compliances documented.                 The
          completed copies of the plan are mailed or faxed to the Boulder District
          Office for review bi-weekly.

          In addition, the in-plant inspection team, both day and night shifts,
          generate daily e-mail reports detailing the plant operations, NR’s
          documented or other problems. The e-mail reports are sent to the
          opposite shift FSIS supervisor, the CS, and the District Office.

          In addition, on June 17, 2002, FSIS issued Directive 4430.3, “In-Plant
          Performance System Reviews,” (IPPS) and a comprehensive Supervisory
          Guideline (Enclosure No. 6).        These documents provide specific
          instructions and guidance on how to assess the performance of inspection
          personnel in the PR/HACCP system environment and for verifying that
          inspection personnel are carrying out their responsibilities. These include
          applying the appropriate inspection methods, using effective regulatory
          decision making and documenting findings appropriately, and when
          warranted, implementing enforcement actions properly.




USDA/OIG-A/24601-2-KC                                                         Page 38
          FSIS will complete an internal assessment of IPPS to ensure that the
          reviews are accomplishing their objectives. The internal assessment at
          Est. 969 will be completed by October 2003.

          OIG Position

          We accept the management decision.




USDA/OIG-A/24601-2-KC                                                   Page 39
CHAPTER 2        RECALL OF CONAGRA BEEF PRODUCTS NEEDED
                 MORE PROACTIVE INVOLVEMENT BY FSIS


          The recall of ConAgra beef products was not effective or efficient. FSIS’
          management of the recall process, as well as the manner in which it is
          conducted, needs to be reassessed. Traceback policy impeded the timely
          identification of the source of the adulterated product and the product
          (production period) that should be recalled. FSIS’ monitoring of the recall
          process through its effectiveness checks was not timely to maximize the
          product recovered. Also, problems and/or discrepancies identified in its
          checks were not subject to management review, analysis, and/or action.
          Although all recalls are voluntary on the part of industry, we concluded in
          the case of ConAgra that FSIS should strengthen its oversight role to
          provide increased assurance that recall measures are rapid and timely
          notice of the recall and recovery of the product is made. As of
          January 2003, FSIS recovered no more than 17 percent of the 18 million
          pounds of beef recalled.

             Inefficient trace back policies. Identification of the specific amount of
             product to be recalled was complicated by FSIS delays in identifying the
             source of the contamination and by plant records that did not help track
             the disbursements of the product to its purchasers. FSIS was slow to
             react to evidence of E. coli O157:H7 contamination at Galligan and
             Montana Quality Foods because FSIS had no clear policy on when to
             take a traceback sample to identify the source of the contamination.
             FSIS technicians refused to approve traceback sampling, but the district
             office persisted until National Office managers approved it. Because of
             this unclear FSIS policy, the ConAgra recall was delayed 7 days.
             During the 7-day period, under its normal operation, ConAgra could
             have produced up to 3.75 million pounds of recalled beef.

             No record requirements to quickly identify purchasers of beef. Galligan
             managers could not readily identify from their records which of their
             purchasers received product made from ConAgra beef and how much
             of their product made from other sources may have been
             cross-contaminated by the ConAgra beef. FSIS does not require firms
             to keep records that can readily trace raw or finished product to all
             suppliers and/or purchasers.

             Little preparation for a recall. Industry managers were not always
             prepared for a recall. Although ConAgra had procedures in place for a
             potential recall, there were no plans at Galligan and Montana Quality

USDA/OIG-A/24601-2-KC                                                        Page 40
               Foods. FSIS directives ask establishment operators to take measures
               to ensure a rapid and effective recall but, because recalls are voluntary,
               FSIS does not have the authority to mandate recall provisions in the
               HACCP plans.

               Ineffective FSIS oversight. FSIS conducted effectiveness checks of
               ConAgra’s recall from the time of the initial recall to up to 4 months later
               (about 50 percent of the effectiveness checks occurred more than
               30 days after the recall). To date, there has been limited management
               review, analysis, and/or action on the findings disclosed. In one district,
               FSIS compliance officers documented in 67 of the 490 effectiveness
               checks we reviewed that distributors and others in the distribution chain
               had not been properly notified of the recall. District compliance officers
               did not always resolve the problems encountered during the reviews
               and did not initiate any enforcement actions. Moreover, they did not
               always verify information provided by the distributors.

             During the recall, FSIS dispatched an inspection team to ConAgra to
             determine if its HACCP systems and other controls were adequate to
             prevent adulterated product from entering commerce and if future
             production from ConAgra posed a health risk to consumers. In response
             to FSIS’ demands for improvement, ConAgra attempted to control the
             E. coli O157:H7 contamination of its ground beef by offering to add lactic
             acid to the ground beef to destroy the contaminant. This process had not
             been tried, but FSIS approved it without performing a well documented
             and systematic review of the scientific evidence submitted by ConAgra
             that showed the process would work.

             To date, only about 3 million pounds of the 18 million pounds of recalled
             product have been returned and the remaining pounds were not returned
             or accounted for.

                                     Although ConAgra had procedures in place
      FINDING NO. 6                  (external to its HACCP plan) to address a
                                     potential recall, there were no plans at
    HACCP PLANS DID NOT              Galligan and Montana Foods.              ConAgra
RECOGNIZE A NEED FOR RECALL          followed    its plan   during  the  recent  recall;
                                     neither of the other establishments had
                                     considered what they would do in the event of
         a recall.     FSIS policy recommends but does not require that
         establishments have a recall plan, and a recall plan is not considered part
         of an establishment’s overall HACCP plan. The absence of recall plans
         can impact the timely and efficient identification and recovery of potentially
         contaminated product. During this recall, one of the establishments
         lacking a recall plan had difficulty in identifying all product subject to the
         recall.

USDA/OIG-A/24601-2-KC                                                             Page 41
                  FSIS Directive 8080.1,29 states that establishment operators should take
                  measures that will ensure rapid and effective recall of products. To
                  achieve this goal, the operator should prepare and maintain a detailed,
                  written recall plan.    This plan should describe, step-by-step, the
                  procedures (which include scope of recall, effectiveness checks, and
                  returned product control) the firm will follow in case it becomes necessary
                  to recall a product. Because recalls are considered a voluntary action on
                  the part of industry, FSIS has no regulatory requirement that an
                  establishment have a recall plan or that the recall plan be included in its
                  HACCP plan.

                  Galligan did not have a written recall procedure and did not see a need for
                  one because sampled product never leaves the facility. The product is
                  always held until the results of FSIS microbiological tests are completed.
                  When Galligan did experience a recall from its supplier, the only way the
                  company could determine what customers had received the recalled
                  product was to review its sales records. However, incomplete sales
                  records, ground beef production records, and SSOP records complicated
                  the identification of the product requiring recall as well as the customers
                  who purchased the recalled product.

                  According to a Montana Quality Foods official, the company did not have a
                  recall plan because it is a small plant. The FSIS circuit supervisor advised
                  us that no plant in the circuit had a recall plan.

                  The USDA Office of the General Counsel informed us that since recalls
                  are done voluntarily by industry, some type of Congressional action would
                  be required before FSIS can mandate that recall provisions be
                  incorporated in HACCP plans. However, FSIS officials informed us this
                  was unnecessary because FSIS would be involved in any recall and they
                  would follow their own procedures, not a company’s plan. We found,
                  however, that FSIS procedures were not always effective (see Finding
                  No. 8).

                  Based on the inefficiencies experienced during this current recall, we
                  concluded that recall operations can be improved if a recall plan is
                  required as part of each plant’s HACCP plan.

                                        Seek legislation and issue regulations
     RECOMMENDATION NO. 12              requiring that all establishments include in
                                        their HACCP plan the steps that would be
                                        necessary to conduct an effective recall of
           product and provide for its proper disposition.

29
     FSIS Directive 8080.1, Revision 3, (Recall of Meat and Poultry Products), dated January 19, 2000.

USDA/OIG-A/24601-2-KC                                                                            Page 42
           FSIS Response

           FSIS has strongly encouraged establishments to incorporate a recall plan
           in their HACCP plans through direction provided in FSIS Directive 8080.1
           (Enclosure No. 7), “Recall of Meat and Poultry Products.” As part of the
           Directive, FSIS provided “Product Recall Guidelines for Firms.” The
           guideline outlines the actions that FSIS expects a firm to take in the event
           that the establishment decides to recall product.

           FSIS does not have authority to make it mandatory for establishments to
           include plans for a recall in their HACCP plans. On December 12, 2002,
           FSIS held a public meeting to discuss improving the overall recall process.
           As a result of that meeting, FSIS is considering ways to further encourage
           plants to incorporate effective recall plans into their HACCP plans. FSIS
           expects to update this guidance on planning for recalls by March 2004.

           OIG Position

           We cannot reach management decision based on this response. Since
           recalls are currently voluntary by industry and FSIS states it cannot
           mandate that plants incorporate recall plans in their HACCP plans, FSIS
           must develop compensating controls to ensure that recalls are effectively
           performed so that recovery of contaminated product is maximized. To
           reach management decision, in the absence of authority to require plants
           to develop and implement recall plans, FSIS needs to provide a
           description of the compensating controls it will put in place, and
           timeframes for implementation, to ensure recalls are timely and efficient to
           maximize the recovery of contaminated product. This is especially critical
           for those plants that have not established recall plans.

                                    When E. coli O157:H7 was detected at
     FINDING NO. 7                  Galligan, FSIS did not take timely traceback
                                    samples to identify the source of the
   UNCLEAR POLICY AND               contamination, even though Galligan officials
PROCEDURES FOR TRACEBACK            complained that their suppliers’ beef was the
 SAMPLES DELAYED RECALL             source, not the Galligan operation itself. FSIS
                                    also took no traceback samples from Montana
                                    Quality Foods, which made the same
        complaint. FSIS was slow to react, in part, because it did not have a clear
        written policy on when to take a traceback sample to identify the source of
        E. coli O157:H7 in product at meat processors (grinders). Existing policy
        stated that the grinders should be held accountable for ensuring the
        product they purchased from their suppliers was wholesome. Moreover,
        some FSIS officials interpreted the guidance and regulations to restrict or
        eliminate any sampling for traceback purposes. As a result of uncertainty

USDA/OIG-A/24601-2-KC                                                         Page 43
                over procedure, the traceback sample that resulted in the ConAgra recall
                was delayed 7 days, in part, because FSIS field personnel were required
                to obtain concurrence from the FSIS TSC before taking the sample.
                During the 7-day period, under its normal operation, ConAgra could have
                produced up to 3.75 million pounds of recalled beef. We concluded that
                this and other product may have been consumed when clearer traceback
                procedures could have either kept it out of commerce or ensured that it
                was identified and returned.

                In 1994,30 FSIS defined E. coli O157:H7 in raw ground beef as an
                adulterant.    Accordingly, ground beef shipped by beef processors
                (grinders) that was contaminated was to be considered adulterated and
                the grinder held responsible for a violation of the Federal Meat Inspection
                Act.31   In January 1999, FSIS extended the definition to include
                contaminated beef trim and coarse-ground beef. Therefore, raw materials
                received by beef grinders that contained the E. coli pathogen were also to
                be considered adulterated and the supplier was in violation of the Federal
                Meat Inspection Act. 32

                The January 1999 definition of adulteration appeared to make traceback
                essential since a violation of law would have occurred. However, in
                March 1999,33 FSIS requested comments on the new definition of what
                constituted adulteration and stated they would not take action to enforce
                the change pending evaluation of the comments. Inspectors inferred from
                this action that FSIS had suspended the new definition of trim and
                coarse-ground beef as adulterated if contaminated by E. coli O157:H7.34
                Remaining in place was FSIS’ verbal policy to hold meat grinders
                responsible for the products processed at their establishments and for
                ensuring meat products they purchased from suppliers were wholesome.




30
   9 CFR III (FSIS, USDA).
31
   21 U.S.C. 601, et seq.
32
    Federal Register, dated January 19, 1999
33
    Federal Register, dated February 11, 2000.
34
   It should be noted that the original Federal Register Notice stated that the agency was soliciting input
from the public about regulatory requirements that may be appropriate to prevent distribution of products
adulterated with E. coli O157:H7. The Notice specified that any changes made to the regulations would
have to be consistent with the agency’s view that E. coli-contaminated intact cuts (e.g., trim) that are to be
further processed into non-intact products (e.g., ground beef) will be considered adulterated unless
conditions of handling can ensure they will not be distributed until they have been processed into ready-
to-eat products. However, constituent guidance provided to the industry after a March 8, 1999, public
meeting to accept comments on the policy, stated that FSIS would not take action to enforce their
determination that trim products were adulterated, pending evaluation of the public comments.



USDA/OIG-A/24601-2-KC                                                                              Page 44
               Unwritten35 FSIS policy that had not been clearly communicated to field
               personnel provided that traceback samples could be conducted when
               E. coli O157:H7 was identified in product produced by meat grinders.
               However, for a traceback to be attempted, FSIS required two conditions to
               be met:

               •    The contaminated ground beef had to have been produced from a
                    “clean-grind” (i.e., the establishment had to demonstrate a
                    documented cleanup of their facilities and equipment immediately
                    before the production of the contaminated lot); and

               •    The contaminated ground beef had to have come from a single source
                    supplier (i.e., the establishment had to prove to the satisfaction of
                    FSIS inspectors that the contaminated ground beef did not contain
                    product from more than one supplier).

               Thus, traceback sampling would only be attempted if the plant could
               already establish the likely outside source of the contamination. The
               decision itself to take traceback samples further required FSIS inspectors
               to gain the concurrence of the TSC.

               Galligan Wholesale Meat Company

               A routine monitoring sample of ground beef (MT03) taken at Galligan first
               identified the presence of the E. coli pathogen on May 14, 2002. An NR
               was issued and the company reassessed its HACCP plan, as required. A
               traceback sample was not taken because the sampled product (ground on
               May 9) contained beef from more than one supplier. As part of the
               corrective action taken on the NR, the company stated they would
               minimize suppliers to one or two per lot.

               FSIS began its verification series of 15 consecutive samples (MT04) at
               Galligan on May 31. It collected samples on May 31, June 4, 5, 7, 11, 12,
               and 14. On June 17, the FSIS Western Laboratory reported that the
               sample taken on June 12 tested positive for E. coli O157:H7. The IIC at
               the plant immediately retained the lot containing the product that tested
               positive. Company officials reported that all of the beef used in the
               contaminated lot had come from ConAgra in Greeley. At this point, no
               recall was considered necessary by FSIS because the lot that tested
               positive had been held at Galligan.


35
   FSIS Directive 10,010.1, dated February 1, 1998, provides the instructions for the microbiological
testing program for E. coli O157:H7 in raw ground beef. The directive provides for collecting samples
under three project codes, MT03 (monitoring program at grinding facilities), MT04 (15 consecutive
verification samples taken after a positive MT03 test), and MT05 (samples taken at retail level
establishments). The directive does not address traceback sampling.

USDA/OIG-A/24601-2-KC                                                                      Page 45
                   On June 18, the district manager instructed the IIC to stop the company
                   from producing product and to retain any raw materials remaining in the
                   plant that had been used in the lot that tested positive. At the same time,
                   the district manager contacted the TSC to obtain their agreement to take a
                   traceback sample from raw materials available at Galligan. An e-mail
                   response, dated June 18, stated:

                           The TSC cannot recommend or support any decision to collect a
                           sample as part of MT04 follow-up sampling prior to the product
                           being ground at the establishment where the initial positive
                           occurred under the MT03 project.          It is the establishment’s
                           [Galligan]36 responsibility under the regulations to address the
                           source of the food safety hazard…. It does not appear that this
                           company [Galligan] is trying to do this, but instead to point fingers
                           at other companies [ConAgra] not meeting their responsibilities….
                           In regards to the other plant [ConAgra], where the adulterant is
                           being alleged to be coming from, you may want to have your
                           in-plant inspection team verifying the adequacy of the
                           HACCP-Based Inspection System, looking at their program and
                           current documentation.

                   After the TSC refused to support the district office request to take the
                   sample on, or about, June 19 or 20, the district contacted FSIS’ Office of
                   Public Health and Safety (OPHS) in Washington for permission to take the
                   sample. Permission was given by OPHS on June 24, and a compliance
                   officer immediately obtained the traceback sample at Galligan. The
                   product sampled was ConAgra coarse-ground beef produced on
                   May 31, 2002, and was in chubs37 labeled sell or use by June 18, 2002. In
                   all, 7 days were lost in obtaining permission to take the traceback sample
                   (June 17-24). The traceback sample was confirmed positive for the E. coli
                   pathogen on June 29; the recall process was initiated that resulted in the
                   June 30 recall at ConAgra.

                   Montana Quality Foods

                   Company officials allege that positive E. coli O157:H7 samples in their
                   products, detected in January and February 2002, were made from beef
                   supplied by the ConAgra plant at Greeley. Company records showed that
                   at the time of the first positive test result in January 2002 Montana Quality
                   Foods had products on hand from both ConAgra and another supplier.
                   When an FSIS compliance officer arrived at the plant after the first positive
                   result (MT03 test), a Montana Quality Foods official said he offered both
                   products to the compliance officer for testing. The Montana Quality Foods

36
     All entries in brackets added for clarification and were not included in the original message.
37
     A chub is processed meat packaged in a tube.

USDA/OIG-A/24601-2-KC                                                                                 Page 46
                 official said the compliance officer declined and said the procedures did
                 not allow FSIS to sample incoming product that bore the mark of
                 inspection. District office officials said FSIS did not collect a traceback
                 sample of raw materials at Montana Quality Foods because the
                 contaminated product could not be linked to a single source.

                 Montana Quality Foods returned products from both ConAgra and the
                 other supplier. It subsequently received additional ConAgra product,
                 which a Montana Quality Foods official later said was the source of the
                 positive verification (MT04) test results at the plant. The contaminated
                 ConAgra beef bore the same batch number and date of production as the
                 ConAgra product previously returned; however, the Montana Quality
                 Foods official said he was unaware of this at the time. The official said
                 that when Montana Quality Foods learned of the three positive test results
                 on verification samples, no source product was left in the plant to fulfill an
                 FSIS request for the source product. FSIS tried but could not find any
                 remaining ConAgra product from the same batch and production date to
                 test.

                 FSIS officials informed us that a project code and sample collection and
                 processing procedures for traceback samples have been developed,
                 although the written procedures have not yet been issued. In addition,
                 FSIS issued guidance in July 2002 that provided for in-plant inspection
                 personnel to identify the firms supplying the raw materials when
                 presumptive positive test results are reported in raw ground beef. These
                 requirements were contained in a notice in November 2002.39 Upon
                 notification that there is a confirmed positive test result, the district office is
                 now required to notify the affected suppliers that product from their
                 establishment was used in raw ground beef that tested positive for the
                 E. coli O157:H7 pathogen. In addition, FSIS’ RMD has been instructed to
                 follow a similar procedure to notify suppliers when their raw materials are
                 included in adulterated product subject to recall.

                                       Expedite issuance of the regulations and/or
     RECOMMENDATION NO. 13             written directives, as necessary, to provide
                                       clear directions on when traceback samples
                                       are to be collected and how the samples are
           to be processed. Incorporate the cited notice requiring notification of
           suppliers into the FSIS Directive System.

                 FSIS Response

                 FSIS will provide clear directions on when traceback samples are to be

39
     FSIS Notice 47-02, dated November 20, 2002.


USDA/OIG-A/24601-2-KC                                                                     Page 47
            collected and how the samples are to be processed in the updated FSIS
            Directive 10,010.1, “Microbiological Testing Program For Escherichia coli
            O157:H7 in Raw Ground Beef.” In the interim, FSIS issued Notice 11-03,
            “Update to FSIS Directive 10,010.1, Microbiological Testing Program For
            Escherichia coli O157:H7 in Raw Ground Beef,” dated April 18, 2003.
            This notice updates instructions to inspection personnel on planned
            changes to the Directive including providing more comprehensive
            procedures, requirements for notification of suppliers, and increased
            verification needs. The revised Directive will be issued by October 2003
            and incorporate the instructions of the notice.

            OIG Position

            We cannot accept the management decision. The notice cited by FSIS
            does not contain requirements or procedures for notifying suppliers when
            positive MT03 sample test results are found. To reach management
            decision, FSIS needs to incorporate such procedures into the cited
            directive when issued.

                                         FSIS’ management control and oversight of
        FINDING NO. 8                    the recall process does not provide
                                         reasonable assurance that recovery of the
 FSIS’ OVERSIGHT REVIEWS OF              recalled    product     is    maximized  and
 THE CONAGRA RECALL WERE                 enforcement actions, when necessary, are
  NOT USED TO CONTROL THE                taken. Effectiveness checks by compliance
       RECALL PROCESS                    officers were not reviewed by management,
                                         analyzed, and/or problems always resolved.
                                         We found that effectiveness checks were
           made up to 4 months after the initial recall, which limits the potential
           recovery of product, such as ground beef. Also, our review of the
           effectiveness checks disclosed incomplete and inconsistent reviews and
           lack of documented enforcement actions when problems were disclosed.
           In one district, although FSIS confirmed that ConAgra notified all primary
           distributors of the recall, in 67 cases, FSIS found that those distributors
           had not notified others in the commercial chain. There was no evidence
           that FSIS took enforcement action in these cases. As a result, FSIS’
           oversight of the recall process was not always effective in ensuring that
           the objectives of its management control process are met. According to
           FSIS Directive 8080.1 (Rev. 3), the primary purpose of effectiveness
           checks is to verify (1) that adequate notice about the recall has been
           provided to all consignees by the firm conducting the recall and (2) that
           consignees have located and controlled the recalled product and have
           followed the recalling firm’s instructions for removing it.

            FSIS officials stated that resource constraints have limited how quickly it
            can complete its effectiveness checks. However, we believe that FSIS

USDA/OIG-A/24601-2-KC                                                         Page 48
             needs to reassess how it conducts and manages this process to ensure
             that recall notice is timely provided and recalled product is removed from
             commerce.

             a. Effectiveness Checks Had Not Been Monitored

                We reviewed FSIS management control over the effectiveness check
                process in one district. We found limited evidence of supervisory
                review over the checks to be performed or the adequacy of those
                checks. Supervisory reviews were not completed until March 2003,
                after OIG requested documentation of the effectiveness checks. We
                found evidence of supervisory review for only 37 of 490 effectiveness
                checks we reviewed.

                Enforcement Protocol VI, Recalls, specifies that compliance officers in
                all districts involved in the recall should conduct recall effectiveness
                checks to verify that the recall action is conducted in an efficient
                manner.       There are no specific criteria in the instructions for
                determining the optimum number of checks to be performed.

                FSIS National Office officials informed all affected districts that
                effectiveness checks would be conducted on 100 percent of the
                primary distributors, 20 to 25 percent of the secondary distributors, 5 to
                10 percent of the tertiary distributors, and 5 percent of the distributors
                beyond tertiary. In one district reviewed, about 20 compliance officers
                were responsible for effectiveness checks. The district’s Recall
                Effectiveness Progress Reports reported that all primary distributor
                effectiveness checks had been completed.40 Furthermore, the district
                reported that no problems had been encountered during the
                effectiveness check process.              The district provided OIG
                490 effectiveness checks for analysis (37 primary, 436 secondary,
                13 tertiary, 4 beyond). Our review disclosed the following concerns:

                    FSIS did not ensure it performed a sufficient number of checks.
                    We found that individual FSIS compliance officers were responsible
                    for contacting the required number of distributors outlined in the
                    FSIS plan and for determining the number of secondary, tertiary
                    and beyond reviews to be done.            However, the individual
                    compliance officers did not formally document how they determined
                    the number of checks to be performed, and there was no
                    reconciliation of the number of reviews conducted to those planned.
                    We could not determine if all planned reviews were performed
                    because the data had not been accumulated. FSIS officials stated

40
  As of March 25, 2003, FSIS had made (nationwide) about 250 primary checks, 5,000 secondary
checks, and 250 checks at the tertiary level and beyond.

USDA/OIG-A/24601-2-KC                                                              Page 49
                it would be too labor intensive to collect this information after the
                fact. There is no requirement for FSIS at any level to document
                that FSIS accomplished its plan for completing its effectiveness
                checks.

                Effectiveness checks were inconsistent and incomplete. We found
                at least 266 discrepancies in the data collected and documented on
                the effectiveness check forms completed by district compliance
                officers. Examples follow:

                •   10 cases where disposition of product on hand at the time of
                    the effectiveness check was not documented;

                •    6 cases where the number of subaccounts was not
                     documented;

                •    2 cases where the firm had a sub-recall but there was no
                     notation as to whether sub-recall instructions were followed;

                •    2 cases where the form showed the firm did not comply with
                     recall instructions but there was no documentation of the
                     problem;

                •    1 case where the form           showed     no   sub-recall   but
                     5 sub-accounts were noted;

                •    3 cases where the form indicated a sub-recall was instituted
                     but the box indicating the sub-recall instructions were followed
                     was marked “NA”;

                •    97 cases where the weight of recalled product purchased was
                     not shown; and

                •    145 cases where key dates were omitted.

                Checks were not always timely. Some effectiveness checks were
                not timely performed.    Effectiveness checks were conducted
                between July 8, 2002 and November 2002. For the effectiveness
                checks we reviewed, we found about 31 percent were done in July,
                42 percent in August, 20 percent in September, and 7 percent in
                October. Two checks were performed in November (0.4 percent).

                FSIS procedures do not specify the timeframes required for
                conducting effectiveness checks.        To provide reasonable
                assurance that recalled product is timely identified and removed


USDA/OIG-A/24601-2-KC                                                       Page 50
                from commerce, FSIS needs to establish timeframes for completing
                and acting on its reviews.

          b. Managers Did Not Follow-Up on Problems Disclosed by Effectiveness
             Checks

             Enforcement Protocol VI, Recalls, states that if effectiveness checks
             disclose that consignees have not been notified of the product recall or
             have not acted as requested by the recalling firm, FSIS personnel are
             to detain any product posing a health risk and notify the recalling firm.
             Communication breakdowns that cause a failure to recall product
             should result in FSIS compliance personnel notifying the recalling firm
             so corrective actions can be taken. District offices are to notify the
             compliance officer in headquarters and they are to follow-up with the
             firm and document the corrective actions taken. Logs are to be
             maintained of these reported problems and how the problems were
             resolved. If the firm does not take prompt action to contact the
             consignees with recall instructions or the consignee fails to act on the
             product as requested by the firm, compliance personnel may initiate
             other enforcement actions.

             In 19 cases, we found that the district office did not follow up to ensure
             that compliance officers resolved situations where they documented
             that the firm had not been notified of the recall. District office
             personnel stated that they were convinced at the time that all product
             was out of commerce and therefore, it was not necessary to resolve all
             these issues.

             For example, effectiveness checks for 4 of 37 primary distributors,
             1 secondary distributor, and 4 tertiary distributors showed that some
             secondary and tertiary distributors were either not notified or were
             notified in an untimely manner.

                Figure 3: Secondary Distributors Not Notified of Recall
                                          Number of             Number of Secondary
                     Primary        Secondary Distributor     Distributors Not Notified of
                    Distributor     Effectiveness Checks               the Recall
                                                1
                         A                   24                             0
                         B                    10                            0
                         C                    65                           42
                         D                    15                           14
                 1
                   Six effectiveness checks showed that the stores were notified from 8
                 to 10 days following the recall.
                 2
                   In addition, three other secondary distributors did not know whether
                 they had been notified of the recall.




USDA/OIG-A/24601-2-KC                                                                   Page 51
                Figure 4: Tertiary Distributors Not Notified of Recall
                                       Number of Tertiary            Number of Tertiary
                   Secondary                Distributor          Distributors Not Notified of
                    Distributor       Effectiveness Checks                the Recall
                         E3                      4                            4
                 3
                   Distributor E is a secondary distributor for primary Distributor D.

             District compliance officers documented the reasons some notifications
             were not made, but did not always verify the information provided, and
             they did not take enforcement actions where needed. We question
             whether information provided to District managers by these
             effectiveness checks was sufficient to allow the managers to conclude
             that the recall was effective.

             Distributor A. The primary effectiveness check for distributor A showed
             that distributor personnel would not be able to trace product to any
             particular retail store because the product was given a new lot code
             when it was received at the distribution center. Therefore, all similarly
             packaged product that was purchased from more than one supplier
             would have the same lot number. The distributor’s representative
             stated that the only way to trace product to the individual stores would
             be through the grinding logs. It is FSIS’ policy not to take exception to
             this practice, even though the recall process would be delayed.

             Distributor D.     A representative of distributor D stated to the
             compliance officer that his firm had received verbal and written recall
             notification of the original recall but not of the expanded recall. The
             FSIS compliance officer documented that the distributor purchased
             80,084 pounds of ground beef that was included in the expanded
             recall. Distributor D’s representative told the compliance officer that
             the company did not institute a “sub-recall” during the original recall
             because it sold the product lines to high-volume end-users who would
             have likely used the ground beef in a short timeframe.              The
             representative stated, “I am sure the product had been used up but our
             sales staff has begun notifying people by phone.”

             From our review of the effectiveness checks for 15 secondary
             distributors, we could not verify that primary distributor D had notified
             14 of its customers as stated. The FSIS compliance officer did not
             resolve this issue, and FSIS National Office officials informed us that
             no enforcement actions were taken against any of the firms that failed
             to make the proper notifications. However, we noted that although
             current procedures require compliance officers to take enforcement
             actions if a customer is not notified, they do not make clear what those
             actions should be if the distributor is down line. FSIS has not


USDA/OIG-A/24601-2-KC                                                                       Page 52
                   established criteria for assessing penalties when such recall
                   notifications are not done.

                   FSIS National Office officials informed us that the district office notified
                   them once of a specific distributor (on the island of Guam) that was not
                   notified of the recall.41 According to FSIS officials, other districts have
                   referred cases to FSIS headquarters, which monitors the districts’
                   pursuit of the cases to resolution. For example, one district reported
                   that one tertiary firm was not informed of the recall, and the National
                   Office instructed the district to trace the chain of companies from this
                   firm. Ultimately, the district located one remaining case of product that
                   should have been recalled. Another district reported that a distributor
                   refused to notify customers of a sub-recall because it assumed all the
                   meat had been eaten. FSIS instructed this district to verify this
                   assumption. The district contacted 13 of the customers, who verified
                   that the product had been consumed onsite, with only one consumer
                   complaint of an “off odor” to the beef.

             c.   Effectiveness Checks Were Not Analyzed by Management

                   The recall is considered for closure after (1) the recalling firm has
                   submitted a final closeout letter and (2) FSIS determines that the
                   recalling firm has made all reasonable efforts to recall the product and
                   that the product has either been disposed of, been retained by FSIS, or
                   been taken under documented control by the company.                    A
                   recommendation for closure would be prepared and submitted to the
                   RMD for its review and approval, and the recall case would be
                   removed from active status on the FSIS web site. However, no
                   desired timeframe for completing these actions is contained in FSIS
                   procedures, and no criteria are provided for evaluating the
                   effectiveness of the recall, such as the amount of product accounted
                   for, the number of consignees contacted, etc.

                   As of March 1, 2003, ConAgra had not issued a recall closeout letter to
                   FSIS showing the disposition of all recalled product. In addition, the
                   company had about 900,000 pounds of recalled ground beef in storage
                   whose disposition FSIS has not approved. FSIS has no evidence that
                   validated the proper disposition of this product.

                   In its draft closeout memorandum to the FSIS National Office, the
                   district reviewed showed that a total of 497 effectiveness checks were
                   done. The draft conclusion reached by the district office on the recall
                   was, “It would appear that the recall was conducted in an effective

41
  We discovered that a district compliance officer provided the notification without the knowledge of
district office management.

USDA/OIG-A/24601-2-KC                                                                      Page 53
             manner. No problems were noted or encountered. This letter will
             close the recall for the district.” The district office determined that the
             ConAgra recall was effective because district personnel were
             convinced that all product had been taken out of commerce. Even
             though all the notifications were not made, compliance officers found
             no cases of additional illness that they could directly relate to the
             absence of a specific notification. Therefore, they believe that it could
             be concluded that the absence of notifications had no adverse public
             health effects.

             We question the determination made by the district office. We found
             that neither the district nor National Office analyzed the effectiveness
             checks to determine whether ConAgra and its distributors made all
             reasonable efforts to recall and dispose of the product. The district
             office based its conclusion that the recall was effective on the
             abatement of reported cases of food poisoning.

             Documentation showed that in 67 effectiveness checks reviewed,
             distributors and others in the distribution chain were not notified of the
             ConAgra recall. When FSIS notified the firms during the effectiveness
             checks, the firms were able to take control of about 1,600 pounds of
             recalled product that may have otherwise been consumed. One firm’s
             manager told the FSIS compliance officer that he found out about the
             recall on the Internet. He searched his freezer and identified a case of
             recalled product, but he could not get the distributor to pick it up until
             he insisted it had to be removed.

          FSIS National Office officials stated that resource constraints limit what
          they can do in a set time period. However, FSIS needs to re-examine
          their process for completing effectiveness checks; they serve a limited
          purpose if they are not timely and/or enforcement action taken when
          needed. FSIS needs to strengthen its procedures for completing,
          reporting, and analyzing the results of its management control reviews
          over the effectiveness of the recall. Although FSIS procedures suggest
          that the recalling firm conduct effectiveness checks of its primary
          distributors’ notification to others in the commercial chain, ConAgra’s
          recall plan did not provide for this control.         FSIS assumed sole
          responsibility to evaluate whether the primary distributors properly notified
          others in the distribution chain and disposed of the recalled product. FSIS
          needs to place the responsibility for conducting effectiveness checks on
          the firm conducting the recall and take enforcement action whenever
          necessary when product has not been timely identified and disposed of.
          FSIS can then direct its resources to providing management oversight
          over the adequacy of the recalling firm’s actions.




USDA/OIG-A/24601-2-KC                                                          Page 54
                                      Implement a management control process to
 RECOMMENDATION NO. 14                ensure that district managers comply with
                                      recall procedures and that compliance officers’
                                      determinations are reviewed, analyzed, and
          acted on.

          FSIS Response

          In March 2003, the District Offices were provided draft guidelines to be
          immediately implemented to ensure that recall activities are effectively
          carried out. These guidelines clarify CO responsibilities associated with
          recalls and require that each District Office designate an individual to
          manage recall activities during working hours, as well as after hours,
          weekends, and holidays. The guidelines also address the responsibilities
          of the Deputy District Manager and COs pertaining to recalls. The
          responsibilities of Deputy District Managers and COs were also addressed
          at the FSIS Compliance Training session that was held in Dallas, Texas,
          during the week of April 28-May 2, 2003 (Enclosure No. 2).

          FSIS also plans to convene an internal workgroup to provide
          recommendations as to how to improve the recall effectiveness checks
          process. The workgroup will also provide recommendations so FSIS has
          a mechanism in place to ensure that, on an ongoing basis, District
          Managers comply with recall procedures and assure that COs’
          determinations are reviewed, analyzed and acted on. The workgroup will
          also consider the overall policies and procedures for managing the recall
          process and the recall effectiveness checks and will make
          recommendations for improvement.

          As part of the recall process improvement effort, FSIS will examine and
          include in directives, as appropriate, provisions to establish criteria to
          assess the overall effectiveness of a recall, to reconcile planned
          effectiveness checks to those checks actually performed, to identify
          corrective actions to be taken when deficiencies are noted, etc. This
          information will be assembled and formalized in a directive. The
          management controls, responsibilities, and oversight roles for this process
          will be clearly delineated.

          The workgroup will provide a report outlining recommendations by
          October 2003.     The draft guidelines issued to District Offices in
          March 2003 will be updated and finalized by March 2004. The final FSIS
          recommendations will be implemented by July 2004.

          OIG Position

          The planned actions are not sufficiently described to reach management

USDA/OIG-A/24601-2-KC                                                       Page 55
           decision. Our review of the interim guidelines of March 3, 2003, and
           information contained in the response, do not detail what provisions will be
           put in place for reconciling planned effectiveness checks to those checks
           that were actually performed. Also, the guidelines and reply do not specify
           what actions will be initiated when deficiencies are found with vendor
           notifications. Moreover, they do not establish or provide the criteria for
           assessing recall effectiveness. To reach management decision for this
           recommendation, FSIS needs to provide details of the management
           controls to be put in place to improve the recall activities and estimated
           timeframes for implementation.

                                  Reassess the policies and procedures for
 RECOMMENDATION NO. 15            managing the recall process. Require the
                                  recalling firm to conduct effectiveness checks
                                  on those below the primary distribution level.
       Perform sufficient oversight over the recall to ensure that notifications
       have been timely made and appropriate actions taken to dispose of the
       recalled product.

           FSIS Response

           FSIS does not have the statutory authority to require that establishments
           conduct effectiveness checks. FSIS believes the recommendation should
           be restated to ask that FSIS work with industry to improve the recalling
           firms’ effectiveness checks.

           FSIS has convened a workgroup to provide recommendations as to how
           to improve the recall effectiveness checks process. The workgroup will
           also provide recommendations designed to ensure that FSIS has a
           mechanism in place to ensure that on an ongoing basis, District Managers
           comply with recall procedures and assure that COs’ determinations are
           reviewed, analyzed, and acted on.

           In addition to providing recommendations to ensure that District Offices
           are properly carrying out their recall responsibilities, the workgroup will
           provide recommendations regarding what action should be taken in the
           event that the recalling firm has failed to conduct effectiveness checks
           below the primary level, and/or has not provided timely notifications to its
           consignees regarding the recalled product, or has not taken appropriate
           action to dispose of recalled product. FSIS intends to include as
           workgroup participants, persons who are familiar with the recall process
           and who have knowledge of problems that are encountered in the course
           of conducting recall effectiveness checks.

           As part of the recall process improvement effort, FSIS will examine and
           include in a directive, as appropriate, provisions to establish criteria to

USDA/OIG-A/24601-2-KC                                                         Page 56
           assess the overall effectiveness of a recall, to reconcile planned
           effectiveness checks to those checks actually performed, to identify
           corrective actions to be taken when deficiencies are noted, etc. This
           information will be assembled and formalized in a directive. The
           management controls, responsibilities, and oversight roles for this process
           will be clearly delineated in a directive.

           The workgroup will provide a report outlining recommendations by
           October 2003. The draft guidelines entitled, “Office of Field Operations
           District Office Recall Responsibilities” which was issued to District Offices
           in March 2003 will be finalized by March 2004. The final FSIS
           recommendations will be implemented by July 2004.

           OIG Position

           We cannot reach management decision until FSIS provides details as to
           the changes that will be implemented to improve recall policies and
           procedures. Since product recalls are voluntary actions by the recalling
           firm, verification that proper notice has been provided to those in the
           distribution chain should be the responsibility of the recalling firm. FSIS,
           as part of its oversight responsibility, should monitor the process and
           provide additional oversight, where warranted.

                                Establish a system of specific enforcement
 RECOMMENDATION NO. 16          actions to be taken against those processors
                                or distributors where effectiveness checks
                                disclose    proper   notifications  of   the
       consignees/customers have not been made.

           FSIS Response

           Under 9 CFR 500.3 FSIS has authority to take enforcement action against
           any establishment that has been found to have produced and shipped
           adulterated product. When effectiveness checks disclose that proper
           notification of the consignee/customers has not been given, FSIS has the
           authority to detain and, if necessary, seize products that have been
           determined to be adulterated. FSIS has prior precedent in applying its
           enforcement authority.

           FSIS is working closely with industry and is providing guidance on the
           proper and appropriate actions that should be taken during recalls. On
           December 12, 2002, FSIS held a public meeting to discuss improving the
           recall process. The Agency is considering ideas presented at the public
           meeting for increasing industry’s involvement in managing recalls.




USDA/OIG-A/24601-2-KC                                                          Page 57
            Also, during the week of April 28-May 2, 2003, an Office of Field
            Operations (OFO) Compliance training session was held in Dallas, Texas
            (Enclosure No. 2). As part of the training, OFO COs were provided
            training on their expected roles and responsibilities regarding recall
            activities. OFO COs will play a greater role in recalls. These COs will
            collect information to demonstrate that processors or distributors have
            either met or failed to disclose proper notifications to consignees or
            customers regarding recalled product. This information will be used as a
            basis for further strengthening and improving the recall process.

            As part of the recall process improvement effort, FSIS will examine and
            include as appropriate, provisions to establish criteria to assess the overall
            effectiveness of a recall, to reconcile planned effectiveness checks to
            those checks actually performed, to identify corrective actions to be taken
            when deficiencies are noted, etc. This information will be assembled and
            formalized in a directive. The management controls, responsibilities, and
            oversight roles for this process will be clearly delineated within the
            directive.

            The workgroup will provide a report outlining recommendations by
            October 2003. The draft guidelines entitled, “Office of Field Operations
            District Office Recall Responsibilities” which was issued to District Offices
            in March 2003 will be finalized by March 2004. The final FSIS
            recommendations will be implemented by July 2004.

            OIG Position

            The proposed action is not sufficient to reach management decision. We
            do not consider detention and seizure of adulterated product to be
            sufficient enforcement action against firms that do not fulfill their recall
            notification responsibilities. To reach management decision, FSIS needs
            to provide the details of the changes that will be implemented in recall
            policies and procedures and the timeframe for implementation.

                                  Develop effectiveness check criteria for
 RECOMMENDATION NO. 17            monitoring      the  universe    of    potential
                                  effectiveness checks and documenting the
                                  number of required individual checks
       completed, as well as establishing substantive and quantitative criteria for
       determining whether recalls are effective.

            FSIS Response

            FSIS plans to convene an internal workgroup to provide recommendations
            as to how to improve the recall effectiveness checks process. The
            workgroup will also provide recommendations designed to ensure that

USDA/OIG-A/24601-2-KC                                                            Page 58
            FSIS has a mechanism in place to ensure that on an ongoing basis,
            District Managers comply with recall procedures and assure that COs’
            determinations are reviewed, analyzed and acted on. In addition to
            providing recommendations to ensure that District Offices are properly
            carrying out their recall responsibilities, the workgroup will be expected to
            develop recommendations for effectiveness check criteria, including
            establishing substantive and quantitative criteria for determining whether
            recalls are effective. The workgroup will provide a report outlining
            recommendations by October 2003. The recommendations will be
            finalized by March 2004. The final FSIS recommendations will be
            implemented by July 2004.

            As part of the recall process improvement effort, FSIS will examine and
            include as appropriate, provisions to establish criteria to assess the overall
            effectiveness of a recall, to reconcile planned effectiveness checks to
            those checks actually performed, to identify corrective actions to be taken
            when deficiencies are noted, etc. This information will be assembled and
            formalized in directives. The management controls, responsibilities, and
            oversight roles for this process will be clearly delineated in the directive.

            OIG Position

            The proposed action is not sufficient to reach management decision. To
            reach management decision, FSIS needs to provide the details of the
            changes that will be implemented in recall policies and procedures and the
            timeframe for implementation.


                                      Galligan records pertaining to production,
       FINDING NO. 9                  distribution, and sanitation activities were
                                      either inadequate or nonexistent. Galligan
 PLANT PRODUCTION RECORDS             itself had no company policies for production
 WERE NOT DETAILED ENOUGH             records of any kind, and FSIS had not codified
     TO TRACK PRODUCT                 specific record requirements to ensure that
       DISBURSEMENT                   pertinent manufacturing activities were
                                      documented for regulatory review. While most
                                      companies keep the transaction records
          required by FSIS regulations, the production records needed are those
          that allow a company to trace the source and distribution of product that is
          later identified as contaminated with E. coli O157:H7. The lack of
          adequate production records diminished the ability of FSIS to exercise
          appropriate oversight and contributed to the untimely removal of
          potentially contaminated ground beef product from commerce.




USDA/OIG-A/24601-2-KC                                                            Page 59
                  Regulations require companies to maintain records that will fully and
                  correctly disclose all transactions in the business subject to the Act42 and
                  require that SSOPs describe all procedures an official establishment will
                  conduct daily, before and during operations, sufficient to prevent direct
                  contamination or adulteration of product(s).43 SSOPs shall specify the
                  frequency with which each procedure in the SSOP is to be conducted and
                  identify the establishment employees responsible for the implementation
                  and maintenance of such procedures. However, regulations do not
                  require that production records be kept. HACCP record keeping principles
                  require the plant to record its monitoring of CCPs, but they do not specify
                  any requirements for production records.

                  The plant sales manager at Galligan said that there are no internal
                  company policies or requirements that specify the preparation of
                  production records of any kind. A plant production employee did maintain
                  limited unofficial records of ground beef production in a notebook. This
                  notebook showed the products, day, lot number, amount of product, raw
                  meat ingredients, and the source (company) of the raw product. However,
                  the sales manager pointed out that the entries in the notebook may not
                  accurately reflect the production sequence. He told us plant personnel
                  had performed a cleanup after production of product (later known to be
                  contaminated with E. coli O157:H7) and before the production of beef
                  pepper patties. The notebook did not corroborate this statement.

                  FSIS officials stated that there are no FSIS requirements regarding
                  whether establishments must maintain production records. Therefore,
                  there are no policies specifying the content of plant production records. At
                  our request, the supervisory compliance officer (SCO) analyzed the
                  establishment’s available ground beef production records.            Of the
                  20 sample cases he reviewed, the SCO found no instances where plant
                  personnel recorded enough production information to immediately identify
                  the specific supplier’s product that was used. In addition, the TSC
                  personnel who assisted us confirmed that the establishment’s HACCP
                  plan had no record keeping requirements. We also noted that there were
                  no production records maintained for the chicken, pork, or other beef
                  products.

                  We reviewed the available production and distribution records for Galligan
                  in an attempt to determine whether this plant removed from commerce all
                  contaminated product they produced from contaminated raw product that
                  they received from ConAgra. The available production records for
                  June 14, 2002, showed that Galligan produced (1) ground beef patties,
                  (2) ground beef pepper patties, and (3) bulk ground beef, in that order.

42
     9 CFR 320.1, Records Required to be Maintained, dated January 1, 2002.
43
     9 CFR 416.12, Development of Sanitation SOPs, dated January 1, 2002.

USDA/OIG-A/24601-2-KC                                                                Page 60
          Both the ground beef patties and the bulk ground beef were produced with
          product from ConAgra that was contaminated with E. coli O157:H7.
          According to production records, the pepper patties were produced from
          product received from another plant, but they were nevertheless produced
          between two rounds of production that were confirmed positive for E. coli
          O157:H7, and there was no documentation to show that plant employees
          cleaned the equipment after producing the contaminated ground beef
          patties. As a result, it was questionable whether the ground beef patties
          did not also contaminate the pepper patties.

          We attempted, in conjunction with plant management, to identify and
          account for the distribution of 49 boxes of beef pepper patties that were
          potentially contaminated. We could only account for 11 boxes that
          available records showed had been shipped. Thirty-eight boxes were not
          accounted for with available records. On August 30, 2002, following our
          visit, the plant voluntarily recalled about 980 pounds of pepper patties,
          based on our review at the plant.

          Following our review, an FSIS Office of Program Evaluation, Enforcement,
          and Review (OPEER) team initiated a review at Galligan at the request of
          the FSIS National Office. The OPEER draft report concluded that:

          •   The voluntary recall of the pepper patties might have occurred earlier
              if inspection personnel had recognized the establishment’s production
              record limitations;

          •   The compliance officer could have questioned the pepper patty
              production further by not accepting oral statements that a proper
              cleanup was made before production of the pepper patties;

          •   The circuit supervisor provided minimal involvement and oversight of
              the circumstances that led to the voluntary recall of the pepper patties;
              and

          •   The nature of the establishment records contributed to a slow
              response to initiate a voluntary recall.

          The review team’s draft report noted that an FSIS compliance officer was
          dispatched to the establishment on June 19, 2002. The compliance officer
          reviewed plant production records for June 14, 2002, as well as incoming
          raw product and sales invoices. The draft report stated:

                The production records for June 14, 2002, show that three types of
                ground products were produced on that day. The records do not
                show that a cleanup was performed between the different products;
                however, plant management orally stated that there was a cleanup.

USDA/OIG-A/24601-2-KC                                                         Page 61
           The OPEER draft report indicated that the inspector at Galligan satisfied
           the compliance officer that a proper cleanup was done before the pepper
           patties were produced. The report also showed that the compliance
           officer found no record of production for June 12, 2002. On this date,
           another ground beef sample had been taken and was found to be
           contaminated with E. coli O157:H7. The report showed that plant
           personnel later furnished an addendum to the production records for
           June 12, 2002, that appeared to be documented some time after the
           June 12 production.

           The draft OPEER report supports our conclusion that company records
           were insufficient to allow for an adequate accounting for products
           produced at the plant. It reported that records were not adequate to show
           the source of the raw product used in finished product, the dates of
           production, or the locations where finished products were shipped. It also
           reported that there was no documented evidence of cleanup on June 14,
           2002, after the contaminated production and before production of the
           pepper patties.

           In Finding No. 8, we detail additional problems concerning production
           records. We noted that the primary effectiveness check for distributor A
           showed that distributor personnel would not be able to trace product to
           any particular retailer because the product was given a new lot code when
           it was received at the distribution center.

                                  Establish minimum acceptable requirements
 RECOMMENDATION NO. 18            for an establishment’s production records.
                                  Ensure that these production record
                                  requirements are adequate to facilitate
       tracebacks; direct that these requirements be incorporated into each
       establishment’s HACCP plan; and periodically verify the records for
       sufficiency.

           FSIS Response

           FSIS Directive 8080.1 (Enclosure No. 7), “Recall of Meat and Poultry
           Products,” provides guidance to industry on developing a recall plan.
           FSIS recommends that the recall plan specify that product production and
           distribution records be maintained by establishments such that they can
           facilitate identification and location of products that may need to be
           recalled. FSIS will revise Directive 8080.1 to provide additional guidance
           on the establishments’ production records. Also, FSIS will work to issue
           additional guidance through a Federal Register Notice that details how
           language in 9 CFR 320.1 “Records required to be kept,” would be utilized
           to ensure the establishment records are adequate to facilitate tracebacks.

USDA/OIG-A/24601-2-KC                                                       Page 62
          FSIS will revise and issue an updated FSIS Directive 8080.1 by
          October 2003.    FSIS will issue a Federal Register Notice by
          December 2003.

          OIG Position

          We accept the management decision.

                                      Verify that sanitation procedures at Galligan
 RECOMMENDATION NO. 19                are always properly documented by the plant.


          FSIS Response

          On May 7, 2003, FSIS conducted a confirmation and verification review at
          the Galligan Wholesale Meat, Est. 6475, Denver, Colorado, to review
          deficiencies and needed improvements identified during the OIG audit.
          The review specifically focused on verifying the corrective actions required
          to improve the plant’s SSOP plan and the production documents for
          ground beef and other ground products at the establishment.

          As a result of the review, new record-keeping practices have been
          instituted at the establishment to more closely monitor all products used in
          the production of ground beef. The establishment’s sanitation procedures
          have been documented. A log book is being kept with all fresh beef
          suppliers listed for each batch of ground product, lot numbers, production
          dates and all pertinent information on the labeled products. Finished
          product identification including total box count, total weight and finished
          product lot numbers is also recorded in the log.

          In addition, on June 17, 2002, FSIS issued Directive 4430.3, “In-Plant
          Performance System Reviews,” (IPPS) and a comprehensive Supervisory
          Guideline (Enclosure No. 6).        These documents provide specific
          instructions and guidance on how to assess the performance of inspection
          personnel in the PR/HACCP system environment and for verifying that
          inspection personnel are carrying out their responsibilities. These include
          applying the appropriate inspection methods using effective regulatory
          decision making, documenting findings appropriately, and when
          warranted, implementing enforcement actions properly.

          The Office of Program Evaluation, Enforcement and Review (OPEER) will
          monitor the Agency’s progress in the area. Audits, evaluations, and
          reviews will be conducted to verify implementation and measure the
          effectiveness of the corrective actions.




USDA/OIG-A/24601-2-KC                                                        Page 63
                  OIG Position

                  We accept the management decision.

                                        During the recall, ConAgra offered to control
        FINDING NO. 10                  the E. coli O157:H7 contamination of its
                                        ground beef by introducing lactic acid into the
 FSIS VIOLATED POLICY WHEN IT           product during production. In approving this
  APPROVED THE POST-RECALL              use of lactic acid, FSIS reviewers did not
      USE OF LACTIC ACID                regard the process as a new technology; even
                                        though FSIS’ technical staff was unaware it
                                        had ever been tried before.          Whenever
           establishments intend to introduce a new technology, FSIS must
           document its analysis of the scientific validity of the process. In the case
           of ConAgra, however, the reviewers lacked sufficient evidence showing
           how they concluded the use of lactic acid in ground beef would produce a
           safe and wholesome product. The FSIS review team did not thoroughly
           document its analysis of the data ConAgra provided because it was trying
           to expedite its decisions to allow ConAgra to take corrective action in
           response to an NOIE. Although it was finally determined that ConAgra
           ground beef processed with lactic acid was safe, FSIS’ initial,
           undocumented approvals were open to challenge and raised questions
           within FSIS about the need to relabel the product. We found, however,
           scientific studies that documented that the use of lactic acid may raise the
           cooking temperature necessary to destroy the E. coli O157:H7
           contaminant.

                  FSIS’ Approval Process for the Use of Lactic Acid

                  On July 18, 2002, FSIS informed ConAgra in an NOIE letter that it
                  intended to withhold the marks of inspection and suspend the assignment
                  of inspectors at the plant. In an effort to prevent implementation of the
                  enforcement action, ConAgra submitted a plan to FSIS outlining what
                  corrective and preventive measures the plant intended to implement. One
                  of the corrective actions proposed by ConAgra was to add lactic acid to its
                  ground beef.

                  Before its 2002 recalls, the ConAgra plant was spraying lactic acid on
                  carcasses as an antimicrobial intervention during slaughter operations.
                  This intervention is commonly used by facilities that slaughter beef, and
                  was included in ConAgra’s HACCP plan. However, TSC officials who
                  assisted us during the audit informed us that they were not aware of any
                  beef processor adding lactic acid to its ground beef at the time the beef
                  was ground. ConAgra submitted its support for the use of lactic acid as an

45
     21 CFR 184.1061 (Lactic Acid), dated April 1, 2002.

USDA/OIG-A/24601-2-KC                                                               Page 64
              intervention against E. coli O157:H7 as part of its effort to satisfy FSIS that
              the enforcement measures stipulated in the NOIE were unnecessary.

              FSIS assembled a Technical Assessment Group team to review
              ConAgra’s proposals. The team reviewed the plant’s documentation,
              including the use of lactic acid treatment in ground beef. FSIS’ overall
              conclusion was that the documents supporting the HACCP plan revisions
              were scientifically sound. ConAgra subsequently started incorporating
              lactic acid in its ground beef.

              We asked FSIS to provide us with support for its decision to approve the
              plant’s use of lactic acid in ground beef. FSIS National Office officials told
              us that the information submitted by ConAgra was reviewed, but that FSIS
              did not formally document its analysis on the use of lactic acid. The
              officials stated that ConAgra submitted a considerable amount of
              documentation on a variety of topics at various times, and the review team
              was charged with reviewing all the information and making a decision
              within a month. These factors limited the amount of formal documentation
              FSIS could prepare to support its review.

              FSIS officials explained that their approval was based on the Food and
              Drug Administration’s (FDA) acceptance of lactic acid as generally safe
              when it is used as an antimicrobial agent.45 Antimicrobial agents are
              defined as substances used to preserve food by preventing growth of
              microorganisms and subsequent spoilage.46 Because lactic acid is
              considered generally safe by the FDA, FSIS considered it safe for use as
              an antimicrobial agent in ground beef.

              With assistance from the TSC, we examined the use of lactic acid in
              ground beef and we identified the following concerns:

              •    We could not locate any evidence to show that the E. coli O157:H7
                   pathogen in ground beef acts as a spoilage organism;

              •    We could not locate any evidence to show that lactic acid aids in
                   preserving ground beef through a material reduction in the numbers of
                   the E. coli O157:H7 pathogen;

              •    We found two studies that indicate that exposure of E. coli O157:H7 to
                   moderately acidic conditions (lactic acid) can increase the pathogen’s
                   ability to survive cooking;47 and
46
  21 CFR 170.3 (Definitions), dated April 1, 2002.
47
  Agricultural Research Service, Effect of PH-Dependent, Stationary Phase Acid Resistance on the
Thermal Tolerance of Escherichia Coli O157:H7, January 26, 1998. Also see Food Technology,
Foodborne Disease Significance of Escherichia coli O157:H7 and Other Enterohemorrhagic E. coli,
October 1997.

USDA/OIG-A/24601-2-KC                                                                 Page 65
               •    We found one study that concluded that lactic acid, individually or in
                    combination with other treatments (fast freezing, pulsed electric field,
                    sodium lactate, and citric acid), did not significantly reduce E. coli
                    O157:H7 numbers when applied at different stages throughout the
                    beef burger manufacturing process.48

               Absent FSIS’ written analysis of ConAgra’s use of lactic acid as an
               additive to ground beef, it is not clear to what extent FSIS thoroughly
               considered all the available scientific data concerning the use of lactic
               acid, including studies that indicate a counter-hygienic effect of that use.

               ConAgra applied about 440 gallons of 2 percent lactic acid solution to
               about 1 million pounds of raw ground beef over 13 days between
               August 12 and September 11, 2002. FSIS National Office officials
               informed us that ConAgra intends to discontinue use of lactic acid in its
               ground beef.

               Labeling Requirements

               Missing from ConAgra’s documentation for using the lactic acid was
               information that showed the acid had no technical effect on the product
               after processing. As an antimicrobial intervention, the acid was intended
               to have a technical effect during processing only. If it continued to have a
               technical effect in the finished product, ConAgra would have to re-label its
               beef to declare the presence of the lactic acid.49 Federal regulations
               define a misbranded product as one whose labeling is false or misleading
               in any particulars.50

               At the time ConAgra proposed to use lactic acid in its ground beef, FSIS
               officials stated that the process would likely result in a labeling
               requirement. An internal FSIS memorandum, dated August 13, 2002,
               noted, in part, that:

                       The study provided by ConAgra as scientific support for the use of
                       lactic acid indicates that the treatment does not significantly alter
                       the color or odor of the product. However, the use would trigger
                       labeling requirements to declare a descriptive statement of the
                       product and the water/moisture gain or retention, if any remains
                       after processing. In addition, there may be other technical effects
                       to be considered, e.g., change in pH of the final product that would
                       need consideration.
48
   Irish Agriculture and Food Development Agency, Control of Escherichia coli O157:H7 in Beefburgers,
April 2001.
49
   Section on Incidental Additives, 2c, FSIS’ Food Standards and Labeling Policy Book, August 1996.
50
   9 CFR 301.2 (Definitions).

USDA/OIG-A/24601-2-KC                                                                      Page 66
                  An FSIS e-mail on August 15, 2002, from a National Office official to the
                  Boulder District Office stated, in part, that:

                           The presence of the lactic acid would be required to appear as a
                           part of the identity statement unless the company can provide
                           information that shows that there is no sustained technical effect in
                           the ground beef.

                  FSIS National Office officials informed us that ConAgra’s ground beef
                  label did not declare the lactic acid and that the company never provided
                  FSIS with any documentation to show that the lactic acid did not remain
                  after processing or that it had no technical effect. This, according to the
                  National Office e-mail, caused the product to be misbranded, as defined
                  by regulations.51 In a conference call on November 4, 2002, between
                  FSIS National Office officials and OIG, FSIS officials agreed that use of
                  the lactic acid should have been declared on ConAgra’s packaging label
                  for the affected ground beef.

                  FSIS officials at all levels were aware that in the absence of any company
                  documentation proving lactic acid had no residual effects in ground beef,
                  ConAgra was required to declare the lactic acid in its labeling. However,
                  FSIS did not take action to ensure the company either provided the
                  required documentation or made the necessary disclosures.              We
                  concluded that the agency’s decisions regarding both the safety of the
                  product and its labeling should have been more thoroughly documented.

                  ConAgra officials noted at the time of our review that the ground beef with
                  the lactic acid additive was being held at the plant and that it would not be
                  released for sale until the plant received approval from FSIS. Company
                  officials subsequently informed us that FSIS gave their approval for sale of
                  the product in late November or early December 2002. According to the
                  company officials, FSIS concluded that ConAgra had satisfactorily
                  demonstrated that no residual lactic acid was present in the finished
                  ground beef, that the acid had no effect on the product’s shelf-life, and that
                  the additive made no changes in the appearance of the product. These
                  three characteristics allowed ConAgra to release the product without a
                  label declaration.

                                   Document the analysis and determinations
     RECOMMENDATION NO. 20         made for the suitability of new ingredients
                                   used in meat or poultry products.      This
                                   documentation should include details on the
           review process and the factors considered, how conclusions will be

51
     9 CFR 301.2 (Definitions).

USDA/OIG-A/24601-2-KC                                                                  Page 67
          communicated to the establishment, and who will be responsible for
          ensuring that FSIS decisions are properly implemented, in particular those
          relating to product labeling requirements. Coordinate with FDA on the
          safety concerns related to the use of lactic acid in ground beef.

          FSIS Response

          On December 23, 1999, the Food Safety and Inspection Service (FSIS)
          published in the Federal Register a final rule on “Food Ingredients and
          Sources of Radiation Listed or Approved for Use in the Production of Meat
          and Poultry Products.” The final rule streamlined the process for approving
          the use of food ingredients and sources of radiation in meat and poultry
          products to provide for the simultaneous review, by FSIS and the Food
          and Drug Administration (FDA), of petitions for new uses of food and color
          additives and notifications for new uses of generally recognized as safe
          (GRAS) substances that are submitted to FDA.
          Subsequent to the publication of the final rule in January 2000, FDA and
          FSIS entered into a Memorandum of Understanding (MOU) that outlines
          the procedures that are followed by FDA and FSIS regarding the joint
          review of requests and petitions for the use of food ingredients and
          sources of radiation in meat and poultry products with regard to safety and
          suitability determinations. The final rule and the MOU explain that, except
          in limited circumstances, FDA will now (1) list in its regulations (21 CFR)
          food additives and sources of radiation that are safe and suitable for use
          in the production of meat or poultry products and (2) document the
          generally recognized as safe (GRAS) substances that are both safe and
          suitable for use in meat and poultry products that are the subject of GRAS
          Notices they receive.
          With regard to new uses of substances that are GRAS, the MOU explains
          the process that FSIS operates jointly with FDA to perform acceptability
          (suitability) determinations. The Federal Register notice entitled “E. coli
          O157:H7 Contamination of Beef Products” (67 FR 62325) and related
          documents, such as “Guidance on Ingredients and Sources of Radiation
          Used to Reduce Microorganisms on Carcasses, Ground Beef, and Beef
          Trimmings,” and “Guidance on the Procedures for Joint Food Safety and
          Inspection (FSIS) and Food and Drug Administration (FDA) – Approval of
          Ingredients and Sources of Radiation Used in the Production of Meat and
          Poultry Products,” provided additional guidance.         The information
          contained in these documents clearly specifies the data, documentation,
          and related requirements to support how FSIS makes suitability
          determinations.      In order to document the results of suitability
          determinations, FSIS also issued Directive 7120.1, Safe and Suitable
          Ingredients Used in the Production of Meat and Poultry Products, dated
          December 2002, to communicate with inspectors and provide field
          personnel and establishments with an up-to-date list of approved


USDA/OIG-A/24601-2-KC                                                       Page 68
          substances for use in the production of meat and poultry products. The
          Directive is updated every few months as needed. FSIS regularly
          evaluates and updates its guidance documents as required. FSIS will
          coordinate with FDA in performing an updated acceptability determination
          on the use of lactic acid in ground beef by March 2004.

          OIG Position

          FSIS cites various agreements with FDA and processes that should be
          used to approve ingredients used to reduce microorganisms on
          carcasses, ground beef, and beef trimmings. During the audit, however,
          we found that FSIS did not document its determinations on the
          acceptability (suitability) determination for using lactic acid in ground beef.
          Of further concern, are the studies OIG found that questioned this
          practice, one of which was done by another USDA agency. While we
          concur with FSIS’ proposed action to coordinate with FDA in performing
          an updated acceptability determination on the use of lactic acid in ground
          beef, to reach management decision, FSIS needs to provide the
          requirements that will be put in place that describe when acceptability
          determinations will be required and the documentation necessary to
          support the results of these internal determinations, as well as approvals
          needed.




USDA/OIG-A/24601-2-KC                                                           Page 69
                 MONITORING AND SUPERVISION OF FOOD SAFETY
CHAPTER 3        PROCEDURES AT BEEF PRODUCTION PLANTS
                 NEED TO BE IMPROVED


          Some methods and procedures practiced by FSIS and industry could be
          improved to ensure that contaminated product does not enter channels of
          commerce. In the case of ConAgra, Galligan, and Montana Quality
          Foods, we identified four areas in which controls needed strengthening or
          where managers needed to reexamine systems in place.

             Testing samples. FSIS’ E. coli O157:H7 testing program cannot be
             used to measure the effectiveness of HACCP on either a company or a
             nationwide basis. The sampling program, as designed, does not
             provide scientific, risk-based data to measure the extent of an existing
             hazard. Also, FSIS needs to strengthen controls over the samples it
             selects for laboratory testing. Managers at both Galligan and Montana
             Quality Foods knew when FSIS was going to take samples for E. coli
             O157:H7 testing and adjusted their production accordingly. Packaged
             samples also remained unsealed and accessible by plant personnel.

             HACCP plans. HACCP plans for ConAgra, Galligan, and Montana
             Quality Foods contained the seven principles required by regulation but
             were technically inadequate. Hazards were not properly analyzed and
             controls were not always established. The plants need to reassess
             their plans and correct the deficiencies.

             Carcass reinspections. When animal feces were observed on ConAgra
             beef carcasses during production, the plant did not reinspect an
             adequate number of carcasses to ensure the contamination was not
             also present on them. FSIS policy on such reinspections is too obscure
             to provide adequate guidance to the plants.

             Disposal of contaminated product. Beef trim that was returned to
             ConAgra after customer tests found the presence of E. coli O157:H7
             was repackaged and resold for cooking. FSIS did not attempt to verify
             the actual disposition of the repackaged trim because FSIS officials did
             not believe it was necessary for the agency to monitor the disposition of
             all beef product that tested positive for the E. coli O157:H7 pathogen.

          We also noted that FSIS’ random sample testing of plants for pathogens
          and other contaminants does not provide meaningful performance data.
          Although the testing is intended to verify the effectiveness of the HACCP

USDA/OIG-A/24601-2-KC                                                        Page 70
                 systems, it has not been designed to measure the extent of an existing
                 hazard. A risk-based sampling plan that ultimately targets testing toward
                 those plants with the greatest risk of contamination would be more
                 effective.

                                       FSIS’ E. coli O157:H7 testing program cannot
        FINDING NO. 11                 be used to measure the effectiveness of
                                       HACCP on either a company or a nationwide
 FSIS’ E. COLI O157:H7 TESTING         basis. The sampling program, as designed,
PROGRAM CAN BE IMPROVED TO does not provide scientific, risk-based data to
 PROVIDE MORE MEANINGFUL               measure the extent of an existing hazard. The
     PERFORMANCE DATA                  data that is produced does not reflect industry
                                       performance because a) plants like ConAgra,
                                       that performed their own E. coli O157:H7
           testing on carcasses were exempt from sampling of ground beef,
           b) sampling plans do not take into account all relevant plant operational or
           processing factors, and c) samples taken at the plants that are selected
           for testing are not always representative of the lot of production or final
           product. As a result, FSIS cannot rely on its random sampling program to
           detect plants like ConAgra nor can it conclude whether HACCP, as a
           program, is effective in controlling product contamination by the E. coli
           O157:H7 pathogen.

                 FSIS’ sampling program consists of two projects, designated MT03 and
                 MT04. The MT03 project is designed to test for the E. coli pathogen and
                 to stimulate industry to reduce the presence of the pathogen in raw ground
                 beef.52 The MT04 project is designed to verify that plant operations are
                 back under control after an MT03 test has shown the presence of the
                 E. coli pathogen in beef.

                 One of the objectives of FSIS’ sampling program is to verify the
                 effectiveness of HACCP systems.53 We concluded that the random
                 sampling program is not achieving this objective or measuring the nature,
                 scope, or extent of an existing hazard.

                 a.    Verifying the Effectiveness of HACCP Systems at Plants Like
                       ConAgra

                       FSIS’ sampling program, as designed, is not functioning to verify the
                       effectiveness of HACCP systems at federally inspected plants. The
                       program design, which was not designed to allow generation of
                       statistical results to the entire universe of plants, is to consist of about


52
     FSIS Directive 10,010.1, dated February 1, 1998.
53
     “FSIS Sampling Programs,“ FSIS, USDA, Washington, D.C.

USDA/OIG-A/24601-2-KC                                                                    Page 71
                       7,000 samples per year.54 The samples are divided between
                       manufacturers of ground beef products in retail stores and federally
                       inspected plants. Within the sample of approximately 1,700 federally
                       inspected plants producing ground beef, there was a further division
                       into random selection and target selection. The target sample is to
                       be collected from the plants that have been identified through
                       management reviews as performing below average.55 For 2002,
                       FSIS targeted only 60 samples, largely because pathogens had
                       already been identified in the plants where the samples were taken.
                       While this method of plant selection provided some risk-based data
                       with which to measure performance, it did not take into account plant
                       factors such as volume of production and effectiveness of
                       interventions in determining sampling frequencies.

                       OIG understands a risk-based sampling system is one that bases
                       testing on the risk a plant poses to the wholesomeness of its product
                       and the number of consumers endangered by contaminated product
                       originating from that plant. OIG understands a statistically-based
                       sample is one that bases testing on the assumption that the test
                       results will have enough scientific validity to be projected over a
                       universe to identify the probable magnitude of those results. OIG
                       further recognizes that the random testing used in the program is
                       neither risk-based nor sufficiently scientific to produce results that
                       may be projected.

                       For its random selections, FSIS planned its sample size with the
                       knowledge that a number of establishments selected for sample
                       testing would not be sampled. FSIS Directive 10,010.156 provides
                       exemptions from microbiological testing for the E. coli pathogen if an
                       establishment meets one of three criteria:57 (1) it conducts routine
                       daily testing of raw ground beef products for E. coli O157:H7; (2) it
                       requires suppliers of boneless beef to certify that each lot received
                       has been tested and found negative for E. coli O157:H7; or (3) it
                       uses validated pathogen reduction interventions on beef carcasses,
                       routinely verifies the interventions’ effectiveness through testing for
                       E. coli O157:H7, and prevents the use of boneless beef or carcasses
                       from outside sources. (ConAgra was granted an exemption under
                       the third criteria.)

54
   The sampling is limited by the capacity of FSIS’ laboratories and has recently been expanded to about
7,000 samples per year.
55
   FSIS Notice 50-94 (Microbiological Testing Program for E. coli O157:H7 in Raw Ground Beef), dated
December 23, 1994.
56
   FSIS Directive 10,010.1 (Microbiological Testing Program For E. coli O157:H7 in Raw Ground Beef),
dated February 1, 1998.
57
   This exception is not valid unless the establishment has had no positive test results (related to required
HACCP testing) within the last 6 months.

USDA/OIG-A/24601-2-KC                                                                             Page 72
                     Thus, prior to the recall, FSIS’ tests for E. coli O157:H7 were neither
                     risk-based, statistical, nor truly random and were not designed to
                     detect HACCP failures in some individual plants, like ConAgra, or to
                     determine the extent of the E. coli O157:H7 hazard industrywide.

                     FSIS managers stated that when the sampling program was
                     developed, they understood it to be risk-based rather than statistically
                     based.      They emphasized that FSIS considered plants that
                     performed their own interventions as low risk and that by exempting
                     these from testing, FSIS was testing only the higher risk
                     establishments. One manager stated that FSIS had no evidence the
                     self-testing plants did not present a low risk and that the ConAgra
                     recall did not provide any such evidence.

                     Subsequent to the recall, FSIS announced its intention to discontinue
                     its practice of exempting plants from MT03 sampling. An FSIS
                     manager stated that implementation of the exemptions was not
                     uniform or adequate nationwide. We concluded that a testing
                     program based on risk assessments would provide greater uniformity
                     of results and greater protection to the consumer.

               b.    Measuring the Extent of the Hazard

                     Once a positive MT03 sample is found, FSIS procedures call for the
                     collection of subsequent routine samples at the establishment where
                     the positive is found, in accordance with the instructions for MT04
                     testing found in FSIS Directive 10,210.1. The MT04 sampling must
                     continue until 15 consecutive ground beef samples have tested
                     negative for the E. coli O157:H7 pathogen.58 FSIS officials appeared
                     uncertain about the scientific basis for collecting 15 consecutive
                     negative ground beef samples but were able to find support for it in
                     the International Commission on Microbiological Specifications for
                     Foods.59

                     We determined, however, that while the International Commission on
                     Microbiological Specifications for Foods supports collecting
                     15 negative verification samples, it does not provide the timeframe or
                     the sampling techniques for the 15 samples. According to FSIS
                     instructions, one sample is to be taken from each of the
                     15 consecutive lots produced by an establishment. A lot is defined


58
   FSIS Directive 10,010.1 (Microbiological Testing Program For E. coli O157:H7 in Raw Ground Beef),
dated February 1, 1998.
59
   Case 13 sampling plan in the International Commission on Microbiological Specifications for Foods,
Microorganisms in Food 7.

USDA/OIG-A/24601-2-KC                                                                      Page 73
                        as the period of time from cleanup to cleanup. The sample is
                        described as a 1-pound sample selected at a random time.60

                        We concluded that the sampling timeframe and technique set forth in
                        FSIS instructions may not produce a sample that is indicative of the
                        extent of the hazard. The 1-pound sample from a lot of raw ground
                        beef product may not be representative if the entire lot is not subject
                        to sampling. Also, in our opinion, a 1-pound sample, per lot, for an
                        establishment the size of ConAgra that produces 500,000 pounds of
                        raw ground beef per lot is not as representative of the lot as a
                        1-pound sample from a lot produced at an establishment that
                        produces only 5,000 pounds per lot. In other words, the sample size
                        should be proportionate to the relative size of the lot. More samples
                        should be taken for a 500,000-pound lot than for a 5,000-pound lot.
                        For large producers, a sampling technique can be employed that
                        allows the inspector to take smaller samples at various times in the
                        production day.       One industry leader as part of its regular
                        microbiological testing program is currently using this procedure.

                  To improve the usefulness of its sampling program, FSIS managers need
                  to determine what they want the program to do and design it accordingly.
                  They need to define specific goals, objectives, and performance measures
                  for the program and incorporate them into a sampling plan design. We
                  have been advised by FSIS officials that FSIS is currently undertaking a
                  baseline study to develop a general microbiological description of all types
                  of raw ground beef components for selected microorganisms of various
                  degrees of public health concern. The microorganisms of concern for
                  which quantitative data will be collected are pathogenic E. coli and
                  Salmonella, which produce severe illness in humans.                    Other
                  microorganisms for which qualitative data will be collected are generic
                  E. coli, Coliforms, and Mesophilic aerobic plate counts. We believe the
                  data from baseline studies like these can help give direction to the testing
                  program.

                                         Perform the necessary baseline studies to
     RECOMMENDATION NO. 21               define the goals, objectives, and performance
                                         measurements and develop a scientific,
                                         risk-based sampling plan to include relevant
           factors, such as individual plant volume of production and effectiveness of
           interventions that will provide reasonable assurance that HACCP systems
           in place are effective.




60
     FSIS Directive 10,210.1, Amendment 3 (Unified Sampling Form), effective July 1, 2002.

USDA/OIG-A/24601-2-KC                                                                        Page 74
          FSIS Response

          FSIS agrees that baseline studies on different raw ground beef
          components can be useful in making the allocation of verification samples
          more risk-based, measuring the national prevalence, providing a marker
          for measuring future change in pathogens, and providing input for risk
          assessments.      Subject to available funding provided through
          appropriations, FSIS will conduct baseline studies to complement and
          enhance its sampling program.       FSIS’ sampling program is one
          component of the Agency’s overall verification program as specified in
          9 CFR 417.8.

          FSIS will update FSIS Directive 10,010.1, “Microbiological Testing
          Program for Escherichia coli O157:H7 in Raw Ground Beef,” with more
          comprehensive procedures. These procedures will address various
          sampling scenarios such as those based on estimates of production
          volume, production types (e.g., trim), statistical process data feedback,
          and technical interventions. FSIS’ new E. coli O157:H7 verification testing
          program will be more risk-based than the current program and will place
          added emphasis on collecting more than one sample from higher risk
          operations. By increasing the number of samples FSIS collects from
          higher risk operations, FSIS will have greater confidence that the sampled
          lot is negative for E. coli O157:H7. In addition, no official establishment
          will be exempted from FSIS E. coli O157:H7 verification testing. Under
          the revised Directive, FSIS intends to sample at grinding establishments.
          When FSIS finds a positive sample at the grinding operation, FSIS then
          intends to collect subsequent samples of product from suppliers (at the
          supplying establishment). FSIS expects this new Directive to be issued by
          October 2003.        FSIS expects full implementation to commence
          December 2003.

          OIG Position

          We cannot reach management decision. To reach management decision,
          FSIS needs to provide the details as to goals, objectives, and performance
          measures to be established, and timeframe for implementation, of a
          risk-based sampling program to provide assurance that HACCP programs
          are operating effectively. Also, FSIS needs to provide an estimated date
          for completing the baseline studies.

                                      Strengthen sampling procedures so that
 RECOMMENDATION NO. 22                samples are either representative of lots being
                                      sampled or of production operations.




USDA/OIG-A/24601-2-KC                                                       Page 75
          FSIS Response

          FSIS will continue to consider all options for strengthening its verification
          strategies, of which sampling is one component. FSIS will update FSIS
          Directive 10,010.1, “Microbiological Testing Program for Escherichia coli
          O157:H7 in Raw Ground Beef,” with more comprehensive procedures.
          These procedures will address various sampling scenarios such as those
          based on estimates of production volume, production types (e.g., trim),
          statistical process data feedback, and technical interventions.

          The revised Directive will be issued by October 2003. FSIS expects full
          implementation to commence December 2003.

          OIG Position

          Although FSIS has concurred with the need to update its sampling
          directive, we cannot reach management decision. To reach management
          decision, FSIS needs to provide details as to how the sampling
          procedures will be strengthened to ensure the samples are representative
          of the lot being sampled or production operations.

                                      Issue the planned revision to FSIS directives
 RECOMMENDATION NO. 23                to eliminate the current procedure that
                                      exempts plants performing their own testing
                                      from being tested by FSIS.

          FSIS Response

          This has been completed by FSIS. On April 18, 2003, FSIS issued FSIS
          Notice 11-03 (Enclosure No. 8), “Update to FSIS Directive 10,010.1,
          Microbiological Testing Program For Escherichia Coli O157:H7 in Raw
          Ground Beef.” The Notice provides updated instructions to inspection
          program personnel on some of the issues covered by FSIS Directive
          10,010.1, “Microbiological Testing Program For Escherichia Coli O157:H7
          in Raw Ground Beef.” In addition, the Notice provides notification that
          FSIS will be revising Directive 10,010.1.

          In the Notice, updated procedures that immediately went into effect were
          given to inspection program personnel that instructed them to collect raw
          ground beef samples whenever they received an FSIS Form 10,210-3 for
          microbiological sampling project MT03. Samples are to be collected
          regardless of whether the establishment had met criteria set forth in FSIS
          Directive 10,010.1, VI.B. All raw ground beef, hamburger, ground veal,
          veal or beef patties, or other products meeting the standard of identity in
          9 CFR 319.15, are eligible for verification sampling by FSIS. Thus, plants

USDA/OIG-A/24601-2-KC                                                         Page 76
                  are no longer exempted from sampling based on conducting their own
                  testing.

                  OIG Position

                  We accept the management decision.

                                           FSIS’ process before the recall for taking test
           FINDING NO. 12                  samples did not provide assurance that
                                           E. coli O157:H7 would be detected if present
     STRONGER CONTROLS NEEDED              in the sample. Plant officials at Galligan and
       TO ENSURE INTEGRITY OF              Montana Quality Foods were aware of the
        LABORATORY SAMPLES                 timing of the samples, and FSIS personnel
                                           were willing to accommodate the plants’
                                           preferred sampling time rather than sample
              during unannounced times.          Under conditions like these, where
              sample-taking is partially controlled by the establishments, there is an
              increased risk that production can be manipulated and the sample integrity
              compromised.

                  A positive test result at a plant can have substantial financial impact. The
                  plant may have to conduct a recall and divert the entire lot of sampled
                  product to be cooked, rendered, or in some cases destroyed. Therefore,
                  there can be an incentive for plants to provide samples that are free of
                  contaminants.      FSIS directives61 provide that inspection program
                  personnel should ensure that sample integrity and security is maintained
                  at all times for samples of the E. coli O157:H7 pathogen. FSIS’ sampling
                  procedures, however, do not ensure either sample integrity or sample
                  security.

                  Sampling Controlled by the Plant

                  Plant management at Galligan and Montana Quality Foods informed us
                  that they knew when FSIS was going to take samples for E. coli O157:H7
                  testing and adjusted their production accordingly. An official of Montana
                  Quality Foods stated that he was aware that FSIS had to pull samples by
                  about noon on the appointed day in order to have the sample ready for the
                  carrier. This official stated that since the sampling is not random, he could
                  protect his own product from ever being sampled. This could be done by
                  delaying the start of the grinding operation to just before the time to take
                  the sample and by switching at that time to product from another source.

                  Although a change in directives allowed FSIS inspectors to take a
                  monitoring sample of raw ground beef at any time, including during late

61
     FSIS Directive 10,210.1, Amendment 3 (Unified Sampling Form), effective July 1, 2002.

USDA/OIG-A/24601-2-KC                                                                        Page 77
                shifts and weekends,62 we found that the inspectors were not aware of this
                change or were not taking advantage of it. Instead, they accommodated
                plant management by limiting the time when samples could be taken.
                FSIS personnel believed they were limited by carrier pickup times. They
                were not aware that under revised procedures, E. coli O157:H7 samples
                could be refrigerated or frozen for later pickup by the carrier; thus,
                samples could be taken any time during the day.

                At Galligan, after being notified that an FSIS sample would be collected,
                the plant would grind product for sampling at the beginning of the day. If
                the inspector was not present, the plant held the product and designated
                this lot for E. coli O157:H7 sampling. The plant conducted a cleanup and
                continued to process other ground product. The inspector then sampled
                from the lot designated by the plant for sampling, rather than taking a
                random sampling.

                While FSIS policy requires a plant to be notified in time for product to be
                held for sampling, FSIS must protect and control the integrity of the
                sample. In recall situations, such as that experienced by ConAgra, FSIS’
                procedure could delay identification of the source of the E. coli O157:H7
                contamination.

                Samples Were Not Secure

                We found that inspectors at all three plants—Galligan, Montana Quality
                Foods, and ConAgra—left their packaged samples where plant personnel
                had access to the samples before pickup by the shipping agent. The
                containers had Velcro seals to allow FSIS to reuse the container. As a
                result, there is reduced assurance that integrity can be maintained.

                During our visit to the FSIS Western Laboratory, we observed nine boxes
                that contained product to be tested for E. coli O157:H7. Only two of these
                had intact security seals. A laboratory official estimated that only about
                25 percent of E. coli O157:H7 samples received for testing had intact
                security seals.63

                A similar condition was reported in our prior report.64 We recommended
                that FSIS improve controls by issuing instructions for securing FSIS test
                samples until the samples are in the possession of the shipping agent and
                review security to insure instructions are being followed. FSIS stated in its
                May 18, 2000, response to the draft report that:


62
   FSIS Directive 10,210.1, Amendment 3 (Unified Sampling Form), effective July 1, 2002.
63
   FSIS Directive 7355.1, Sample Seals for Program Samples, dated October 20, 1992.
64
   Audit Report No. 24001-3-At, Implementation of the Hazard Analysis and Critical Control Point System,
dated June 2000.

USDA/OIG-A/24601-2-KC                                                                         Page 78
               FSIS has undertaken an effort to improve sample security. Currently,
               FSIS Directive 7355.1 outlines procedures for sample security. The
               FSIS laboratories are revising Directive 7355.1 to reflect a more
               fail-safe procedure, which is estimated to be completed by
               September 30, 2000. This will require developing new forms,
               educating laboratory personnel, and training inspectors.

          The directive strengthening security over samples was issued on
          December 3, 2002. We reviewed the new procedures and determined
          that although they strengthened requirements for sealing laboratory
          samples, they did not ensure that FSIS would maintain custody and
          control of the samples until an approved carrier picked up the shipment.
          We are therefore recommending that the December 2002 directive be
          revised to include instructions concerning the chain of custody of the
          samples.

                                     Revise current instructions to require that
 RECOMMENDATION NO. 24               laboratory samples be under the direct
                                     custody and control of FSIS personnel until
                                     the sample can be provided directly to the
          delivery service.

          FSIS Response

          FSIS disagrees with the recommendation as written.                     The
          recommendation should be restated to ask FSIS to ensure the integrity of
          its sample delivery service. The requirement to have samples remain
          under the direct custody and control of FSIS personnel has significant
          resource implications with marginal or limited additional assurances to be
          gained. Idling personnel waiting for the handoff of samples to delivery
          personnel would result in workforce inefficiencies.

          FSIS agrees that appropriate measures should be taken to ensure chain
          of custody for samples. Consequently, on December 3, 2002, FSIS
          issued Directive 7355.1 (Enclosure No. 9), Revision 2, “Use of Sample
          Seals for Program Samples and Other Applications.” This Directive
          ensures the integrity of samples submitted to laboratories for analysis or
          held for incubation in the establishment as agar plate. The revision
          provides guidelines for proper sealing of samples and shipping boxes. All
          sample packages (with the exception of investigation samples) shipped to
          FSIS laboratories are sealed and identified using a three-part system.
          This system identifies and links the sample with the submission form and
          the shipping container. When properly sealed, each laboratory sample
          package will have three separate but identically numbered/bar-coded
          identification labels, as follows:



USDA/OIG-A/24601-2-KC                                                      Page 79
          1. One small bar-coded label is affixed to the sample submission form.
          2. A medium-sized bar-coded label, the “FSIS Laboratory Sample
             Identification Label” is placed on the primary container.
          3. A large bar-coded label, the “FSIS Laboratory Sample Container Seal,”
             is placed on the shipping container.

          The inspector retains a record of the seal packet used for each sample
          sent to the laboratory. An additional, small bar-coded label may be placed
          on the inspector’s file copy of the submission form or on a log sheet
          indicating to which sample the seal corresponds. For shipping the
          samples to the laboratories, the inspection personnel choose the carrier
          that assures the least time in transit.

          OIG Position

          We cannot reach management decision. While we agree that the revised
          directive strengthened requirements for sealing laboratory samples, the
          intent of the recommendation is to provide adequate physical security over
          the sample. Adequate physical security is essential to deter deliberate
          breach of the packaging; the new security procedures do nothing to
          protect the samples from parties who wish to prevent any testing of the
          sample at all. OIG’s visit to an FSIS laboratory during the audit disclosed
          that an estimated 25 percent of the samples arrived for testing with broken
          seals. FSIS officials told us that the in-plant inspector is not instructed to
          take a replacement sample. To reach management decision, FSIS needs
          to provide acceptable alternative actions to mitigate the cited
          vulnerabilities and a timeframe for completing its actions.

                                       Require district offices to conduct periodic
 RECOMMENDATION NO. 25                 reviews to ensure compliance with sampling
                                       procedures.

          FSIS Response

          To enhance management controls and oversight of its field inspection
          personnel, FSIS issued Directive 4430.3, “In-Plant Performance System
          Reviews,” (IPPS) and a comprehensive Supervisory Guideline (Enclosure
          No. 6). These documents provide specific instructions and guidance on
          how to assess the performance of inspection personnel in the PR/HACCP
          system environment and for verifying that inspection personnel are
          carrying out their responsibilities. These include applying the appropriate
          inspection methods, using effective regulatory decision making,
          documenting findings appropriately and when warranted, and
          implementing enforcement actions properly. This would also include
          ensuring compliance with sampling procedures.

USDA/OIG-A/24601-2-KC                                                          Page 80
            The Office of Program Evaluation, Enforcement and Review (OPEER) will
            monitor the Agency’s progress in the area. Audits, evaluations, and
            reviews will be conducted to verify implementation and measure the
            effectiveness of the corrective actions.

            OIG Position

            We cannot reach management decision. To reach management decision,
            FSIS needs to provide additional information on the procedures OPEER
            will use to verify compliance with sampling procedures and a timeframe for
            implementation.

                                       FSIS did not determine whether ConAgra and
       FINDING NO. 13                  the two grinding operations had scientific
                                       evidence in support of the processes they
 FSIS DOES NOT REVIEW HACCP            announced in their HACCP plans to prevent or
   PLANS FOR REGULATORY                eliminate food safety hazards. FSIS reviews
         COMPLIANCE                    HACCP plans to determine if the plans
                                       address the seven principles of HACCP (see
                                       the Background section of this report), but
          FSIS has acknowledged that their in-plant staff lacks the necessary skills
          to critically analyze the adequacy of the HACCP plans. We consider the
          lack of adequate technical assessments of HACCP plans and sufficient,
          competent staff to make that assessment, a material weakness in FSIS’
          oversight of HACCP implementation. As a result, there is reduced
          assurance that the HACCP systems were controlling food safety hazards
          in the three establishments.

            FSIS inspection personnel are responsible to ensure the establishment’s
            initial HACCP plan is apparently responding to all regulatory requirements.
            FSIS inspection personnel also perform ongoing basic compliance checks
            that focus on whether an establishment has failed to institute the system
            features required by FSIS regulations (e.g., when an HACCP plan does
            not identify the corrective action to be taken in response to a control failure
            at a CCP).

            FSIS periodically schedules reviews to examine elements of an
            establishment’s HACCP plan. The inspections may include reviews to
            determine:

            •   if the establishment is maintaining records documenting the
                monitoring of CCPs;

            •   if the establishment is verifying implementation of its HACCP plan by
                performing verification activities;

USDA/OIG-A/24601-2-KC                                                             Page 81
          •   if the HACCP plan assigns responsibility for taking corrective action
              when a control (e.g., temperature) deviates from its critical limits;

          •   if the establishment reassesses its HACCP plan when an unforeseen
              hazard arises; and

          •   if the establishment maintains documentary support for its HACCP
              plan.

          For part of our review, FSIS technical representatives assisted us in
          reviewing HACCP records for technical adequacy and correlation with
          pertinent FSIS regulations. These FSIS representatives found that the
          HACCP plans at ConAgra, Galligan, and Montana Quality Foods
          contained all seven required basic principles but were technically
          inadequate. There were problems with the plants’ hazard analyses,
          critical limits, records, and monitoring and verification procedures. These
          problems continued to exist even though FSIS in-plant inspection
          personnel periodically reviewed the HACCP plans. We found that these
          reviews did not contain adequate documentation to support the analyses
          made by the inspection personnel. See exhibit E for a summary of
          deficiencies identified by the FSIS technical representatives.

          FSIS technical representatives noted the following deficiencies in the
          HACCP plans at the three plants visited for this audit:

          •   At ConAgra, three HACCP plans (slaughter, fabrication, and
              raw-ground) had deficiencies in their hazard analysis; CCP
              determinations; critical limits; corrective actions; and monitoring,
              validation, verification, and reassessment procedures. There was no
              indication that ConAgra reassessed its fabrication HACCP plan, even
              though the plant continued to have numerous positive E. coli O157:H7
              test results for its beef trimmings. The FSIS representatives concluded
              that the HACCP plan no longer met regulatory requirements;

          •   At Galligan, two HACCP plans (raw-ground and raw not-ground) were
              deficient in their hazard analysis; CCP determinations; critical limits;
              corrective actions; and monitoring, validation, verification, and
              reassessment procedures. In January 2002, when the company
              reassessed two of its plans—for raw-ground product and raw
              not-ground product—it eliminated the freezing and storage step as a
              CCP. A Galligan company official stated that the CCP was removed,
              in part, because an FSIS inspector recommended it no longer be
              considered a CCP for HACCP purposes.              The FSIS technical
              representative noted during our audit that freezing and storage meets
              the definition of a CCP. Galligan also did not conduct a reassessment

USDA/OIG-A/24601-2-KC                                                        Page 82
                   of its HACCP plan, as required, each time the regulatory samples
                   collected from its final ground beef product tested positive for the
                   E. coli O157:H7 pathogen; and

               •   At Montana Quality Foods, five HACCP plans (slaughter, raw
                   not-ground, and three raw-ground) had deficiencies in their hazard
                   analysis, critical limits, records, and monitoring and verification
                   procedures. Documents were not provided to support most of the
                   critical limits established for the temperature of the product, and
                   records did not indicate which type of verification procedure was
                   conducted or what the results of the verification were.

               Prior reviews by both GAO65 and OIG66 found deficiencies similar to those
               identified during this audit. GAO reported that FSIS verification reviews at
               47 plants considered as having potentially serious food safety risks found
               significant violations of regulatory requirements in HACCP plans at 44 of
               the plants. In our report, we recommended that FSIS implement a system
               of oversight to ensure that hazard analyses include all food safety hazards
               that are reasonably likely to occur and that HACCP plans contain correctly
               identified CCPs, adequate critical limits, and corrective actions. In
               response to that audit, FSIS maintained that it would not approve the
               CCPs selected but that it would challenge the adequacy of HACCP plans
               that were inadequately supported. FSIS also recognized that additional
               instructions needed to be developed for inspection personnel to begin
               assessing the completeness of the HACCP plans.

               District office personnel advised that FSIS personnel assigned to the
               ConAgra plant had not received any HACCP-related training since the fall
               of 1997. FSIS National Office officials also noted that FSIS inspection
               personnel do not have the technical expertise to assist companies in
               developing their HACCP plans and they have been directed by the FSIS
               National Office not to provide plants any technical guidance.

               It is FSIS’ policy not to approve HACCP plans; however, FSIS National
               Office officials indicated that they have hired and properly trained a force
               of CSOs67 to help review HACCP plans. Furthermore, they indicated that
               there are plans to hire and train more CSOs and to train some veterinary
               medical officers on how to evaluate HACCP plans and supporting
               documentation. We reviewed FSIS’ written proposal for hiring and training
               qualified staff to review HACCP plans, and we found that the proposal
               lacks an analysis of how many qualified staff will be needed to review all

65
   GAO Report No. GAO-02-902, Better USDA Oversight and Enforcement of Safety Rules Needed to
Reduce Risk of Foodborne Illnesses, dated August 2002.
66
   OIG Audit Report No. 24001-3-At, Implementation of the Hazard Analysis and Critical Control Point
System, dated June 2000.
67
   As of December 31, 2002, there were about 105 CSOs.

USDA/OIG-A/24601-2-KC                                                                     Page 83
          HACCP plans and how much time will be needed to complete the reviews.
          GAO had previously noted that only about 6 percent of the officers that
          FSIS needs are currently on staff, and that FSIS managers in two large
          districts expressed concern that it may take years to assess the plans for
          all plants in the district.

          It is evident from the deficiencies disclosed during this audit that the
          current system of in-plant inspectors monitoring an establishment’s
          compliance with FSIS regulatory requirements cannot ensure that major
          shortcomings in an establishment’s HACCP plan will be identified and
          corrected. Implementation of the CSO program may fill the need for a
          staff trained in HACCP principles, but we question whether the CSOs or
          other trained employees will be available in a timely manner and in
          sufficient numbers to review the more than 5,000 HACCP plans in use and
          the supporting documentation on a continuing basis.

                                      Require the three plants to revise their
 RECOMMENDATION NO. 26                HACCP plans to correct the cited deficiencies
                                      noted during our reviews.

          FSIS Response

          FSIS took immediate action to ensure that the establishments’ HACCP
          plans were corrected to address the deficiencies uncovered in the audit.
          As a result of FSIS’ immediate actions, several changes were made by the
          establishments including:

          •   ConAgra made major modifications to its slaughter floor. Additional
              major improvements are planned over the next several months.

          •   Galligan Wholesale Meat, Est. 6475, Denver, Colorado modified its
              SSOP and HACCP plans to correct the deficiencies noted during the
              OIG audit.

          •   Montana Quality Foods, Est. # 7679, Miles City, Montana plant
              management reassessed its HACCP plan. FSIS inspection personnel
              have reviewed the HACCP plans and activities as required verifying
              that Montana Quality is meeting all of its obligations with respect to
              both the original part of its HACCP plan as well as the new CCP, which
              was added as a result of the enforcement action.

          Concerning ConAgra, the changes made and incorporated into the SSOP
          programs for the entire plant were re-evaluated and modified this year to
          improve the company’s documentation of corrective actions in meeting
          9 CFR 416.15 in addition to tracking and resolving trends of unsanitary
          conditions.

USDA/OIG-A/24601-2-KC                                                      Page 84
          The changes made and incorporated into the HACCP program were
          because of numerous reassessments as a result of the enforcement
          actions taken by FSIS at the plant, circuit, and District levels. In addition,
          the plant reassessed its HACCP plan as required by FSIS Notice 44-02 for
          E. coli O157:H7 (Enclosure No. 3).

          OIG Position

          We accept the management decision.

                                       Develop a written, time-phased plan for
 RECOMMENDATION NO. 27                 completing CSO reviews of HACCP plans.
                                       The time-phased plan should include a
                                       strategy for hiring and training staff.

          FSIS Response

          The determination as to whether a comprehensive food safety
          assessment is needed at an establishment can be based on several
          factors. As such, District Offices regularly review PBIS data, including
          NRs, FSIS sampling results, and other available information to determine
          if a CSO assessment is needed. Also, often a triggering event occurs,
          such as a consumer complaint, a food borne illness outbreak, or a specific
          food safety issue, that warrants conducting a comprehensive food safety
          assessment. Presently, there are 104 persons trained in the CSO
          methodology, making it impossible to conduct comprehensive food safety
          assessments at every federally inspected facility.            There are
          approximately 7500 establishments operating under a grant of inspection.
          Because of this, District Managers are expected to monitor activities in
          their districts and to use discretion in determining where comprehensive
          food safety assessments are most needed.

          As of June 24, 2003, there have been 677 comprehensive food safety
          assessments completed by CSOs to verify E. coli O157:H7
          reassessments at establishments that conduct beef slaughter and ground
          beef operations, and we estimate that by year 2005, CSOs will conduct
          such assessments at 2,500 establishments. FSIS has focused its initial
          food safety assessments at those plants that produced the largest
          volumes of product.

          FSIS has asked for an additional $5.7 million in its fiscal year 2004 budget
          request to retool training, to accomplish our public health goals, and
          ensure that our CSO methodology continues to be carried out. Over the
          next several years, we will continue to train additional employees in the
          CSO methodology, including training 1000 VMOs in the CSO and

USDA/OIG-A/24601-2-KC                                                          Page 85
          enforcement methodology by year 2007.

          OIG Position

          The adequacy of establishment HACCP plans is a critical control
          necessary to meet the goals of HACCP and pathogen reduction. Based
          on the information contained in the response, we cannot reach
          management decision. We agree that the current number of persons
          trained is inadequate to conduct comprehensive food safety assessments
          at every facility. However, to reach management decision for this
          recommendation, FSIS needs to provide a time-phased plan for targeting
          and reviewing establishment HACCP plans. The plan should include an
          analysis of how many qualified staff are needed, as well as a viable
          strategy for hiring and training.

                                     Develop an FSIS review program that includes
 RECOMMENDATION NO. 28               a periodic (1 to 2-year) reassessment of
                                     HACCP plans.

          FSIS Response

          On October 7, 2002, Federal Register Notice 62325, “E. coli O157:H7
          Contamination of Beef Products,” (Enclosure No. 1) was issued to advise
          establishments of their obligation to reassess their HACCP plans for raw
          beef products. On November 4, 2002, FSIS issued FSIS Notice 44-02,
          “Instructions for Verifying E. coli O157:H7 Reassessment.” This Notice
          provided inspection personnel instructions for performing verification of
          E. coli O157:H7 reassessments. These documents will help ensure that
          establishments are reassessing their HACCP plans in accordance with
          9 CFR 417.4, which requires that HACCP plans be reassessed at least
          annually.

          In addition, in 2002 CSOs were assigned to District Offices to conduct
          comprehensive assessments to verify that establishment control systems
          are well-documented, supported by scientific information, and validated.
          Currently, CSOs are conducting comprehensive assessments of HACCP
          plans at all large raw beef product establishments. These comprehensive
          assessments are being conducted as part of the October 2002 directive
          from FSIS that required all beef slaughter establishments to reexamine
          their food safety strategies in light of evidence that E. coli O157:H7 was
          more prevalent in live animals than previously thought.                The
          comprehensive examination of HACCP plans by CSOs at raw beef
          product establishments was a proactive step to strengthen pathogen
          prevention practices, and will expand to include smaller establishments in
          the future.



USDA/OIG-A/24601-2-KC                                                      Page 86
          As of June 24, 2003, there have been 677 comprehensive food safety
          assessments completed by FSIS’ 107 CSOs to verify E. coli O157:H7
          reassessments at federally inspected establishments that conduct beef
          slaughter and ground beef operations. FSIS estimates that by the year
          2005, comprehensive assessments to verify E. coli O157:H7
          reassessments will be completed for approximately 2500 remaining
          establishments. These reviews will be conducted on a recurring basis.

          Additionally, the Office of Program Evaluation, Enforcement, and Review
          will establish an annual review plan to conduct regular reviews of in plant
          inspection activities and facility compliance with PR/HACCP.           The
          domestic reviews are expected to begin March 2004.

          OIG Position

          We cannot accept the management decision. To reach management
          decision, FSIS needs to provide the details of a requirement for recurring
          reassessments of establishment HACCP plans. Also, FSIS needs to
          provide information as to the scope of OPEER’s reviews of inspection
          activities and facility compliance.

                                      Develop a technical assistance program using
 RECOMMENDATION NO. 29                properly trained and qualified employees that
                                      could provide guidance to establishments on
                                      HACCP plans development and maintenance
          requirements.

          FSIS Response

          FSIS recognizes that effective training of both FSIS and industry
          employees is vital to the success of the Pathogen Reduction and HACCP
          Systems final rule. Consequently, FSIS is assessing the viability of
          conducting joint training with industry. Various kinds of establishments,
          including small and very small plants, must have access to training,
          technical assistance, and other resources that will facilitate HACCP
          implementation. Therefore, FSIS has developed and implemented an
          approach to training and technical assistance that is designed to support
          HACCP implementation within available resource constraints.

          FSIS has designed several guidance documents to help industry reduce
          the occurrence of E. coli O157:H7. On October 7, 2002, Federal Register
          62325, “E. coli O157:H7 Contamination of Beef Products” (Enclosure
          No. 1) was published with related guidance documents. In particular, the
          following documents were published as guidance to industry:




USDA/OIG-A/24601-2-KC                                                       Page 87
          •   “Guidance for Minimizing the Risk of Escherichia coli O157:H7 and
              Salmonella in Beef Slaughter Operations,”
          •   “Guidance for Beef Grinders and Suppliers of Boneless and Trim
              Products – Guide for Minimizing Impact Associated with Food Safety
              Hazards in Raw Ground Meat and Other FSIS Regulated Products,”
          •   “Guidance on Ingredients and Sources of Radiation Used to Reduce
              Microorganisms on Carcasses, Ground Beef, and Beef Trimmings,”
              and
          •   “Guidance on the Procedures for Joint Food Safety and Inspection
              Service (FSIS) and Food and Drug Administration (FDA) – Approval of
              Ingredients and Sources of Radiation Used in the Production of Meat
              and Poultry Products.”

          In May 1997, FSIS opened the Technical Service Center (TSC), in
          Omaha, Nebraska, to provide technical assistance and guidance to FSIS
          meat, poultry, and egg products inspection employees, industry
          representatives, plant owners and operators, other government agencies,
          and others on the implementation and enforcement of regulations and
          policies for both domestic and imported products.           The technical
          assistance and guidance provided daily by the TSC comes from a team of
          FSIS experts comprised of veterinarians, microbiologists, food
          technologists, statisticians, management analysts, and others.

          In addition, FSIS continuously conducts HACCP demonstration projects to
          show how HACCP systems are supposed to work for various products
          and product categories under actual operating conditions in small and very
          small plants. These demonstration projects began during the 2-year
          period following the issuance of the final rule, at a number of sites around
          the country. The HACCP demonstration projects provided the opportunity
          to answer a number of industry questions and reduced the costs incurred
          by small establishments in developing HACCP systems.

          FSIS has made available guidance materials to assist plants in conducting
          their hazard analyses and developing HACCP plans. They include a
          Guidebook for the Preparation of HACCP Plans, which was designed to
          provide the small establishments with a step-by-step approach for
          developing a HACCP plan; it included examples and sample forms for
          each step.

          The USDA/FDA “Foodborne Illness Education Information Center,” was
          developed and maintains the HACCP Training Programs and Resources
          Database, which provides up-to-date listings of HACCP training programs,
          resources, and consultants offering training programs or resources. The
          database     can    be     accessed       through   the    Internet   at


USDA/OIG-A/24601-2-KC                                                        Page 88
                 http://www.nalusda.gov/fnic/foodborne/haccp/index.shtml.

                 OIG Position

                 Based on the information contained in the response, we cannot reach
                 management decision. The intent of this recommendation is to establish a
                 proactive technical assistance program when HACCP plans are found to
                 be technically deficient, rather than a passive program of making guidance
                 documents available to industry. To reach management decision, FSIS
                 needs to establish a technical assistance program, in conjunction with
                 HACCP reviews.

                                        ConAgra did not always reexamine an
        FINDING NO. 14                  acceptable number of beef carcasses when
                                        zero tolerance violations (animal feces on
 FSIS’ POLICY ON REINSPECTING           product) were noted. FSIS’ written policy
     CARCASSES FOR FECAL                does not state in a clear and obvious place
     CONTAMINATION IS TOO               how far back plant production should be held
       OBSCURE TO OFFER                 and reinspected from the point the defect is
    REASONABLE GUIDANCE                 recorded. FSIS technicians have advised that
                                        all carcasses back to the last verification
                                        should be reinspected.         Because this
           procedure is not written into generally available FSIS policy, ConAgra did
           not hold and reinspect 175 beef carcasses on July 10, 2002, after fecal
           contamination was observed on beef product. The carcasses, which may
           have been contaminated, were released for production.

                 FSIS has no clear specific written guidance on what actions are to be
                 taken when there is a deviation from the zero tolerance’s critical limit. We
                 did find an obscure reference in the model generic Beef68 Slaughter
                 HACCP plan which shows that, “All affected carcasses back to the last
                 acceptable check will be visually inspected and reworked if visible fecal
                 contamination is observed.” The model generic Pork69 Slaughter HACCP
                 plan contains a similar provision. Also, the TSC has advised both industry
                 and FSIS inspection personnel that when an establishment’s critical
                 control point monitoring check shows the critical limit for the control point
                 was exceeded, the plant should retain product back to the last acceptable
                 monitoring/verification check for product disposition.




68
     USDA FSIS Generic HACCP Model for Beef Slaughter, dated September 1999, page 30.
69
     USDA FSIS Generic HACCP Model for Pork Slaughter, dated September 1999, page 34.

USDA/OIG-A/24601-2-KC                                                                   Page 89
           When there was a deviation from the zero tolerance’s critical limit,
           ConAgra did not always retain carcasses back to the last acceptable
           monitoring or verification check. According to the plant’s SOP, SOP
           1804A and 1804, “carcasses processed since the last passed check shall
           be retained for any necessary zero tolerance reconditioning and
           reinspected by quality assurance.” However, the two procedures go on to
           state, “carcasses processed since last passed check shall be defined as
           those carcasses of the present hour of production at the final trim rail
           area” [emphasis added]. In other words, the group of carcasses retained
           by the establishment go back 1 hour of production, but may not always
           include carcasses back to the last acceptable monitoring or verification
           check, if that check occurred more than 1 hour before the deviation. For
           example, when FSIS found fecal contamination during an HACCP check
           at 9:15 a.m. on July 10, 2002, ConAgra held 272 carcasses produced
           during the period of 8:15 a.m. to 9:15 a.m. In this instance, there were
           175 carcasses unaccounted for between the plant’s last acceptable zero
           tolerance verification check at 7:48 a.m. and the production lot of
           carcasses they actually retained.

           ConAgra officials stated that their rationale for retaining carcasses back
           only 1 hour was based on the premise that the checks were made
           randomly during a 1-hour production lot (this determines if that specific
           production lot was subject to contamination). The officials believed that
           the random check did not determine that the previous hour’s production lot
           was subject to contamination if the random check conducted during the
           previous hour was acceptable. The IIC at ConAgra had the same
           understanding as the company official as to what would be the appropriate
           group of carcasses to be retained for production disposition.

           FSIS needs to clarify the actions necessary when there is a deviation from
           the zero tolerance critical limit. A TSC official indicated that ConAgra’s
           carcass reinspection process may have been adequate if (1) the company
           had properly documented the scientific basis of their approach and (2) the
           company had sufficient control of fecal contamination in the plant. In the
           TSC official’s opinion, the fact that ConAgra had numerous instances of
           fecal contamination being discovered in all areas of the plant (areas of the
           plant outside of the slaughter operation) indicated that the plant’s carcass
           reinspection process was inadequate.

                                  Issue    clear    written  policy   on   how
 RECOMMENDATION NO. 30            contaminated   carcasses  are  to be  handled
                                  when a zero tolerance violation occurs,
                                  including the circumstances under which it is
       appropriate to hold and reinspect all carcasses produced since the last
       acceptable check.



USDA/OIG-A/24601-2-KC                                                         Page 90
            FSIS Response

            FSIS Directive 6420.1, “Livestock Post-Mortem Inspection Activities-
            Enforcing the Zero Tolerances for Fecal Material, Ingesta, and Milk,”
            directs FSIS inspection program personnel on how to enforce the zero
            tolerance standards. The instructions provided in this directive will ensure
            that the circumstances for holding and reinspecting all carcasses are
            clearly defined and in accordance with acceptable and established
            statistical methodology. FSIS will update this policy with more explicit
            instructions for handling and re-inspecting contaminated carcasses by
            December 2003.

            OIG Position

            Based on the information provided in the response, we cannot reach
            management decision. To reach management decision, FSIS needs to
            provide details as to how contaminated carcasses will be handled.

                                       FSIS has no written procedures that require
      FINDING NO. 15                   FSIS personnel to monitor the disposition of
                                       ground beef or beef trim that has tested
    FSIS CANNOT PROVIDE                positive for the E. coli O157:H7 pathogen.
    ASSURANCE THAT ALL                 Contaminated beef products were returned to
  CONTAMINATED PRODUCT IS              ConAgra periodically and resold to be used in
   PROPERLY DISPOSED OF                pet foods or canned or frozen precooked
                                       meals, but FSIS inspectors did not verify that
                                       the buyers of the contaminated beef were in
          business to make pet food or precooked meals. Nor is FSIS always
          notified when beef products are found to be contaminated. FSIS officials
          believe that it is not necessary or practical for the agency to monitor the
          final disposition of all ground beef or beef trim that has tested E. coli
          O157:H7 positive. We believe that FSIS’ mission obligates it to implement
          controls to protect the public health and that failing to monitor the final
          disposition of raw ground beef contaminated with E. coli O157:H7 is
          inconsistent with this mission. Although we found no instances in which
          contaminated raw ground beef was not disposed of properly, the absence
          of FSIS procedures to ensure this disposition presents a weakness in the
          food safety inspection system.

            Before the recall, ConAgra beef trim that tested positive for the E. coli
            O157:H7 pathogen, as a result of customer testing, was often returned to
            the plant for reprocessing. ConAgra officials said that they would notify
            FSIS in-plant inspection personnel when product was returned. ConAgra
            personnel would then transfer the trim from its original bins into smaller
            boxes. They said the small-boxed trim would then be labeled “for cooking
            only” and would be resold. FSIS inspectors would sometimes observe the

USDA/OIG-A/24601-2-KC                                                          Page 91
          repackaging but would make no effort to verify the actual disposition of the
          product and ensure it was not resold to an outlet that handled only raw
          ground beef.

          With the assistance of FSIS compliance personnel, we reviewed the sales
          of this boxed trim for the period June 2001 through August 2002. We did
          not find any instances where the distributors sold the boxed trim to any
          operations that intended to use the trim for raw ground beef. However,
          our reviews did disclose instances where recalled beef trim was not
          always returned to the plant. For example, about 118,000 pounds of trim
          that tested positive during the recall period was reportedly rendered and
          not returned to the plant. There is no requirement that customers of meat
          slaughter plants or processors notify FSIS when their tests of raw beef
          products disclose the presence of E. coli O157:H7.

          In order to control and monitor the final disposition of adulterated products,
          FSIS would have to be notified of the location of these products, and it
          would have to seal shipments of the adulterated product to prevent any
          amount from being diverted. On three occasions, FSIS’ E. coli O157:H7
          testing indicated positive results in Galligan ground beef. Galligan
          personnel informed us that the finely ground beef associated with the first
          positive was destroyed and that the finely ground beef from the other two
          positives were returned to ConAgra. FSIS policy did not require that the
          finely ground beef be transported from Galligan to ConAgra under FSIS
          seal. However, in this case, a seal was used. FSIS compliance personnel
          stated that the truck transporting the finely ground beef to ConAgra was
          also carrying intact ConAgra course ground beef chubs on which FSIS
          intended to perform traceback E. coli O157:H7 testing. Consequently, the
          compliance personnel sealed the entire truckload of meat products.
          Compliance personnel informed us that if the chubs had not been on the
          truck, the cargo would not have been sealed. We believe all trim that is
          destined for grinding and ground beef that tests positive for E. coli
          O157:H7 should be sealed or monitored in some manner.

          FSIS National Office officials stated that it is unnecessary and impractical
          for FSIS to monitor the disposition of all ground beef and beef trim that
          tests positive for the E. coli pathogen. These officials said that it is the
          establishment’s responsibility to ensure that E. coli O157:H7 positive
          product is destroyed or diverted to acceptable uses such as cooking or
          rendering. They also said that monitoring all E. coli O157:H7 positive trim
          and ground beef would involve complex issues (although they did not
          elaborate on what these issues were), and would consume considerable
          FSIS resources. Consequently, there is no requirement that FSIS be
          informed of these positive test results.




USDA/OIG-A/24601-2-KC                                                          Page 92
           We realize that FSIS’ resources are limited; however, once FSIS is aware
           microbiological testing has indicated there is E. coli O157:H7 in raw trim or
           ground beef, it seems prudent for FSIS to intensify its surveillance of
           contaminated product known to contain a potentially deadly pathogen.
           Although our review did not show that any trim or ground beef
           contaminated with E. coli O157:H7 was used in an unacceptable manner,
           there is no assurance that it was all disposed of properly.

           We concluded that FSIS needs to reevaluate its operations to consider the
           risks to the public by its decision not to monitor the disposition of product
           contaminated with E. coli O157:H7. Establishments may be financially
           liable for any contaminated product reaching the consumer, but FSIS has
           a larger responsibility to protect the public’s health and safety. It should
           be FSIS’ responsibility to ensure that products contaminated with E. coli
           O157:H7 are always used in an acceptable manner or destroyed.

                                  Reevaluate FSIS operations in terms of the
 RECOMMENDATION NO. 31            risks posed to the public by the agency
                                  decision not to monitor the disposition of
                                  product contaminated with E. coli O157:H7
       and consider the need to issue regulations that require FSIS to take
       control of such product and verify that it has been properly processed or
       destroyed.

           FSIS Response

           On April 18, 2003, FSIS issued FSIS Notice 11-03 (Enclosure No. 8),
           “Update to FSIS Directive 10,010.1, Microbiological Testing Program For
           Escherichia Coli O157:H7 in Raw Ground Beef.” The Notice provides
           updated instructions to inspection program personnel on some of the
           issues covered by FSIS Directive 10,010.1, “Microbiological Testing
           Program For Escherichia Coli O157:H7 in Raw Ground Beef.”

           FSIS will provide clear directions on the disposition of product
           contaminated with E. coli O157:H7 in the updated FSIS Directive,
           10,010.1, “Microbiological Testing Program For Escherichia coli O157:H7
           in Raw Ground Beef.” The revised Directive will be issued by
           October 2003.

           The FSIS Notice 11-03, updates and implements procedures that
           immediately went into effect and were given to inspection program
           personnel that instructed them to collect raw ground beef samples
           whenever they received an FSIS Form 10,210-3 for microbiological
           sampling project MT03. Samples are to be collected regardless of
           whether the establishment had met criteria set forth in FSIS Directive
           10,010.1, VI.B. All raw ground beef, hamburger, ground veal, veal or beef

USDA/OIG-A/24601-2-KC                                                          Page 93
          patties, or other products meeting the standard of identity in 9 CFR
          319.15, are subject to verification sampling by FSIS. Thus, plants are no
          longer exempted from sampling based on conducting their own testing.

          Under 9 CFR 500.3 FSIS has authority to take enforcement action against
          any establishment that has been found to have produced and shipped
          adulterated product. When effectiveness checks disclose that proper
          notification of the consignee/customers has not been given, FSIS has the
          authority to detain and, if necessary, subsequently seize products that
          have been determined to be adulterated. FSIS has prior precedent in
          applying its enforcement authority.

          FSIS is working closely with industry and is providing guidance on the
          proper and appropriate actions that should be taken during recalls. On
          December 12, 2002, FSIS held a public meeting to discuss improving the
          recall process. The Agency is considering ideas presented at the public
          meeting for increasing industry’s involvement in managing recalls.

          As part of the recall process improvement effort, FSIS will examine and
          include as appropriate, provisions to establish criteria to assess the overall
          effectiveness of a recall, to reconcile planned effectiveness checks to
          those checks actually performed, to identify the corrective actions to be
          taken when deficiencies are noted. This information will be assembled
          and formalized in a directive. The management controls, responsibilities,
          and oversight roles for this process will be clearly delineated in a directive.

          The workgroup will provide a report outlining recommendations by
          October 2003. The draft guidelines entitled, “Office of Field Operations
          District Office Recall Responsibilities” which was issued to District Offices
          in March 2003 will be finalized by March 2004. The final FSIS
          recommendations will be implemented by July 2004.

          OIG Position

          Based on the information provided in the response, we cannot reach
          management decision. To reach management decision, FSIS needs to
          provide information as to the processes and procedures to be put in place
          to improve the recall process, including inspector responsibilities to
          monitor the disposition of contaminated products.




USDA/OIG-A/24601-2-KC                                                           Page 94
                        GENERAL COMMENTS

     Laboratories, which are not accredited by USDA for microbiological testing, are
     conducting microbiological tests for HACCP purposes.                USDA certifies
     laboratories for food chemistry testing, such as moisture, protein, fat, and salt,
     but it no longer certifies laboratories for microbiological testing. ConAgra uses
     Warren Analytical Laboratory for its testing, and laboratory officials maintained
     that they are qualified to perform microbiological testing by the laboratory’s ISO
     17025 accreditation. The American Association for Laboratory Accreditation is
     the accrediting body for ISO 17025 in the United States, and the ISO 17025
     accreditation is recognized as the highest international standard for food testing
     laboratories. Since there is no consistency of standards from laboratory to
     laboratory, we do not know what standards, if any, other laboratories follow for
     conducting microbiological tests for HACCP purposes.

     Further, laboratories may have inherent conflicts of interest when the processing
     plants, for which they do testing, own them. ConAgra owns Warren Analytical
     Laboratory, but laboratory officials maintain that firewalls (a letter instructing that
     communications were to be limited between plant and laboratory personnel) were
     established to prevent plants they do testing for from influencing test results.

     However, the European Union questioned Warren Analytical Laboratory’s ability
     to function independently. The European Union insisted USDA prohibit Warren
     Analytical Laboratory from running additional residue tests as part of the trade
     agreement with the United States on the grounds the laboratory has a conflict of
     interest with ConAgra. USDA was not concerned with Warren Analytical
     Laboratory’s independence, as it believed it could maintain a significant amount
     of control over the sampling, and falsification of test results would destroy a
     laboratory’s reputation. However, USDA did not select Warren Analytical
     Laboratory to conduct testing under the trade agreement because the laboratory
     did not meet projected deadlines to submit method validation information.

     FSIS needs to address the need for uniformity in testing completed for HACCP
     purposes, as well as the conflicts of interest between laboratories and the
     processing plants that own them.




USDA/OIG-A/24601-2-KC                                                             Page 95
EXHIBIT A – LOCATIONS VISITED

FSIS National Office – Washington, D.C.

FSIS District Number 20 – Minneapolis, Minnesota

FSIS District Number 15 – Boulder, Colorado

ARS Roman L. Hruska Meat Animal Research Center – Clay Center, Nebraska

FSIS Western Laboratory – Alameda, California

Montana Quality Foods & Processing, Inc. – Miles City, Montana

Galligan Wholesale Meat Company – Denver, Colorado

ConAgra Beef Company – Greeley, Colorado

Warren Analytical Laboratory – Greeley, Colorado

ConAgra Customer (Grinder for Nationwide Fast Food Restaurant)

Two Nationwide Fast Food Restaurant Corporations




USDA/OIG-A/24601-2-KC                                                     Page 96
EXHIBIT B – PROCEDURES, POLICIES, AND REGULATIONS
CHANGED AFTER THE CONAGRA RECALL

                          Procedure Before the                                         Changes Under
Regulation/ Directive           Recall                Changes to the Procedures         Consideration
                                         Pathogen Testing
Federal Register        Raw ground beef not           Agency officials recalled
9 CFR, Chapter III      intended for ready-to-eat     beef trim products as part
                        products was considered       of the ConAgra recall.
Federal Register        adulterated if it was         Federal Register Notice:
Notice:                 contaminated with E. coli     October 7, 2002, Docket
January 19, 1999,       O157:H7. This policy          No. 00-022N restated the
Docket No. 97-068N      was expanded in 1999 to       January 1999 policy
                        include beef trim and         determination that beef trim
Federal Register        similar products.             and similar products that
Notice:                 March 15, 1999,               were not destined for
October 7, 2002,        Constituent Update, FSIS      cooking, i.e., would be used
Docket No. 00-022N      explained the Agency          in raw product, are
                        would not act on its          considered adulterated if
                        January 19, 1999, policy      contaminated with E. coli
                        statement until it had an     O157:H7.
                        opportunity to consider
                        the comments received.
                        We could not identify any
                        subsequent instructions
                        to the field implementing
                        the policy that beef
                        trimmings could be
                        adulterated.
FSIS Directive          The testing program was                                      A testing program
10,010.1,               limited to raw ground                                        for beef trimmings is
Microbiological         beef.                                                        under development.
Testing Program for
Escherichia coli        Establishments meeting                                       No establishments
O157:H7 in Raw          certain criteria were                                        producing raw
Ground                  exempt from the testing                                      ground beef will be
                        program.                                                     exempt from the
                                                                                     sampling and testing
                                                                                     program.

                        If a sample of ground                                        FSIS will exercise
                        beef from an                                                 discretion in
                        establishment tested                                         determining the
                        positive for E. coli                                         number of follow-up
                        O157:H7, FSIS continued                                      test samples to take,
                        to collect samples until                                     based on the
                        the Agency obtained                                          suspected cause of
                        15 consecutive samples                                       the contamination
                        with negative test results.                                  and the
                                                                                     establishment’s
                                                                                     corrective action.




USDA/OIG-A/24601-2-KC                                                                            Page 97
                          Procedure Before the                                           Changes Under
Regulation/ Directive              Recall           Changes to the Procedures             Consideration
                        Sampled lot was defined                                       FSIS will recognize
                        as all raw ground beef                                        the establishment’s
                        products produced                                             defined lot size,
                        between performance of                                        provided the
                        complete cleaning and                                         establishment has a
                        sanitization procedures.                                      scientific or other
                                                                                      supportable basis
                                                                                      for defining the
                                                                                      sampled lot.

                        No provisions were          A project code and sample         The new provisions
                        included in the Directive   collection and processing         have not been
                        for traceback samples.      procedures for traceback          codified in the
                                                    samples have been                 Directive, as it has
                                                    developed.                        not been revised
                                                                                      yet.
                        District offices were       No Change.
                        instructed to inform the
                        affected plant or retail
                        outlet when positive
                        E. coli O157:H7 test
                        results were confirmed.
                                              Traceback
FSIS Notice 47-02,      No provisions in prior      Procedures in notice
dated                   procedures to cover the     provide for in-plant
November 20, 2002       affected area.              personnel to identify the
                                                    firms supplying the raw
                                                    materials when
                                                    presumptive positive test
                                                    results are reported. Upon
                                                    notification that there was a
                                                    confirmed positive test
                                                    result, the district office now
                                                    notifies suppliers that
                                                    product from their
                                                    establishment was used in
                                                    raw ground beef that tested
                                                    positive for E. coli
                                                    O157:H7. In addition, the
                                                    RMD follows a similar
                                                    procedure to notify
                                                    suppliers.
                                                HACCP
9 CFR 417 HACCP,        Establishments              Based on new scientific
Federal Register        producing raw beef          evidence, all
Vol. 67, No. 194,       products were required to   establishments producing
dated                   reassess their HACCP        raw beef products that have
October 7, 2002         plans at least annually.    not reassessed their
                        Based on scientific         HACCP plans in light of the
                        evidence at the time the    new information must do so
                        regulation was issued, it   and consider whether
                        was considered              E. coli O157:H7 is a hazard


USDA/OIG-A/24601-2-KC                                                                             Page 98
                          Procedure Before the                                        Changes Under
Regulation/ Directive            Recall             Changes to the Procedures          Consideration
                        acceptable for plants to    reasonably likely to occur.
                        consider E. coli O157:H7
                        as a hazard not likely to
                        occur.
FSIS Notice 44-02,                                  Instructions were issued to
dated                                               verify the required
November 4, 2002,                                   reassessment was
Instructions for                                    performed according to a
Verifying E. coli                                   specified timeline.
O157:H7
Reassessment
                        The automated
                        inspection system
                        periodically generates
                        task assignments to
                        inspectors to perform
                        record review for HACCP
                        verification.

FSIS Notice 29-02,                                  Notice issued to clarify the
dated                                               difference between a
August 9, 2002,                                     deviation from a critical limit
HACCP Verification                                  and the conditions where
Procedures and the                                  such a deviation results in
30-day                                              noncompliance. Notice
Reassessment                                        provides guidance on when
Letter                                              an NR should be written
                                                    when inspectors are
                                                    performing the 01 and 02
                                                    assigned tasks.

FSIS Directive          Duties and                  Procedures have been
5000.1 Revision 1,      responsibilities of FSIS    clarified with respect to the
dated May 21, 2003      personnel with respect to   duties of Consumer Safety
                        HACCP monitoring,           Investigators (CSI) and
                        verification, and           Consumer Safety Officers
                        reassessment were           (CSO).
                        generally not specified.
                                                    Items clarified by the
                                                    procedures related to the
                                                    verification or
                                                    reassessment of the
                                                    following for CSIs:



                                                    •    HACCP procedure
                                                         verification
                                                         methodology;

                                                    •    hazard analysis by the
                                                         establishment;


USDA/OIG-A/24601-2-KC                                                                         Page 99
                        Procedure Before the                                  Changes Under
Regulation/ Directive         Recall           Changes to the Procedures       Consideration

                                               •   monitoring;

                                               •   verification of the
                                                   establishment’s plan
                                                   verification
                                                   requirement;

                                               •   recordkeeping
                                                   requirements;

                                               •   corrective actions
                                                   taken by establishment
                                                   personnel in response
                                                   to a deviation from a
                                                   critical limit;

                                               •   HACCP plan
                                                   reassessment
                                                   requirement.

                                               Items related to HACCP
                                               pertaining to the duties and
                                               responsibilities of CSOs
                                               were clarified for:

                                               •   HACCP assessment;

                                               •   hazard analysis
                                                   review;

                                               •   assessing the
                                                   establishment’s
                                                   HACCP monitoring
                                                   procedures;

                                               •   assessment of
                                                   whether the
                                                   establishment’s on-
                                                   going verification
                                                   activities comply with
                                                   regulatory
                                                   requirements;

                                               •   assessment of the
                                                   establishment’s
                                                   recordkeeping
                                                   activities;

                                               •   corrective actions
                                                   assessment; and



USDA/OIG-A/24601-2-KC                                                                Page 100
                          Procedure Before the                                          Changes Under
Regulation/ Directive           Recall                Changes to the Procedures          Consideration
                                                      •  reassessment
                                                         activities for the
                                                         hazard analysis or the
                                                         HACCP plan.

                                          Recall Activities
FSIS Directive          Public notification of        The RMD now notifies            The new provisions
8080.1, Rev. 3,         recalls was limited to        affected State public health    have not been
Recall of Meat and      press releases with no        departments by e-mail or        codified in the
Poultry Products        provision for directly        telephone contact when          Directive, as it has
                        notifying State public        recalls are initiated.          not been revised as
                        health departments.                                           yet.

                        There were no provisions      The RMD now notifies            The new provisions
                        for notifying suppliers       affected suppliers by e-mail    have not been
                        when a recall was made        or telephone contact when       codified in the
                        at a grinding facility that   a recall is initiated at a      Directive, as it has
                        used the supplier’s           grinding facility that used     not been revised as
                        product in the affected       the supplier’s product in the   yet.
                        grind.                        recalled product.
FSIS Directive          These are the basic           New procedure was issued
7355.1, Use of          procedures used by FSIS       to provide improved
Sample Seals for        for collecting, securing,     security over samples and
Program Samples         and shipping                  ensure the integrity of
and Other               microbiological and other     samples on
(Replaced)              product samples.              December 3, 2002.

FSIS Directive
7355.1 Revision 2,
Use of Sample
Seals for Laboratory
Samples and Other
Applications




USDA/OIG-A/24601-2-KC                                                                           Page 101
                                      Overall Program Areas
                          Procedure Before the                                           Changes Under
Regulation/ Directive             Recall             Changes to the Procedures            Consideration
No Specific             Food Safety                  The Secretary directed            The new procedure
Regulation or           Investigations.              FSIS to conduct an                has not been
Directive                                            unprecedented                     codified.
                                                     investigation of food safety
                                                     issues at the ConAgra
                                                     plant. A team of experts
                                                     headed by the Deputy
                                                     Administrator, Field
                                                     Operations, conducted the
                                                     investigation.

                        Baseline study of the                                          FSIS is considering
                        prevalence of E. coli                                          conducting a
                        O157:H7 in raw beef                                            scientifically valid
                        products.                                                      study (testing
                                                                                       program) to
                                                                                       determine the
                                                                                       prevalence of the
                                                                                       pathogen in raw
                                                                                       beef products and
                                                                                       identifying risk
                                                                                       factors that increase
                                                                                       the chance of the
                                                                                       pathogen being
                                                                                       present in products.
                                                                                       Based on the results
                                                                                       of this study, the
                                                                                       microbiological
                                                                                       testing program for
                                                                                       E. coli O157:H7
                                                                                       could be changed to
                                                                                       target sampling to
                                                                                       high-risk
                                                                                       areas/plants.
9 CFR 390.9, Rule       Due to considerations        A Memorandum of
Making, Effective       related to trade secrets,    Understanding has been
July 31, 2002           product distribution lists   developed. Any State
                        for recalled products        public health organization
                        were not shared with         willing to sign the
                        State public health          Memorandum of
                        officials.                   Understanding with FSIS
                                                     will be provided with
                                                     product distribution lists for
                                                     Class I and II recalls in their
                                                     area that occur subsequent
                                                     to signing the agreement.




USDA/OIG-A/24601-2-KC                                                                            Page 102
EXHIBIT C – CONAGRA RECALL TIMELINE

 Sample or
   Other     Establishment                                  Action
Action Date
January 2002
                               Random (MT03) sample was reported positive for E. coli
                               O157:H7 on January 28 from random monitoring sample. The
                               contaminated product was destroyed.       FSIS scheduled 15
             Montana Quality
  Jan 23                       verification samples. FSIS issued 2 NRs and issued a voluntary
                 Foods
                               recall press release announcing that the establishment was
                               recalling about 270 pounds of fresh ground beef. Establishment
                               held an additional 100 pounds.
February 2002
                               A Montana Senator and Congressman faxed a letter to the
                               Minneapolis FSIS District Office regarding the recall. The letter
             Montana Quality
  Feb 11                       included a note from Montana Quality Foods demanding that
                 Foods
                               USDA “publicly clear/exonerate the name of my firm and its
                               exemplary reputation.”
             Montana Quality   Verification sample (MT04) 1 of 15 was reported negative on
  Feb 12
                 Foods         February 14.
             Montana Quality   Verification sample 2 of 15 was reported negative on February 17.
  Feb 15
                 Foods
                               Verification sample 3 of 15 was reported positive on February 24.
             Montana Quality
  Feb 19                       No product from the lot was shipped. The contaminated product
                 Foods
                               was destroyed.
                               Verification sample 1 of 15 following the positive sample was
             Montana Quality
  Feb 20                       reported positive on February 25. No product from this lot was
                 Foods
                               shipped. The contaminated product was destroyed.
                               Verification sample 1 of 15 following the positive sample was
             Montana Quality
  Feb 21                       reported positive on February 26. No product from this lot was
                 Foods
                               shipped. The contaminated product was destroyed.
             Montana Quality   Verification sample 1 of 15 following the positive sample was
  Feb 22
                 Foods         reported negative on February 24.
             Montana Quality   FSIS issued 6 NRs for the reported positive sample results.
  Feb 25
                 Foods
                               NRs were amended by FSIS. FSIS issued an NOIE to notify the
                               company of intent to withhold the marks of inspection and suspend
                               the assignment of inspectors for its raw ground process. This was
             Montana Quality
  Feb 26                       based on an inadequate HACCP system for its raw ground
                 Foods
                               process and three positive E. coli O157:H7 samples.

                               Verification sample 2 of 15 was reported negative on February 28.
             Montana Quality   Verification sample 3 of 15 was reported negative on March 2.
  Feb 28
                 Foods




USDA/OIG-A/24601-2-KC                                                                Page 103
March 2002
                                      Responded to FSIS’ NOIE. Response was considered inadequate
                                      because it (1) did not address how the CCP would be under
     Mar 1        Montana Quality
                                      control after corrective action was taken, (2) did not identify E. coli
                      Foods
                                      as a hazard likely to occur, and (3) did not indicate that the facility
                                      would only use sampled or intervention-certified product.
                  Montana Quality     FSIS issued Notice of Suspension for the establishment‘s Raw
     Mar 5
                      Foods           Ground Process.
                                      Submitted a reassessed Raw Ground HACCP process to FSIS for
                  Montana Quality     review. This included a CCP for sampled or intervention-certified
                      Foods           incoming product for coarse-ground product, and sampling and lab
     Mar 8
                                      analysis of incoming coarse-ground product for E. coli O157:H7.
                Galligan Wholesale
                     Meat Co.         Random sample was reported negative on March 10.
                                      FSIS issued a Notice of Suspension Held in Abeyance.
                                      Establishment agreed to reassess its HACCP plan for its own
                  Montana Quality
     Mar 12                           trimmings used in the process, and to keep its own trimmings out
                      Foods
                                      of the process until the reassessment was complete. FSIS gave
                                      the company 45 days to complete this reassessment.
                  Montana Quality     Verification samples 4 and 5 of 15 were reported negative on
     Mar 14
                      Foods           March 16.
                  Montana Quality     Verification samples 6 and 7 of 15 were reported negative on
     Mar 15
                      Foods           March 17.
                  Montana Quality     Verification samples 8 and 9 of 15 were reported negative on
     Mar 18
                      Foods           March 20.
                  Montana Quality     Verification samples 10, 11, and 12 of 15 were reported negative
                      Foods           on March 21.
     Mar 19
                    ConAgra           Random sample was reported negative on March 23.
                  Montana Quality     Verification samples 13 and 14 of 15 were reported negative on
     Mar 21
                      Foods           March 23.
                  Montana Quality
     Mar 22                           Verification sample 15 of 15 was reported negative on March 24.
                      Foods
April 2002
                                      112 beef trim lots tested by ConAgra – 0 confirmed positive for
     Apr 2-5          ConAgra                          1
                                      E. coli O157:H7.
                                      107 beef trim lots tested by ConAgra – 1 confirmed positive for
    Apr 8-12          ConAgra
                                      E. coli O157:H7.
                                      105 beef trim lots tested by ConAgra – 4 confirmed positive for
    Apr 15-19         ConAgra
                                      E. coli O157:H7.
                  Montana Quality
     Apr 16                           Random sample was reported negative on April 18.
                      Foods
                                      Requested an extension to the 45-day timeline for the
     Apr 18       Montana Quality     reassessment of its trimmings in its raw ground process. This was
                      Foods           granted because the establishment was not using its own
                                      trimmings.
                                      152 beef trim lots tested by ConAgra – 0 confirmed positive for
    Apr 22-27         ConAgra
                                      E. coli O157:H7.


1
  Samples of beef trim that were taken at ConAgra were not tested by FSIS. Company records showed
that FSIS personnel were informed of the positive beef trim test results for the product that was returned
to ConAgra.

USDA/OIG-A/24601-2-KC                                                                           Page 104
                                     131 beef trim lots tested by ConAgra – 2 confirmed positive for
Apr 29-May 3         ConAgra
                                     E. coli O157:H7.
May 2002
                                     105 beef trim lots tested by ConAgra – 0 confirmed positive for
    May 6-10         ConAgra
                                     E. coli O157:H7.
                                     Random sample was reported positive May 14. Establishment
                Galligan Wholesale
     May 9                           held product pending sample results. Establishment officials
                     Meat Co.
                                     asserted they later destroyed the contaminated product.
                                     110 beef trim lots tested by ConAgra – 1 confirmed positive for
    May 13-17        ConAgra
                                     E. coli O157:H7.
                                     Sample taken May 9 was confirmed positive. No recall was
                Galligan Wholesale   necessary because the company held the entire product. FSIS
     May 14                          scheduled 15 verification samples for testing at the
                     Meat Co.
                                                    2
                                     establishment.
                Galligan Wholesale   FSIS issued an NR for positive result reported on May 14 and
     May 20
                     Meat Co.        directed the establishment to reassess its HACCP plan.
                                     124 beef trim lots tested by ConAgra – 6 confirmed positive for
    May 20-24        ConAgra
                                     E. coli O157:H7.
                 Montana Quality     Random sample was reported negative on May 25.
                     Foods
     May 23     Galligan Wholesale   Establishment responded to its NR.         HACCP plan was
                     Meat Co.        reassessed. Establishment minimized suppliers of raw product to
                                     1 or 2 per lot.
                Galligan Wholesale
     May 28                          Verification sample was reported negative on May 30.
                     Meat Co.
                                     92 beef trim lots tested by ConAgra – 5 confirmed positive for
May 28-Jun 1         ConAgra
                                     E. coli O157:H7.
                                     Date of production of original ConAgra ground beef implicated in
     May 31          ConAgra
                                     June 30 recall.
June 2002
                                     139 beef trim lots tested by ConAgra – 3 confirmed positive for
     Jun 3-7         ConAgra
                                     E. coli O157:H7.
                Galligan Wholesale   Verification sample reported potential positive on June 6. Sample
      Jun 4
                     Meat Co.        reported negative June 8.
                Galligan Wholesale   Verification sample was reported potential positive on June 7, but
      Jun 5
                     Meat Co.        reported negative June 9.
                Galligan Wholesale   Laboratory reported sample collected June 10 was discarded
     Jun 10
                     Meat Co.        because the sample was too warm.
                                     156 beef trim lots tested by ConAgra – 13 confirmed positive for
    Jun 10-15        ConAgra
                                     E. coli O157:H7.
                                     Random sample was reported negative on June 15.
                Galligan Wholesale
     Jun 11
                     Meat Co.        Verification sample was reported as potential positive on June 13
                                     and was reported negative on June 15.
                                     Verification sample was reported positive June 17. Product
                Galligan Wholesale
     Jun 12                          sampled was supplied solely by ConAgra, according to
                     Meat Co.
                                     establishment records. Sampled product was held at the plant.
                Galligan Wholesale   Verification sample reported negative on June 15. ConAgra did
     Jun 13
                     Meat Co.        not supply product sampled.



2
 The verification sample sequence for Galligan could not be definitely determined due to the absence of
documentation.

USDA/OIG-A/24601-2-KC                                                                       Page 105
                                  Verification sample was reported positive on June 19. According
                                  to FSIS, allegedly, only product purchased from ConAgra was
             Galligan Wholesale   sampled (produced by ConAgra on May 31); however, other
  Jun 14
                  Meat Co.        sources may have been incorporated into the ground beef.
                                  Establishment records showed that only ConAgra-supplied product
                                  was sampled. Sampled product was held at the plant.
                                  Verification sample taken on June 12 reported positive. This was
             Galligan Wholesale
  Jun 17                          product obtained solely from ConAgra. FSIS sent two compliance
                  Meat Co.
                                  officers to the establishment.
                                  152 beef trim lots tested by ConAgra – 3 confirmed positive for
 Jun 17-22       ConAgra
                                  E. coli O157:H7.
                 ConAgra          FSIS district manager contacted the FSIS TSC for permission to
                                  do traceback sample on product that was produced by ConAgra
                                  on May 31. TSC advised that a traceback sample would not be
                                  proper.
  Jun 18
             Galligan Wholesale   FSIS issued an NR for positive results from June 12 sample. IIC
                  Meat Co.        retained two boxes of chubs–course ground beef purchased from
                                  ConAgra.
                                  NR issued for positive result from June 14 sample. Establishment
                                  continued to allege that only ConAgra-supplied product had been
             Galligan Wholesale
                                  used. An FSIS compliance team was dispatched to initiate an
                  Meat Co.
                                  investigation. Compliance personnel from the district office visited
                                  the establishment and determined that the positive sample was
  Jun 19                          from a single source: ConAgra. Galligan pledged daily E. coli
                                  testing and set July 12 as the date for completing HACCP
                                  reassessment.
                 ConAgra
                                  Safeway launched a buy-1-get-1-free sale on ground beef for 6
                                  days, until June 24.
                                  Of 160 pounds of course ground beef located at the plant, FSIS
                                  detained 2 10-pound chubs, and 140 pounds were returned to
                                  ConAgra and held by the company. District office compliance
                                  personnel contacted FSIS Headquarters to obtain permission to
                                  take a traceback sample.         Compliance personnel obtained
  Jun 20     Galligan Wholesale
                                  additional documentation, photographed the remaining source
                  Meat Co.
                                  product, and verified that the source of the product contamination
                                  was from course ground beef from ConAgra with a pack date of
                                  May 31. Advised FSIS Headquarters officials of their findings and
                                  requested permission from FSIS OPHS to take a traceback
                                  sample.
                                  Verification sample was reported negative on June 23. The district
                                  office Assistant District Manager for Enforcement contacted an
             Galligan Wholesale
  Jun 21                          FSIS Headquarters compliance specialist concerning traceback
                  Meat Co.
                                  authority.     District office personnel provided background
                                  information to the compliance specialist.




USDA/OIG-A/24601-2-KC                                                                     Page 106
                                  Boulder District Office personnel received authority from FSIS
                                  Headquarters to take traceback samples. Traceback samples
                                  were collected by a district office compliance officer and taken
                                  from the unopened product detained on June 20 (two 10-pound
  Jun 24     Galligan Wholesale   chubs that Galligan purchased from ConAgra with a May 31
                  Meat Co.        production date). Samples were sent to the FSIS Western
                                  Laboratory. FSIS scheduled 15 verification samples. Samples
                                  reported positive on June 29.

                                  Verification sample was reported negative June 26.
                                  155 beef trim lots tested by ConAgra – 9 confirmed positive for
 Jun 24-29       ConAgra
                                  E. coli O157:H7.
             Galligan Wholesale
  Jun 25                          Verification sample was reported negative on June 27.
                  Meat Co.
             Galligan Wholesale
  Jun 26                          Verification sample was reported negative on June 28.
                  Meat Co.
             Galligan Wholesale   Verification sample was reported negative on June 29.
                  Meat Co.
  Jun 27
                 ConAgra          FSIS Western Laboratory informed ConAgra of potential positive
                                  test from the traceback sample taken at Galligan on June 24.
             Galligan Wholesale   Traceback samples taken June 24 at Galligan were confirmed
                  Meat Co.        positive for E. coli O157:H7. Positive results were transmitted
                                  about 7:10 a.m. Mountain Standard Time. FSIS initiated 15
                                  verification samples from ground beef produced by ConAgra.

  Jun 29         ConAgra          Boulder District Office received notification at 8:30 a.m. that the
                                  traceback samples collected on June 24 were positive. A recall
                                  worksheet was faxed to ConAgra corporate officials in Greeley
                                  with instructions to start gathering distribution data for product
                                  produced on May 31, 2002. Recall committee meeting was
                                  scheduled for June 30. FSIS requested a voluntary recall.
                                  Recall Committee met. ConAgra agreed to a voluntary recall of
                                  ground beef products. Nationwide recall release was issued by
  Jun 30         ConAgra
                                  FSIS for about 354,000 pound of fresh and frozen ground beef
                                  products produced on May 31.
July 2002
                                  Western Laboratory faxed a copy of the positive E. coli O157:H7
                                  results to the Boulder District Office. FSIS compliance officer and
             Galligan Wholesale   supervisory compliance officer met with ConAgra. Safeway Stores
   Jul 1
                  Meat Co.        in Colorado issued a recall for ground beef.

                                  Verification sample was reported negative on July 3.
                                  268 beef trim lots tested by ConAgra – 3 confirmed positive tests
  Jul 1-6        ConAgra
                                  for E. coli O157:H7.
             Galligan Wholesale   Verification sample was reported negative on July 4.
                  Meat Co.
                                  The June 30 ConAgra recall triggered the dispatch of FSIS
   Jul 2         ConAgra          compliance officers to conduct recall effectiveness checks. FSIS
                                  dispatched a CSO to work with in-plant inspection personnel to
                                  review the company’s reassessment of its HACCP plan.

                                  Safeway announced it sold some of the recalled ground beef.
             Galligan Wholesale
   Jul 5                          Verification sample was reported negative on July 7.
                  Meat Co.

USDA/OIG-A/24601-2-KC                                                                     Page 107
            Galligan Wholesale
   Jul 8                         Verification sample was reported negative on July 10.
                 Meat Co.
                                 269 beef trim lots tested by ConAgra – 17 confirmed positive for
 Jul 8-13       ConAgra
                                 E. coli O157:H7.
                                 Colorado State health officials reported an outbreak of 12 cases of
                                 E. coli O157:H7 in 9 counties and informed the public to return
                                 product from Safeway stores that was sold from June 7 to June
                                 18. Colorado Department of Public Health and Environment
  Jul 10                         notified the CDC of a cluster of 18 culture-cured confirmed cases
                                 of E. coli O157:H7 infections possibly related to recalled ground
                                 beef.

                ConAgra          FSIS determined the need for a full food safety investigation and a
                                 review team was dispatched to the ConAgra plant.
                                 Verification sample discarded on July 13 due to inconsistency with
                ConAgra          the chain of custody requirements.

                                 Responded to two NRs. Galligan will do daily E. coli O157:H7
  Jul 11
            Galligan Wholesale   testing in beef trimmings or ground beef. Establishment will
                 Meat Co.        change supplier from ConAgra. Establishment will complete
                                 HACCP plan reassessment by July 26. Retained product recalled
                                 to ConAgra and shipped under seal to ConAgra.
                                 Colorado State health officials announced there were an additional
                                 5 cases associated with the current illness outbreak, bringing the
                                 total to 17 cases.

                                 Colorado Health Department reported that epidemiological case
                                 interviews found that 17 of 18 patients were reported purchasing
  Jul 12        ConAgra          ground beef from the same grocery store chain. Colorado Health
                                 Department review of grocery store chain grinding logs indicated
                                 that ConAgra produced the ground beef repackaged by the store
                                 chain on May 31.

                                 Sample discarded on July 13 because of inconsistency with chain
                                 of custody requirements.
  Jul 13        ConAgra          Verification sample 1 was reported negative on July 17.
                                 Verification sample was reported negative on July 19.

                                 CDC informed FSIS that pulsed-field gel electrophoresis (PFGE)
                                 pattern of patients’ isolates in Colorado matched pattern of
                                 ConAgra chub isolate.

                                 Food Safety Review Team, led by FSIS Deputy Administrator for
                                 Field Operations, arrived at ConAgra.

                                 FSIS released statement on change in its recall policy. FSIS will
                                 inform meat suppliers of positive E.coli O157:H7 test results for
                                 products sampled at plants to which the supplier shipped raw
                                 product for further processing.

  Jul 15    Galligan Wholesale   Staff members from a Congressional representative and a senator
                 Meat Co.        contacted the Office of Congressional and Public Affairs
                                 requesting information regarding the July 14 Denver Post article
                                 concerning the ConAgra beef recall.



USDA/OIG-A/24601-2-KC                                                                    Page 108
                                  A senator sent a letter to USDA Secretary expressing concern
                                  about the USDA procedures and guidelines that do not require
                                  inspectors, upon a positive E-coli O157:H7 test, to contact
                                  suppliers so that they may initiate aggressive voluntary testing and
                                  recall procedures.

                                  PFGE patterns from Colorado patient isolates were found to be
                                  indistinguishable from the same isolates for ConAgra ground beef
                                  produced on May 31.

                                  At least 3 additional cases of E. coli O157:H7 in Arkansas and
                                  California are potentially associated epidemiologically with the
                                  consumption of ground beef produced by ConAgra on May 31.

                 ConAgra          Verification sample 2 was reported negative on July 18.
                                  305 beef trim lots tested by ConAgra – 11 confirmed positive for
 Jul 15-19       ConAgra
                                  E. coli O157:H7.
              Montana Quality     FSIS closed out establishment’s suspension with a Notice of
                  Foods           Warning because FSIS accepted the establishment’s completed
  Jul 16                          reassessment of its hazard analysis of its own trimmings.

                   ConAgra        Verification sample 3 was reported negative on July 19.
             Galligan Wholesale   Verification sample was reported negative on July 19.
                  Meat Co.
                                  FSIS Food Safety Review Team briefed Recall Committee of
  Jul 17
                                  findings at ConAgra.

                 ConAgra          Verification sample 4 was reported negative on July 19.
                                  Recall Committee recommended ConAgra expand recall beyond
                                  the 354,200 pounds (May 31 production) to include product
                                  produced between April 12 and July 11 (about 18 million pounds).
  Jul 18         ConAgra          ConAgra accepted this determination. NOIE action was submitted
                                  to ConAgra, which had 72 hours to respond.

                                  Verification sample 5 was reported negative on July 20.
                                  Recall of 26 production days of product was announced by FSIS –
                                  about 19 million pounds.
  Jul 19         ConAgra
                                  Verification sample 6 was reported negative on July 24.
  Jul 20         ConAgra          Verification sample 7 was reported negative on July 26.
                                  Conference call with the CDC reported 21 confirmed cases of
                                  E. coli O157:H7 that share the Colorado/ConAgra PFGE pattern.
  Jul 22         ConAgra
                                  There were 17 cases in Colorado, with 1 each from 4 other states.
                                  Verification sample 8 was reported negative on July 24.
                                  348 beef trim lots tested by ConAgra – 7 confirmed positive for
 Jul 22-26       ConAgra
                                  E. coli O157:H7.
             Galligan Wholesale   Verification sample was reported negative on July 25.
                  Meat Co.
  Jul 23
                   ConAgra        Verification sample 9 was reported negative on July 26.
  Jul 24           ConAgra        Verification sample 10 was reported negative on July 27.
             Galligan Wholesale   Verification sample was reported negative on July 27.
  Jul 25
                  Meat Co.

                 ConAgra          Verification sample 11 was reported negative on July 28.


USDA/OIG-A/24601-2-KC                                                                     Page 109
               Galligan Wholesale   Deadline for completing reassessment per response to 2 NRs.
                    Meat Co.
                                    Verification sample was reported negative on July 28.

                   ConAgra          Letter from 2 senators to the Acting Inspector General requested
   Jul 26
                                    information concerning the effectiveness of USDA’s recall system
                                    for meat and poultry products, and the effectiveness of USDA’s
                                    response regarding the ConAgra recall.

                   ConAgra          Verification sample 12 was reported negative on July 31.
   Jul 27          ConAgra          Verification sample 13 was reported negative on July 31.
                                    491 beef trim lots tested by ConAgra – 2 confirmed positive for
Jul 29-Aug 2       ConAgra
                                    E. coli O157:H7.
   Jul 29          ConAgra          Verification sample 14 was reported negative on August 1.
   Jul 30          ConAgra          Verification sample 15 was reported negative on August 1.
August 2002
               Galligan Wholesale   Random sample was reported negative on August 27.
                    Meat Co.
   Aug 2
                   ConAgra          Sample was discarded on August 7 because of sample collection
                                    irregularities.
                                    478 beef trim lots tested by ConAgra – 2 confirmed positive tests
  Aug 5-9          ConAgra
                                    for E. coli O157:H7.
   Aug 7           ConAgra          Verification samples 16-22 were reported negative on August 9.
   Aug 8           ConAgra          Verification sample 23 was reported negative on August 11.
                                    The CDC reported 46 confirmed cases in 16 states of E. coli
   Aug 9           ConAgra          O157:H7 that shared the Colorado/ConAgra PFGE pattern.

                                    Verification sample 24 was reported negative on August 13.
                                    357 beef trim lots tested by ConAgra – 5 confirmed positive for
 Aug 12-16         ConAgra
                                    E. coli O157:H7.
  Aug 12           ConAgra          Verification sample 25 was reported negative on August 15.
  Aug 13           ConAgra          Verification sample 26 was reported negative on August 15.
  Aug 14           ConAgra          Verification sample 27 was reported negative on August 17.
  Aug 15           ConAgra          Verification sample 28 was reported negative on August 17.
  Aug 16           ConAgra          Verification sample 29 was reported negative on August 21.
  Aug 19           ConAgra          Verification sample 30 was reported negative on August 21.
                                    349 beef trim lots tested by ConAgra – 10 confirmed positive for
 Aug 19-23         ConAgra
                                    E. coli O157:H7.
                                    Verification sample was reported negative on August 23.
               Galligan Wholesale
  Aug 20            Meat Co.
                                    Verification sample 31 was reported negative on August 23.
                   ConAgra          Notice of Deferral is issued to ConAgra placing the NOIE in
                                    abeyance.
               Galligan Wholesale   Verification sample was reported negative on August 26.
                    Meat Co.
  Aug 21
                   ConAgra          Verification sample 32 was reported negative on August 23.
  Aug 22           ConAgra          Verification sample 33 was reported negative on August 24.
  Aug 23           ConAgra          Verification sample 34 was reported negative on August 28.
  Aug 26           ConAgra          Verification sample 35 was reported negative on August 29.
  Aug 27           ConAgra          Verification sample 36 was reported negative on August 30.



USDA/OIG-A/24601-2-KC                                                                       Page 110
                                  336 beef trim lots tested by ConAgra – 5 confirmed positive for
 Aug 26-30       ConAgra
                                  E. coli O157:H7.
  Aug 28           ConAgra        Verification sample 37 was reported negative on August 30.
             Galligan Wholesale   Recalled about 980 pounds of ground beef pepper patties that
                  Meat Co.        were potentially contaminated on June 14 with E-coli O157:H7
                                  from product recalled by ConAgra. OIG audit team discovered the
  Aug 30
                                  problem.

                 ConAgra          Verification sample 38 was reported negative on September 5.
September 2002
                                  Sample for Wolf Brand product was taken. Results were reported
                                  positive on September 16. The contaminated product was
  Sep 10         ConAgra          cooked. FSIS inspection personnel had not written an NR as of
                                  September 25 (the final day of OIG’s in-plant review). Random
                                  sample was reported negative on September 16.
  Sep 11         ConAgra          Verification sample 39 was reported negative on September 14.
November 2002
  Nov 15         ConAgra          FSIS withdrew inspection.
                                  FSIS again provided inspection personnel to ConAgra to allow the
  Nov 20         ConAgra
                                  plant to continue full operations.




USDA/OIG-A/24601-2-KC                                                                  Page 111
EXHIBIT D – REPETITIVE NRs WRITTEN FOR ZERO TOLERANCE
VIOLATIONS


            Calendar Years 2001 and 2002

                   NR                       Department with Violation
                 Number         Date     Slaughter Fabrication Var. Meats
                 00001-01     01/02/01                 X1
                 00003-01     01/08/01      X1
                 00006-01     01/11/01                 X2
                 00009-01     01/16/01      X2
                 00010-01     01/17/01      X3
                 00011-01     01/17/01                 X3
                 00012-01     01/24/01      X4
                 00013-01     01/29/01                 X4
                 00014-01     01/30/01                 X5
                 00019-01     02/26/01                 X6
                 00020-01     03/06/01      X5
                 00021-01     03/13/01      X6
                 00030-01     05/08/01                 X7
                 00035-01     05/16/01                 X8
                 00045-01     07/02/01                 X9
                 00053-01     07/13/01                X10
                 00057-01     07/30/01                X11
                 00058-01     07/30/01      X7
                 00059-01     07/31/01                X12
                 00060-01     08/01/01                X13
                 00061-01     08/01/01      X8
                 00066-01     08/10/01      X9
                 00067-01     08/14/01                X14
                 00068-01     08/15/01                X15
                 00072-01     08/25/01                X16
                 00075-01     09/04/01      X10
                 00077-01     09/08/01      X11
                 00079-01     09/13/01      X12
                 00080-01     09/15/01      X13
                 00081-01     09/15/01      X14
                 00083-01     10/09/01                             X1
                 00084-01     10/11/01                             X2
                 00086-01     10/24/01      X15
                 00088-01     11/07/01      X16
                 00093-01     12/05/01                X17
                 00095-01     12/05/01      X17
                 00101-01     12/17/01      X18

USDA/OIG-A/24601-2-KC                                                       Page 112
            Calendar Years 2001 and 2002

                    NR                        Department with Violation
                  Number          Date     Slaughter Fabrication Var. Meats
                  00102-01      12/21/01                X18
                  00103-01      12/28/01      X19
            Total 2001             39         19         18           2
                  00009-02      01/22/02      X1
                  00010-02      01/25/02      X2
                  00012-02      01/29/02                 X1
                  00016-02      02/18/02                             X1
                  00019-02      02/19/02                 X2
                  00020-02      02/20/02                 X3
                  00021-02      03/05/02                 X4
                  00022-02      03/06/02                             X2
                  00025-02      04/09/02                 X5
                  00026-02      04/11/02      X3
                  02-2002       06/06/02                             X3
                    Recall      06/30/02
                 Expanded       07/18/02
                   06-2002      07/25/02      X4
                   12-2002      09/04/02      X5
                   14-2002      09/10/02      X6
                   15-2002      09/10/02      X7
                   18-2002      09/16/02      X8
                   21-2002      09/27/02                 X6
                   24-2002      10/02/02     X9
                   26-2002      10/07/02     X10
                   33-2002      10/28/02     X11
                   38-2002      11/04/02     X12
                   40-2002      11/06/02     X13
                   43-2002      11/12/02                 X7
                   44-2002      11/13/02     X14
                   45-2002      11/13/02                 X8
                   46-2002      11/14/02                 X9
                   47-2002      11/14/02     X15
            Total 2002             27        15          9           3
            Total for 2001-2002    66        34          27          5




USDA/OIG-A/24601-2-KC                                                         Page 113
EXHIBIT E – DETAILS OF FLAWS IN HACCP PLANS



The above exhibit can be requested pursuant to the Freedom of
Information Act (FOIA), 5 U.S.C. § 552(a)(3)(A) by contacting:

                        Freedom of Information Act Officer
                        Food Safety and Inspection Service
                        U.S. Department of Agriculture
                        1400 Independence Avenue SW.
                        Washington, D.C. 20250
                        Telephone: (202) 690-3881




USDA/OIG-A/24601-2-KC                                        Page 114
EXHIBIT F – EXAMPLES OF UNSANITARY PRACTICES AND
VIOLATIONS OF PROCEDURES AT CONAGRA

                   Observations on USDA Inspection Personnel

 1. An FSIS inspector was observed walking on the moving viscera table after all
    pre-operational procedures and sanitization of the surfaces had been performed
    by the plant. The boots the inspector was wearing were the same boots that he
    had used to walk on the contaminated floor.

 2. Lock Out/Tag Out procedures as defined in FSIS directives were not followed.

 3. No documentation was kept for noncompliance found by FSIS GS-7 inspectors
    while conducting pre-operational sanitation verifications on the slaughter floor.
    The noncompliances were orally passed to a GS-9 inspector. The GS-9 inspector
    then notified the establishment of the noncompliances found orally at a weekly
    sanitation meeting. No record of the meeting was made by FSIS and no
    documentation of the noncompliances observed by FSIS personnel was made on
    an FSIS Form 5400-4, Noncompliance Record. There were no NRs issued for the
    year 2002 for pre-operational sanitation verifications by FSIS. This is not
    indicative of SSOP’s pre-operational sanitation verification methodology, as
    illustrated by FSIS Directive 5400.5, XI, A, or as outlined in the regulations.

 4. FSIS inspection personnel did not follow the personal hygiene rules of the
    establishment. We noted beard nets were not worn by one inspector and one
    veterinary medical officer and hairnets were improperly worn by three FSIS
    inspectors because they were completely under their issued helmets. (ConAgra
    SOP 213 requires that the hairnet must cover all of the hair.)

 5. Inspectors did not hold samples under security until shipped.

 6. The local inspectors did not write an NR, as required by procedure, after FSIS
    tested a sample of ground beef on September 10, 2002, and found it to be positive
    for E. coli O157:H7 on September 16, 2002. An NR had not been written as of
    September 25, 2002. The IIC said he was aware the procedure required an NR,
    but could not explain why an NR was not prepared.




USDA/OIG-A/24601-2-KC                                                      Page 115
                   Observations on ConAgra Production Areas

 1. Cleaning crew from the contracted cleaning service followed each monitor in a
    “bucket brigade.” That is, the contract cleaning personnel followed the official
    SSOP monitors with green rags, with and without buckets of soap, and attempted
    to clean the noncompliances as they were pointed out by the official SSOP
    monitor. In many instances, the residual meat, fat, or blood was simply rinsed off
    with potable water or wiped off with a rag. (In general, inspection personnel were
    of the opinion that the conditions we cited would be corrected by the plant using a
    sanitizing foam that killed bacteria before the start of operations.)

 2. The SSOP monitor crawled on top of edible contact surfaces so that the top of her
    contaminated boot rested on an edible product contact surface. The area was not
    identified by the monitor as needing to be recleaned after she contaminated the
    surfaces through unhygienic practices. (When the GS-9 inspector was questioned
    as to whether he saw a problem with the unhygienic practices of the plant’s SSOP
    monitor, the inspector answered, “No, they sanitize everything before they start.”)

 3. A large overhead refrigeration drip pan was observed draining out what appeared
    to be water onto the edible product cutting boards below.

 4. Standing water was observed in an overhead drip pan suspended over a belt. No
    drain was apparent. A later walk through the area revealed that the water had not
    been drained out.

 5. A drain from a catch pan for overhead frosted-over pipes was noted bent so that
    the angle of the drain would force water above the lowest point in the pan. This
    lowest point of the drain pan was bent down directly over an edible product belt.

 6. Large amounts of condensation were observed on numerous uncleaned overhead
    structures. The condensation was wiped down so that the excess contaminated
    condensate dripped/fell directly onto food product contact and nonfood product
    contact surfaces.

 7. Black grease observed on two belts.

 8. Packaging material for products observed being loaded and staged into the
    fabrication room before the room being released by the official SSOP monitor or
    FSIS.

 9. Spinal cord tissue observed in neck bones being prepared for advanced meat
    recovery. (NOTE: The audit team was informed later in the day that the
    combo-bin of product was plant-condemned.)

 10. Residual droplets of clear fluid identified by the quality assurance manager as
     sanitizer (200 ppm of quaternary ammonia) were observed on the stainless steel
     chutes above the boneless beef trimmings. The droplets of sanitizer were
     observed falling directly into the combo-bin of edible beef trimmings destined for
USDA/OIG-A/24601-2-KC                                                        Page 116
     grinding into raw ground beef. Similar droplets were observed on other stainless
     steel overhead structures in the grinding area. According to the quality assurance
     manager, this is the same concentration level used on direct product contact
     surfaces without a potable water rinse.

 11. In one case, the official SSOP monitor pointed out dried blood to a contract
     sanitation worker for correction and went on with her inspection. The sanitation
     worker did not clean the noncompliant area. In a similar case, the official monitor
     did not observe an approximately 3.5 inches by 1 inch area of blood on the
     automated hind quarter deboning drop in fabrication. It was then pointed out to
     the contract cleaning crew by the quality assurance manager. The quality
     assurance manager, the SSOP monitor, and the cleaning crew all left the area. A
     contract-cleaning crewmember tried to correct the noncompliance. He jumped up
     to try to reach the noncompliance with a rag to wipe it off, but could not reach it.
     He then shrugged his shoulders and left the area.

 12. Related to the contract cleaning crew, there were uncleaned overhead structures
     and the porous concrete ceilings were wet with condensate and beaded
     condensation. Pressurized air is used to dry the surfaces. Workers use air hoses
     equipped with about 6-foot copper piping to focus air directly onto the overhead
     surfaces to dry the wet, porous concrete ceiling and overhead surfaces. This
     practice potentially spreads overhead debris, dust, organic matter; condensate
     contaminated by formation on the uncleaned surfaces, and microorganisms onto
     the food product contact surfaces below.

 13. Squeegees and poles wrapped with rags darkened by contamination are used to
     wipe condensate from unclean overhead structures. The condensate was
     observed falling onto food product contact surfaces (belts, cutting boards, etc.).
     These surfaces were previously cleaned by the cleaning contractors. This practice
     potentially contaminates the food product contact surfaces below.

 14. Hoses from the floor were observed being dragged over edible product contact
     belts and other food product contact surfaces. Workers routinely picked up hoses
     and other equipment from the floor with their hands and then touched product
     contact surfaces after the cleaning procedure was completed.

 15. The contract cleaning crew was observed using metal rods to prop up edible
     product contact belts to aid in the inspection by the official SSOP monitors. The
     rods were observed being routinely dragged, dropped, and temporarily stored on
     the contaminated floor before, during, and after their use to aid inspection of edible
     food product contact surfaces. The food product contact surfaces, on which the
     rods were used, were previously cleaned by the cleaning contractors as the room
     was presented to the official SSOP monitors for monitoring.

 16. Hoses were used to rinse down meat, fat, etc., on food product contact and
     nonfood product contact surfaces of equipment and utensils with potable water
     without further cleaning.


USDA/OIG-A/24601-2-KC                                                           Page 117
 17. The official SSOP monitors observed (about three of five) concentrated monitoring
     procedures on nonfood product contact surfaces, equipment, and utensils rather
     than on direct food product contact surfaces.

 18. The official SSOP monitors were observed using unsanitary hygienic practices
     during their monitoring procedures. For example, the monitors examined the
     undersides of perforated treads on ladders and other contaminated nonfood
     product contact surfaces through organoleptic “touch” methodology. The official
     SSOP monitors then organoleptically examined direct food product contact
     surfaces through “touch” methodology without washing and/or sanitizing their
     hands. A monitor was noted wiping her nose on her forearm and then proceeding
     to resume her SSOP monitoring of direct food product contact surfaces without
     washing or sanitizing her hands or forearm. A monitor was observed adjusting
     and putting on her personal protective gear and then proceeding to resume her
     SSOP monitoring of direct food product contact surfaces without washing or
     sanitizing her hands. A monitor was seen scratching her head through a hairnet
     and then proceeding to resume her SSOP monitoring of direct food product
     contact surfaces without washing or sanitizing her hands. An official SSOP
     monitor was observed walking on the movable viscera table in the slaughter
     department to inspect equipment. The moving table had previously been cleaned
     as it was released by the cleaning contractor for the ConAgra monitoring. The
     SSOP monitor wore the same boots used to walk on the contaminated floor. The
     table was not recleaned or reinspected. The official SSOP monitors either ignored
     or were not cognizant of the numerous incidences of direct product contact surface
     contamination by the contracted cleaning crew or themselves through improper
     equipment handling, employee hygiene practices, or cleaning methodology.

 19. Large sections of mold (12 feet by 2 feet) and chipping and flaking paint were
     observed on the overhead structures and ceilings of the offal room in the slaughter
     department. Mold was noted in two other production areas.

 20. Cracks in welds were also observed on stainless steel chutes that connect to the
     ceiling in the offal department and on one wash table for the offal.

 21. During line operation in fabrication, an employee was noted trimming fecal
     material and not sanitizing her knife before trimming the next item.

 22. Contract cleaning personnel observed using a hose to fill the sanitizer pump. The
     hose was submerged in the sanitizer and overflowing. The other end of the hose
     was placed over the nozzle of a faucet of a hand wash sink without an air gap,
     thus covering the entire faucet head. This could lead to possible back-siphoning
     of nonpotable materials into the water supply.




USDA/OIG-A/24601-2-KC                                                         Page 118
EXHIBIT G – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-2-KC                           Page 119
USDA/OIG-A/24601-2-KC   Page 120
USDA/OIG-A/24601-2-KC   Page 121
USDA/OIG-A/24601-2-KC   Page 122
USDA/OIG-A/24601-2-KC   Page 123
USDA/OIG-A/24601-2-KC   Page 124
USDA/OIG-A/24601-2-KC   Page 125
USDA/OIG-A/24601-2-KC   Page 126
USDA/OIG-A/24601-2-KC   Page 127
USDA/OIG-A/24601-2-KC   Page 128
USDA/OIG-A/24601-2-KC   Page 129
USDA/OIG-A/24601-2-KC   Page 130
USDA/OIG-A/24601-2-KC   Page 131
USDA/OIG-A/24601-2-KC   Page 132
USDA/OIG-A/24601-2-KC   Page 133
USDA/OIG-A/24601-2-KC   Page 134
USDA/OIG-A/24601-2-KC   Page 135
USDA/OIG-A/24601-2-KC   Page 136
USDA/OIG-A/24601-2-KC   Page 137
USDA/OIG-A/24601-2-KC   Page 138
USDA/OIG-A/24601-2-KC   Page 139
USDA/OIG-A/24601-2-KC   Page 140
USDA/OIG-A/24601-2-KC   Page 141
USDA/OIG-A/24601-2-KC   Page 142
USDA/OIG-A/24601-2-KC   Page 143
USDA/OIG-A/24601-2-KC   Page 144
USDA/OIG-A/24601-2-KC   Page 145
                          ABBREVIATIONS


Act             -   Federal Meat Inspection Act

AER             -   Administrative Enforcement Report

ARS             -   Agricultural Research Service

CCP             -   Critical Control Point

CDC             -   Centers for Disease Control and Prevention

ConAgra         -   ConAgra Beef Company

CFR             -   Code of Federal Regulations

CO              -   Compliance Officer

CS              -   Circuit Supervisor

CSO             -   Consumer Safety Officer

E. coli         -   Escherichia coli

FDA             -   Food and Drug Administration

FMFIA           -   Federal Manager’s Financial Integrity Act

FSI             -   Food Safety Investigation

FSIS            -   Food Safety and Inspection Service

FSRE            -   Food Safety Regulatory Essentials

Galligan        -   Galligan Wholesale Meat Company

GAO             -   General Accounting Office

GRAS            -   Generally Recognized as Safe

HACCP           -   Hazard Analysis and Critical Control Point

IIC             -   Inspector-In-Charge

USDA/OIG-A/24601-2-KC                                            Page 146
IPPS              -   In-Plant Performance System Reviews

ISO               -   International Organization for Standardization

ISP               -   Inspection System Procedure

LEARN             -   Laboratory Electronic Application for Results Notification

Montana Quality
 Foods            -   Montana Quality Foods & Processing, Inc.

MOU               -   Memorandum of Understanding

NOIE              -   Notice of Intended Enforcement

NR                -   Noncompliance Record

OCP               -   Other Consumer Protections

OCFO              -   Office of the Chief Financial Officer

OFO               -   Office of Field Operations

OIG               -   Office of Inspector General

OPEER             -   Office of Program Evaluation, Enforcement, and Review

OPHS              -   Office of Public Health and Safety

PBIS              -   Performance Based Inspection System

PFGE              -   Pulsed-field Gel Electrophoresis

PPM               -   Parts Per Million

RMD               -   Recall Management Division

SCO               -   Supervisory Compliance Officer

SOP               -   Standard Operating Procedure

SPS               -   Sanitation Performance Standards

SSOP              -   Sanitation Standard Operating Procedures

SVMO              -   Supervisory Veterinary Medical Officer


USDA/OIG-A/24601-2-KC                                                        Page 147
TSC             -   Technical Service Center

USDA            -   U. S. Department of Agriculture

VMO             -   Veterinary Medical Officer




USDA/OIG-A/24601-2-KC                                 Page 148
                         GLOSSARY OF TERMS


Chub                       A tube type package containing processed meat.

Combo                      A bin or box containing either 1,000 or 2,000 pounds of
                           beef products.

Fabrication Department     The section of the plant devoted to processing carcasses
                           into primal cuts and other non-intact beef products, such as
                           trim and raw ground beef.

Slaughter Department       The section of the plant devoted to slaughtering cattle and
                           dressing out beef carcasses.

Small Boxing               Procedure of re-packaging beef trim from combo boxes into
                           smaller boxes for re-sale to processing plants that produce
                           fully cooked products. This procedure was followed when
                           combo boxes were rejected at grinding facilities due to
                           positive tests for E. coli O157:H7.

Variety Meats Department The section of the plant devoted to processing offal
                         products.




USDA/OIG-A/24601-2-KC                                                        Page 149
Informational copies of this report have been distributed to:


Administrator, FSIS
       ATTN: Director, Internal Control Staff (20)
General Accounting Office (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division (1)
